<html>
<title> - THE ROAD AHEAD: ADVANCED VEHICLE TECHNOLOGY AND ITS IMPLICATIONS</title>
<body><pre>[Senate Hearing 113-78]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 113-78

 
    THE ROAD AHEAD: ADVANCED VEHICLE TECHNOLOGY AND ITS IMPLICATIONS

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 15, 2013

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                  U.S. GOVERNMENT PRINTING OFFICE
82-768                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="89eef9e6c9eafcfafde1ece5f9a7eae6e4a7">[email&#160;protected]</a>  


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
FRANK R. LAUTENBERG, New Jersey      MARCO RUBIO, Florida
MARK PRYOR, Arkansas                 KELLY AYOTTE, New Hampshire
CLAIRE McCASKILL, Missouri           DEAN HELLER, Nevada
AMY KLOBUCHAR, Minnesota             DAN COATS, Indiana
MARK WARNER, Virginia                TIM SCOTT, South Carolina
MARK BEGICH, Alaska                  TED CRUZ, Texas
RICHARD BLUMENTHAL, Connecticut      DEB FISCHER, Nebraska
BRIAN SCHATZ, Hawaii                 RON JOHNSON, Wisconsin
WILLIAM COWAN, Massachusetts
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 15, 2013.....................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Thune.......................................     3
Statement of Senator Nelson......................................    15
Statement of Senator Johnson.....................................    16
Statement of Senator Pryor.......................................    19

                               Witnesses

Hon. David L. Strickland, Administrator, National Highway Traffic 
  Safety Administration..........................................     5
    Prepared statement...........................................     6
Mitch Bainwol, President and CEO, Alliance of Automobile 
  Manufacturers..................................................    23
    Prepared statement...........................................    25
Jeffrey J. Owens, Chief Technology Officer and Executive Vice 
  President, Delphi Automotive...................................    29
    Prepared statement...........................................    31
Dr. Peter F. Sweatman, Director, University of Michigan 
  Transportation Research Institute..............................    34
    Prepared statement...........................................    35
Dr. John D. Lee, Emerson Electric Quality and Productivity 
  Professor, Department of Industrial and Systems Engineering, 
  University of Wisconsin-Madison................................    39
    Prepared statement...........................................    40

                                Appendix

Hon. Frank R. Lautenberg, U.S. Senator from New Jersey, prepared 
  statement......................................................    53
Isaac Litman, CEO, Mobileye Aftermarket, prepared statement......    54
Response to written questions submitted to Hon. David L. 
  Strickland by:
    Hon. John D. Rockefeller IV..................................    55
    Hon. Frank R. Lautenberg.....................................    59
    Hon. Amy Klobuchar...........................................    61
    Hon. Dan Coats...............................................    63
Response to written questions submitted by Hon. Frank R. 
  Lautenberg to:
    Mitch Bainwol................................................    65
    Jeffrey J. Owens.............................................    66
    Dr. Peter F. Sweatman........................................    66
    Dr. John D. Lee..............................................    68
Response to written question submitted by Hon. John Thune to 
  Mitch Bainwol..................................................    69


    THE ROAD AHEAD: ADVANCED VEHICLE TECHNOLOGY AND ITS IMPLICATIONS

                              ----------                              


                        WEDNESDAY, MAY 15, 2013

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:40 p.m. in room 
SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. Mr. Strickland, I apologize.
    Mr. Strickland. No apologies, sir. This is your forum.
    The Chairman. John Thune was here on time. He is from South 
Dakota, and they have got good values.
    [Laughter.]
    The Chairman. We have good values in West Virginia, but 
just evidently today, a couple of them passed me right by, so I 
apologize.
    The story of modern America would be difficult to tell 
without the automobile. Ever since the Model T first rolled off 
the assembly--that should say assembly line, should it not? You 
cannot walk off an assembly.
    [Laughter.]
    The Chairman.--the car and its drivers have shaped our 
history, our lives, and our imagination. It was the automobile, 
after all, that brought forth Detroit's rise. The golden age of 
manufacturing, it gave Americans a new sense of independence 
and freedom. It changed quite literally our country's 
landscape. The car has been a defining ingredient in modern 
American culture.
    The automobile has also been central to the story of 
America's innovation and public safety standards. Seat belts, 
brake lights, air bags have saved innumerable lives that were 
once needlessly lost. Today the cars on our roads are safer 
than ever, but we still have a long way to go.
    More than 30,000 lives are lost each year--I can remember 
when that was 50,000. I can remember when that was 50,000, so 
that's good, but that is an awful lot of lost lives--each year 
on our highways and roads. Most crashes frankly are caused by 
driver error. That needs to be said. Automakers, regulators, 
researchers must continue their pursuit of safer vehicles and 
fewer fatalities, especially at the hands of driver 
distraction, impairment, or poor judgment. In recent years, I 
have seen advances in vehicle technology that show great 
potential, not only to save the lives of many more, but also to 
revolutionize how we have come to understand the relationship 
between the driver and his or her car.
    Driver-assist technology has already found its way into 
some of today's cars. Electronic--and they will get to Florida 
in due time--electronic stability control, for example, 
prevents rollover accidents and is now installed in all new 
cars, saving hundreds of lives per year. The latest sensors, 
cameras, and software are doing even more to assist drivers. 
They can warn the person behind the wheel of an imminent crash. 
If the driver does not respond, the car will stop itself. They 
can warn drivers if the vehicle is drifting into another lane, 
and can even automatically bring the car back to its proper 
place. Another system knows when the driver's eyes wander off 
the road and can alert him back, or her, back to the task at 
hand.
    So the power of technology is already saving lives, but 
looking ahead a bit further down the road, the car's future is 
even more incredible. Advanced technologies currently under 
research and development could radically challenge our notion 
of what it means to be behind the wheel. One of these 
technologies enables vehicles to communicate with each other 
and with the road, warning drivers of dangers ahead that they 
have no way to see. Another technology, of course, is one all 
of us have heard about, that is, the self-driving car that 
could take you safely from point A to point B with no human 
involvement.
    There is much to be excited about as these technologies 
develop, but there are risks as well. As important questions, 
we have to ask some of them this day and discuss them. One 
growing technology raises concerns for me, and that is auto 
makers seem to be engaged in a race of sorts to see who can add 
more entertainment and communication devices and features into 
the car's dashboard, all in the name of allowing drivers to 
remain connected. I am not convinced so many of these devices 
are necessary, and I fear they only further distract drivers. 
We can discuss that.
    Even those technologies with great potential, safety 
benefits, come with their risks. As our cars become more 
computerized and electronics-based, can the industry make sure 
that they are reliable and prevent failures? And as our cars 
become more connected to the Internet, to wireless networks, 
with each other, and with our infrastructure, are they risk for 
catastrophic cyberattacks? In other words, could some 14-year-
old in Indonesia figure out how to do this and just shut your 
car down--shut a whole bunch of cars down because everything is 
now wired up? And this is one of the, you know, results of the 
Internet. You connect things enough, you can cause things to 
stop happening. Now, that potentially will at some point 
include automobiles.
    And as our cars become more computerized and more 
electronic based, can the industry make sure that they are 
reliable and prevent failures?
    So we have so much change in automobiles and at such a 
rapid clip. It is like people are competing with each other to 
titillate, tantalize, and it sells. It works. This is not of 
particular interest to anybody, but I am a great fan of Johan 
Sebastian Bach, and I listen to him when I drive to work, and I 
listen to him when I go home. But in order to listen to him, 
I've got to push all kinds of things. And if you have noticed 
traffic recently in Washington, D.C., you do that for a second, 
and you have moved a half lane over. You did not mean to, but 
you just have because you've got to do this, and you've got to 
do this, and you've got to do that. And that is a simple one.
    I think this hearing is going to provide us with an 
overview of what the future holds for our cars, it will give us 
a foundation for future legislation if necessary and for future 
industry oversight as we move forward. If they deliver as 
promised, the technologies we are discussing today have the 
potential to revolutionize transportation and bring about 
dramatic improvements in safety.
    And I thank you, and I turn to my distinguished Ranking 
Member, Senator Thune.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman. I will be watching 
for you, listening to Bach when I am driving in in the morning.
    [Laughter.]
    Senator Thune. I want to----
    Senator Nelson. Watch for him when he punches the devices. 
[Laughter.]
    Senator Thune. I want to want to thank you, Mr. Chairman, 
for holding this hearing as the Committee examines a variety of 
advanced motor vehicle technologies that are now emerging in 
the marketplace and working their way through the product 
development pipeline. These technologies, which include driver 
assistance systems, vehicle-to-vehicle communication, and 
autonomous self-drive cars, offer the promise of many future 
benefits.
    Advanced driver assistance technologies, such as adaptive 
cruise control, collision avoidance, and lanekeeping systems 
appear to offer obvious safety benefits. In addition, these 
technologies, many of which are being developed domestically, 
represent innovations that will help to drive the tech and 
manufacturing sectors and benefit our economy. It is very 
welcome news to hear NHTSA report that traveling by vehicle has 
become safer in recent years. According to the agency, fatality 
and injury rates reached new lows in 2009 compared to 10 years 
ago.
    I hope we will continue to improve in this area, and I am 
encouraged by new technologies that offer the promise of an 
even safer driving experience. One such advancement is the 
Department of Transportation's Intelligence Transportation 
Systems Program, better known as ITS. In 1999, the Federal 
Communications Commission allocated spectrum in the 5.9 
gigahertz band so that vehicles can someday communicate 
wirelessly with each other and with their surroundings. This 
connected vehicle's technology holds tremendous potential to 
make driving much, much safer.
    Last year, Congress directed the National 
Telecommunications and Information Administration to study 
whether wireless Wi-Fi devices could share the same 5.9 
gigahertz spectrum band as the ITS technology. Expanding Wi-Fi 
use in the five gigahertz range is becoming more important as 
other Wi-Fi bands have become extremely congested.
    Advocates of connected vehicles, however, have raised 
concerns that Wi-Fi use in the 5.9 band will interfere with 
ITS, which could, in turn, endanger drivers. While some people 
have characterized this as two technologies pitted against each 
other, I instead choose to see this as an opportunity. 
Connected vehicle technology and increased Wi-Fi bandwidth will 
each have significant benefits for the public. Obviously, the 
best possible public policy outcome is if the engineers can 
find a way for both technologies to coexist in the 5.9 
gigahertz band. The NTIA and the FCC are currently examining 
whether such spectrum sharing can be accomplished, and we 
should avoid letting heated rhetoric color this debate while we 
await the findings of the technical experts.
    Americans have long marveled at the notion of an autonomous 
vehicle, a car that could drive itself. Anyone who has seen the 
You Tube video of Steve Mahan, a blind man, using a Google 
self-driving car to perform his daily errands around the 
suburbs of Morgan Hill, California, knows how potentially life-
changing these technologies may be. These self-driving cars 
offer a glimpse into the future.
    Mr. Chairman, maybe our next hearing on the subject should 
take place at a test track in West Virginia or South Dakota so 
we can more directly explore the vehicle technology of Google 
and others, which undoubtedly will build upon today's 
discussion.
    I am pleased that we are joined today by NHTSA 
Administrator Strickland. As a Federal agency within the 
Department of Transportation responsible for highway traffic 
safety and motor vehicle safety standards, NHTSA must partner 
with industry to make the high tech cars of the future a 
reality.
    In the NHTSA reauthorization passed last year as part of 
MAP-21, Congress directed NHTSA to establish a new council for 
electronics and emerging technologies to improve the agency's 
expertise in the areas being discussed at today's hearing. I am 
particularly interested to learn more about NHTSA's plan for 
tackling its mission to ensure safety, while also ensuring that 
innovation is not stifled.
    The potential benefits of these advanced motor vehicle 
technologies are remarkable. They should enable advanced safety 
features, new information services, greater energy efficiency, 
and reduced insurance risk, and provide a growing market in our 
economy. However, with these advancements, Congress, 
regulators, industry, and other stakeholders must grapple with 
the forward-looking questions that will shape the motor vehicle 
technology landscape in the coming years.
    What changes to the Federal motor vehicle safety standards, 
if any, are necessary to ensure that automobile manufacturers 
can safely adapt new technologies and bring them to market? Do 
the motor vehicle technologies currently in the pipeline 
present other risks that we should be aware of, including 
driver distraction, cybersecurity, and privacy risks? And how 
are product developers working to identify these risks in order 
to engineer mitigating solutions? Does NHTSA have the necessary 
expertise in order to perform properly its mission in this 
area?
    I know the Committee looks forward to hearing from the 
witnesses on these issues today, and I want to thank you for 
being here and for sharing your testimony. And again, thank 
you, Mr. Chairman, for calling this hearing.
    The Chairman. Thank you, Senator Thune.
    And the Honorable David Strickland, who is the 
Administrator of the National Highway Traffic Safety 
Administration, we are very glad that you are here. You have a 
large job. There is a whole slew of issues, some of which we 
have mentioned, and many of which we have not. So we will be 
interested in your testimony, and then we will want to question 
you about it.

             STATEMENT OF HON. DAVID L. STRICKLAND,

 ADMINISTRATOR, NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION

    Mr. Strickland. Well, thank you, Mr. Chairman. But before I 
begin my remarks, I would like to introduce NHTSA's new Deputy 
Administrator. The President appointed him, and the Secretary 
swore him in this morning, David Freeman, on my left. Wave to 
everybody, David.
    The Chairman. He raised his right hand.
    [Laughter.]
    Mr. Strickland. Again, thank you so much for the 
opportunity, Ranking Member Thune, Mr. Nelson, Mr. Johnson. 
This is a real opportunity for the agency to talk about a very 
exciting time in the automobile industry. We have been focused 
on crash worthiness for over 40 years, frankly since we have 
been in the business, since 1966. And these technologies that 
you both alluded to in your opening statements really are the 
new North Star for the agency.
    As opposed to just protecting people in a crash, how can we 
keep the crash from ever happening? And that is such an 
important opportunity for us to make that critical disruptive 
change to make sure we get well below 30,000, 20,000, 10,000 
lives possibly in the future.
    So we feel at the National Highway Traffic Safety 
Administration, that the future for the automobile is extremely 
bright. Increasingly, a car's capabilities are determined more 
by electronics than by mechanical linkages. This is bringing 
countless innovations that improve driver comfort, provide 
information and entertainment, and, most importantly, advance 
safety. According to early estimates, there were over 34,000 
fatalities on America's roadways in 2012, and I believe the 
advanced safety technologies that we are discussing today could 
reduce these numbers significantly.
    Traditionally, we have improved survivability by advancing 
the vehicle's trustworthiness. Through technology, such as seat 
belts and air bags, occupants are more likely to survive a 
crash than they were 20 or 30 years ago. Today we have exciting 
prospects for advancing safety through new crash avoidance 
technology suites that could prevent a crash from occurring in 
the first place. Auto manufacturers are equipping vehicles with 
lasers, cameras, and various sensors that enable features 
unimaginable just a few years ago. And NHTSA has been 
evaluating these technologies.
    We have greatly accelerated our efforts to initiate and 
complete research on the connected vehicles program. V2V or 
vehicle-to-vehicle communications, are designed to give drivers 
situational awareness and improve safe decision making on the 
road.
    The V2V program depends on digital short-range 
communications, or DSRC, technology operating on the FCC 
license spectrum. Located in the 5.9 gigahertz band, this 
spectrum is uniquely capable of supporting a number of safety 
applications that require nearly instantaneous information 
relay. Since this spectrum was allocated, the Department has 
conducted significant research developing the concept, 
supporting consensus standards, and working with the 
manufacturers on V2V technology development.
    Last August, the Secretary launched the Connected Vehicle 
Safety Pilot Program in Ann Arbor, Michigan. This safety pilot 
enlists approximately 3,000 specially equipped vehicles 
operating in day-to-day driving, enabling us to collect real 
world data that cannot be duplicated in a lab. It represents 
the largest test ever of connected vehicles in a real-world 
environment. In this project, we will collect data that we need 
to make the decision on how to proceed.
    As the Transportation Research Board noted, ``Electronics 
systems have become critical to the functioning of the modern 
automobile.'' NHTSA recognizes the cybersecurity challenge and 
have established the Electronic Systems Safety Research 
Division to focus on these efforts. This division will oversee 
research focused on evaluating the safety of electronic control 
systems in five key areas: functional safety design; fail-safe 
strategies; software reliability; diagnostic notification 
strategies; and, finally, human factors considerations. We will 
examine and apply lessons learned from other industries, such 
as the aviation and medical industries, where loss of life is 
the primary concern in electronic system failures.
    Recently, traditional and non-traditional auto companies 
have unveiled research projects to develop self-driving cars. 
Unsurprisingly, people find this intriguing. Automated driving 
is an exciting frontier for the industry, and we have 
identified three key areas for preliminary research: human 
factors research in human vehicle interface, initial system 
performance requirements, and the electronic control of the 
system. Our research will inform the agency for policy 
decisions and assist in developing an overall set of 
requirements and standards for automated vehicles.
    The promise of advanced vehicles is very exciting. While 
there certainly are risks with any emerging technology, I 
firmly believe that when these risks are properly identified, 
understood, and mitigated, it will help minimize those 
particular risks and reap potential benefits. There are lots of 
exciting innovations coming, and NHTSA is working very hard, as 
it has done in the past and will continue to do in the future, 
to ensure that all of the vehicles on the Nation's roadways are 
safe and reliable.
    Thank you again for this opportunity to testify, and I am 
happy to take questions at this time.
    [The prepared statement of Mr. Strickland follows:]

    Prepared Statement of Hon. David L. Strickland, Administrator, 
             National Highway Traffic Safety Administration
    Chairman Rockefeller, Ranking Member Thune, and members of the 
Committee, I appreciate this opportunity to testify before you on what, 
in my slightly biased opinion, is an extremely exciting subject--the 
future of the automobile.
    The future of the automobile is extremely bright. Increasingly, a 
car's capabilities are determined more by its electronics than by its 
mechanics. This is bringing countless innovations that improve driver 
comfort, provide useful information and entertainment, and, most 
importantly, advance safety.
    As I have stated many times in prior testimony before Congress, 
safety is the National Highway Traffic Safety Administration's (NHTSA) 
top priority. Our programs are all designed to reduce crashes resulting 
in deaths and injuries. According to early estimates, there were over 
34,000 fatalities on America's roadways in 2012. This represents an 
increase of about 5.3 percent as compared to the 32,367 fatalities that 
occurred in 2011. If these projections are realized, 2012 will be the 
first year with a year-to-year increase in fatalities since 2005. In 
addition to the devastation that these crashes cause to families, the 
economic costs to society reach into the hundreds of billions of 
dollars. The advanced safety technologies we are discussing today can 
help reduce these numbers significantly.
    Crashworthiness to Crash Avoidance. We have done a lot to improve 
vehicle occupant survivability, primarily by advancing the vehicle's 
crashworthiness. Through technologies such as seat belts and air bags, 
occupants are more likely to survive a crash than they were 20 or 30 
years ago. The agency will continue working on improvements to 
crashworthiness exemplified by recent final rules on roof strength and 
preventing occupants from being ejected in crashes. Our current 
research efforts are aimed at developing improvements to our child 
safety standards; a new frontal crash test for adults, the elderly, and 
pedestrians; advancing batteries and other alternative fuel research; 
and improving our understanding of crash injury and impact mechanisms 
through advanced biomechanics to develop future crash test dummies and 
models.
    At the same time, there are exciting prospects for improving 
roadway safety through new crash avoidance technologies. Recognizing 
the promise these technologies hold, the agency has been aggressively 
pursuing many of the emerging technologies that are now deployed on new 
vehicles. We believe these technologies can mitigate a crash or even 
prevent it from occurring in the first place. For example, because of 
the agency's research on electronic stability control (ESC), we issued 
a rule requiring that technology on all new light vehicles since model 
year 2011 be equipped with ESC to help drivers maintain control of 
their vehicle in conditions where they might otherwise lose control. 
Other technologies such as forward crash warning and lane departure 
warning, both of which help drivers avoid dangerous crash scenarios, 
are being recognized in NHTSA's vehicle rating program (the New Car 
Assessment Program, known as NCAP) to help educate the public about the 
life saving potential that they hold. We continue to evaluate even more 
advanced technologies that are becoming available as options in 
production vehicles today. For example, some of these technologies are 
able to sense an impending crash and either apply the brakes for the 
drivers if they fail to do so, or are smart enough to know when the 
driver is not applying enough braking force and supplement the braking 
force to avoid or mitigate the collision.
    NHTSA believes it has the capabilities--and the responsibility--to 
estimate the effectiveness of these crash avoidance systems, without 
waiting for years of crash data, in order to make regulatory decisions 
sooner and save more lives. Without a doubt, the potential for emerging 
technologies to transform cars and improve safety is breathtaking.
    Auto manufacturers are equipping cars with lasers, cameras, radars, 
and various sensors that enable features unimaginable a few years ago. 
NHTSA has been studying and evaluating many of the building block 
technologies that will enable innovations, and this is just the 
beginning. The automotive technologies that we see are rapidly 
evolving, and NHTSA is working to understand the potential benefits as 
well as identify new challenges that they will bring to drivers.
    The Transportation Research Board (TRB) published a report last 
year titled The Safety Challenge and Promise of Automotive Electronics: 
Insights from Unintended Acceleration.\1\ In this report, the TRB found 
that ``electronics systems have become critical to the functioning of 
the modern automobile'' and that these systems are interconnected with 
one another. These interconnected electronics systems are creating 
opportunities to improve vehicle safety and reliability, but are also 
creating new and different safety and cybersecurity risks. Furthermore, 
these electronics systems present new human factors challenges for 
system design and vehicle-level integration. I am happy to report on 
our efforts to address these challenges.
---------------------------------------------------------------------------
    \1\ www.nap.edu/catalog.php?record_id=13342
---------------------------------------------------------------------------
    Crash Avoidance Research. For the past several years NHTSA has been 
engaged in research related to many types of crash avoidance systems, 
including both those that warn the driver to take appropriate action 
and those that automatically affect a vehicle control function. Much of 
our early effort was focused on system performance and finding new ways 
to estimate the effectiveness of these systems. That research led the 
agency to mandate ESC and incorporate systems like forward collision 
warning and lane departure warning as a recommended technology into the 
NCAP program. We recommend that consumers look for these particular 
technologies when a manufacturer demonstrates the technology on its 
vehicle meets the NCAP performance specification. We are also 
considering adding additional advanced crash avoidance technology to 
the current list as a way to (1) inform the consumer and (2) enable the 
market to pull these emerging technologies into the mainstream. Our 
most recent analysis indicates that consumers do find the information 
helpful and manufacturers are increasing the availability of these 
technologies on new vehicles. We recently published a notice seeking 
public input on what new technologies should be included in the program 
and we plan to make a decision on the next advanced technology in FY 
2013. Using a more naturalistic setting, our research is now evaluating 
how our earlier estimates for the benefits of the collision warning 
systems compare with the learning and improvements that manufacturers 
have made over the years to these systems. We also hope to learn how 
drivers are using these systems in their everyday driving.
    NHTSA is also evaluating the newest technologies that incorporate 
active braking in addition to warning drivers to avoid crashes. In 
particular, NHTSA is focusing its efforts on dynamic braking and crash-
imminent braking systems. Such technologies employ radar, camera, lidar 
or the fusion of these technologies to detect and track vehicles or 
objects in the forward path and activate the brakes if the driver fails 
to do so or supplement the driver's braking to avoid or mitigate 
collisions. We are also evaluating whether enhancements to these 
systems could be robust enough to detect and avoid pedestrian impacts. 
NHTSA is currently evaluating system performance in a variety of crash 
scenarios and under controlled test conditions to develop new ways in 
estimating the real world benefits these advanced systems could 
provide. We sought public comments on our initial findings in 2011 and 
have now conducted additional analyses and research in response to 
those comments. We will complete our work to inform an agency decision 
later this year.
    Vehicle-to-Vehicle Communications. NHTSA, along with the Research 
and Innovative Technology Administration (RITA), and the Federal 
Highway Administration, have greatly accelerated our efforts to 
initiate and complete research on vehicle-to-vehicle (V2V) and vehicle-
to-infrastructure (V2I) platforms designed to increase driver 
situational awareness and reduce and mitigate crashes. We believe V2V 
technology will complement and ultimately merge with the advanced 
braking systems and other crash avoidance technologies that we are 
currently evaluating to shape the future of motor vehicle safety. V2V 
will give drivers information needed to make safe decisions on the road 
that cameras and radars just cannot provide. This added capability not 
only offers the potential to enhance effectiveness of current 
production crash avoidance systems, but also enables more complex crash 
scenarios, such as those occurring at intersections, to be addressed. 
We currently estimate V2V could potentially address about 80 percent of 
crashes involving non-impaired drivers once the entire vehicle fleet is 
equipped with V2V technology. This technology also holds great promise 
for improving mobility and benefitting the environment by connecting 
vehicles not just with each other, but also with road infrastructure.
    The V2V program has been developed around Digital Short-Range 
Communications (DSRC) technology that operates on Federal 
Communications Commission licensed spectrum. Located in the 5.9 GHz 
band, this spectrum is uniquely capable of supporting a number of 
safety applications that require nearly instantaneous information 
relay. Since this spectrum was first allocated, the Department has 
conducted significant research developing the concept, supporting 
consensus standards both in the U.S. and with other Nations, and 
working with the auto manufacturers on coordinated V2V technology 
development.
    For passenger vehicles, we have established a collaborative 
research effort with a consortium of automobile manufacturers to 
facilitate the development and are exploring possible deployment of 
models for V2V communication safety systems. This project is developing 
several safety applications, addressing interoperability issues, and 
evaluating safety benefits. We started by holding driver acceptance 
clinics across the country between August 2011 and January 2012. The 
evaluation included more than 700 drivers who experienced crash 
warnings while driving vehicles. The feedback from drivers was 
overwhelmingly positive, with over 90 percent expressing a desire for 
such a system in their personal vehicles.
    Last August, Secretary LaHood launched the Connected Vehicle Safety 
Pilot Model Deployment in Ann Arbor, MI. The Model Deployment 
encompasses various types of vehicles that include a mix of integrated, 
retrofitted, and aftermarket vehicle safety systems. This program is 
demonstrating V2V and V2I safety applications, interoperability, and 
scalability in a data rich environment and provides real-world field 
data that can be used to develop a better understanding of the 
operational policy issues associated with V2V and V2I deployment. The 
safety pilot program enlists approximately 3,000 specially equipped 
vehicles to operate in day-to-day driving and provides an opportunity 
to collect the first-of-its-kind real world data that cannot be 
duplicated in a laboratory setting. It represents the largest test ever 
of connected vehicles in a real-world environment. The data are 
collected on a routine schedule and our researchers are already digging 
into it. Given the potential of this transformative technology, we have 
accelerated our efforts. NHTSA will use the results from the Safety 
Pilot and other studies to decide this year whether to further advance 
the technology through regulatory action, additional research, or a 
combination of both. We expect to issue decisions on light duty 
vehicles this year, followed by a decision on heavy-duty vehicles in 
2014.
    Vehicle Cybersecurity. As the TRB noted, ``electronics systems have 
become critical to the functioning of the modern automobile.'' Over the 
past several decades, the vehicle has evolved from primarily relying on 
mechanical systems to one with an increasing reliance on computing 
power and electronics. And with this evolution comes increased 
challenges, primarily in the areas of system reliability and 
cybersecurity--the latter growing more critical as vehicles are 
increasingly more connected to a wide variety of products. Whether the 
entry point into the vehicle is the Internet, aftermarket devices, USB 
ports, or mobile phones, these new portals bring new challenges.
    NHTSA recognizes this challenge and the growing potential for 
remotely compromising vehicle security through software and the 
increased onboard communications services. NHTSA has generally 
regulated through performance standards developed for specific vehicle 
systems or sub-systems to address a specific type of safety risk (e.g., 
frontal collision). However, with electronic systems assuming safety 
critical roles in nearly all vehicle controls, we are facing the need 
to develop general requirements for electronic control systems to 
ensure their reliability and security.
    To address this new frontier, NHTSA established within the Office 
of Vehicle Safety Research the Electronics Systems Safety Research 
Division that will focus on these efforts. To support the new division, 
we have requested $2 million in our Fiscal Year 2014 budget proposal 
for vehicle electronics and emerging technologies research. This 
division provides NHTSA with a focal point that combines vehicle 
electronics and automotive engineering to address electronics and 
software technologies and their implications to vehicle safety. The 
funding would begin initial research focused on evaluating the safety 
of electronic control systems in five key areas--(1) functional safety 
design; (2) fail-safe strategies; (3) software reliability; (4) 
diagnostic and notification strategies; and (5) human factors 
considerations. Additionally, we will need to quantify and assess risk 
for both single vehicle and connected vehicle systems. We will examine 
and apply appropriate lessons learned from other industries, such as 
aviation and medical industries, where loss of life is the overriding 
concern in electronic system failures. We will identify and evaluate 
potential solutions and countermeasures and consider the need for 
additional standards or regulations. This will involve collaborating 
with a variety of stakeholders including the National Institute of 
Standards and Technology, the White House Office of Science and 
Technology Policy, the Department of Homeland Security, the Department 
of Defense, and many private industries.
    The division is also focusing on issues related to cybersecurity. 
Because we recognize their importance in developing safety-critical 
systems, NHTSA will build off relevant voluntary industry standards and 
evaluate what manufacturers are already doing. We have initiated 
cybersecurity research, with the goal of developing a preliminary 
baseline set of threats and how those threats could be addressed in the 
vehicle environment. This work will complement and support the agency 
research to develop performance requirements for automated vehicles.
    For the V2V program, our research is evaluating a layered approach 
to cybersecurity. Such an approach, if deployed, would provide defense-
in-depth, managing threats to ensure that the driver cannot lose 
control and that the overall system cannot be corrupted to send faulty 
data. In partnership with the auto companies and other stakeholders we 
have developed a conceptual framework for V2V security. We are also 
developing countermeasures to prevent these security credentials from 
being stolen or duplicated. Additionally, we are developing protocols 
to support a V2V security system that is designed to share data about 
nefarious behavior and take appropriate action.
    Automated Vehicles. Recently, traditional and non-traditional auto 
companies have unveiled research projects to develop what some call 
``autonomous'' (self-driving) vehicles that can perform certain driving 
functions automatically. These companies identify safety as one of the 
compelling factors favoring automation. They envision a system of 
cameras, radar, lidar, and other sensors integrated with sophisticated 
algorithms that can monitor the road in an increasingly wide variety of 
roadway, weather, and traffic scenarios with greater awareness and more 
rapidly and reliably make decisions than the average driver. Not 
surprisingly, this vision has captured the Nation's attention. What was 
once previously thought of as science fiction and decades away from 
reality may now appear to be just around the corner, particularly as 
some of these companies are touting that they will have a commercially 
available vehicle in the next five years.
    Vehicle manufacturers have already begun to offer and in some 
cases, such as Electronic Stability Control, NHTSA has already 
regulated what we call single function automated systems. Manufacturers 
continue to develop these systems and are now combining functionalities 
to achieve higher levels of automation. Some vehicle manufacturers 
indicate that consumers will see some of these more advanced combined 
systems in the U.S. in the next few years but full self-driving is 
several years away. NHTSA has been actively involved in researching the 
near term technologies because we already believe many of them hold 
great safety promise. For example, NHTSA is engaged in research to 
evaluate the effectiveness of currently available automated braking 
systems in avoiding or mitigating crashes. As part of this research, 
the agency is developing test procedures to evaluate the technologies 
and methods to assess their safety benefits, as previously mentioned.
    NHTSA conceives of these many and varied innovations as three 
distinct streams of technological change and development that are 
occurring simultaneously--(1) in-vehicle crash avoidance systems that 
provide warnings and/or limited automated control of safety functions; 
(2) V2V communications that activate various crash avoidance 
applications; and (3) self-driving vehicles.
    The confluence of these three streams of innovation has created a 
fair amount of confusion in making distinctions between different 
concepts and in finding commonly understood category descriptions. 
NHTSA finds that it is helpful to think of these emerging technologies 
as part of a continuum of vehicle control automation. The continuum, 
discussed below, runs from vehicles with no active control systems all 
the way to full automation and self-driving. While NHTSA is conducting 
research along the entire automation continuum, our emphasis initially 
is on determining whether those crash avoidance and mitigation 
technologies that are currently available (or soon to be available) are 
not only safe, but effective. Because these same technologies are the 
building blocks that may one day lead to a driverless vehicle, we have 
also begun research focused on safety principles that may apply to even 
higher levels of automation, such as driver behavior in the context of 
highly automated vehicle safety systems.
    NHTSA has proposed definitions for five levels of automation to 
allow for clarity in discussing this topic with manufacturers, 
policymakers, and other stakeholders. The definitions cover the 
complete range of vehicle automation, ranging from vehicles that do not 
have any of their control systems automated (level 0) through fully 
automated vehicles (level 4).
    Level 0--No Automation. At the initial Level 0, the driver is in 
complete control of the primary vehicle controls (steering, brake, and 
throttle) at all times, and is solely responsible for monitoring the 
roadway and for safe operation of all vehicle controls. Vehicles that 
have certain driver support or convenience systems, but do not have 
control authority over steering, braking, or throttle, would still be 
considered Level 0 vehicles. Examples include systems that provide only 
warnings (e.g., forward collision warning, lane departure warning, 
blind spot monitoring) as well as systems providing automated secondary 
controls such as wipers, headlights, turn signals, hazard lights, etc. 
Although a vehicle with V2V warning technology alone would be 
considered Level 0, that technology could significantly augment, and 
could be necessary to fully implement, many of the technologies 
described below. Furthermore, it would be capable of providing warnings 
in several scenarios where sensors and cameras cannot (e.g., vehicles 
approaching each other at intersections).
    Level 1--Function Specific Automation. Level 1 automation involves 
one specific control function that is automated (note: a Level 1 
vehicle may feature multiple automated functions, but they operate 
independently from each other). The driver still maintains overall 
control, and is solely responsible for safe operation, but can choose 
to cede limited authority over a primary control. Examples of Level 1 
automation include:

  <bullet> adaptive cruise control, where the driver sets a specific 
        speed and does not have to continue pressing the accelerator;

  <bullet> electronic stability control, where the vehicle 
        automatically reduces power to the wheels and/or applies brakes 
        when cornering too aggressively; or

  <bullet> dynamic brake assist, where the vehicle automatically 
        provides additional braking power if it senses that the 
        driver's braking input is insufficient to avoid a collision.

    The vehicle may have multiple capabilities combining individual 
driver support and crash avoidance technologies, but it does not 
replace driver vigilance and does not assume driving responsibility 
from the driver. The vehicle's automated system may assist or augment 
the driver in operating one of the primary controls--either steering or 
braking/throttle controls (but not both). As a result, there is no 
combination of vehicle control systems working in unison that enables 
the driver to be disengaged from physically operating the vehicle by 
taking hands off the steering wheel and feet off the pedals at the same 
time.
    Level 2--Combined Function Automation. Level 2 automation involves 
at least two primary control functions designed to work together to 
relieve the driver of control of those functions. Level 2 automated 
vehicles share authority allowing the driver to cede active primary 
control in certain limited driving situations. Combining adaptive 
cruise control with lane keeping assistance would be an example of 
Level 2 automation.\2\ The driver is still responsible for monitoring 
the roadway and is expected to be available for control at all times 
and on short notice. The system can relinquish control with no advance 
warning and the driver must be ready to take control of the vehicle 
safely. The major distinction between Level 1 and Level 2 is that, at 
level 2, in the specific operating conditions for which the system is 
designed, the driver can disengage from physically operating the 
vehicle by taking hands off the steering wheel and feet off the pedals 
at the same time.
---------------------------------------------------------------------------
    \2\ Adaptive cruise control utilizes sensors (often radar) to 
automatically adjust speed to maintain a safe distance from vehicles 
ahead. Lane keeping systems will automatically take steps (through 
steering adjustments) to keep the vehicle in its lane if sensors detect 
that the vehicle will depart from the lane.
---------------------------------------------------------------------------
    Level 3--Limited Self-Driving Automation. Level 3 automation 
enables the driver to cede full control of all steering, brake, and 
throttle functions to the vehicle. The driver is expected to be 
available for occasional control, but with a comfortable transition 
time that will enable the driver to regain situational awareness. The 
vehicle is designed to ensure safe operation during the automated 
driving mode, observing all rules of the road. An example would be an 
automated or self-driving car that can determine when the system is no 
longer able to support automation, such entering a construction area. 
At this point, the vehicle signals the driver to reengage the driving 
task. The major distinction between Level 2 and Level 3 is that, at 
Level 3, the vehicle is designed so that the driver is not expected to 
constantly monitor the roadway while driving and provides sufficient 
time for the driver to reengage in driving.
    Level 4--Full Self-Driving Automation. The vehicle is designed to 
perform all safety-critical driving functions and monitor roadway 
conditions for an entire trip. Such a design anticipates that the 
driver will provide destination or navigation input, but is not 
expected to be available for control at any point during the drive. 
This includes both occupied and unoccupied vehicles. By design, safe 
operation rests solely on the automated vehicle system.
    By ensuring that our research plan includes the entire automation 
continuum, the agency strives to remain knowledgeable about the full 
range of potential benefits and risks of increasing vehicle automation. 
The agency's work on automated vehicles is designed to----

  <bullet> address safety questions about driver engagement and re-
        engagement across levels of automation;

  <bullet> evaluate concepts of operation and development of system 
        requirements; and

  <bullet> provide guidelines for automated sensing and control.

    As we continue our work on Level 1 automation and our efforts to 
calculate the safety benefits that those single-function systems may 
offer in the near term, we have begun new research on Levels 2-4. NHTSA 
is working cooperatively with other DOT agencies on this research, 
given its relevance to the intermodal Intelligent Transportation 
Systems program. We are also engaged in a broader policy development 
process across the Executive Branch. For our part, we have identified 
three key areas for preliminary research--(1) human factors and the 
human-vehicle interface; (2) initial system performance requirements; 
and (3) electronic control system safety. NHTSA's research will inform 
policy decisions, assist in developing an overall set of requirements 
and standards for automated vehicles, identify any additional areas 
that require examination, and build a comprehensive knowledge base for 
the agency as automated system technologies progress.
    Driver Distraction. In 2011, 3,331 people were killed in crashes 
involving a distracted driver, compared to 3,267 in 2010. An additional 
387,000 people were injured in motor vehicle crashes involving a 
distracted driver, compared to 416,000 injured in 2010. Driver 
distraction is a very real problem on our roadways given the growing 
use of cell phones and other such handheld devices in the vehicle. We 
are also concerned whether new safety systems, with a variety of audio, 
visual, or haptic warnings, are appropriately designed and sufficiently 
effective. Additionally, we are concerned about non-safety applications 
causing further distractions.
    Connectivity and Portable Devices. Drivers perform secondary tasks 
(communications, entertainment, informational, and navigation tasks not 
required to drive) using in-vehicle electronic devices by interacting 
with them through their user interfaces. The user interfaces of these 
devices can be designed to accommodate interactions that are visual-
manual, auditory-vocal, or a combination of the two. Some devices may 
allow a driver to perform a task through manual manipulation with 
visual feedback, through voice command with auditory feedback, or a 
combination of the two. Given the potential for distraction, NHTSA 
focused new research in these two broad areas.
    Last month, we issued voluntary guidelines for electronic devices 
installed in vehicles (at the time they are manufactured) whose use 
requires drivers to take their hands off the wheel or eyes of the road 
to use them.\3\ Our goal in doing so is to encourage the design of in-
vehicle device interfaces that minimize driver distraction associated 
with performing a non-driving task. The guidelines specify criteria and 
a test method for assessing whether a secondary task performed using an 
in-vehicle device may be acceptable for performance while driving. The 
guidelines also seek to identify secondary tasks that interfere too 
much with a driver's ability to safely control the vehicle and to 
categorize those tasks as ones that are not acceptable for performance 
by the driver while driving.
---------------------------------------------------------------------------
    \3\ www.nhtsa.gov/About+NHTSA/Press+Releases/
U.S.+DOT+Releases+Guidelines+to+Minimi
ze+In-Vehicle+Distractions
---------------------------------------------------------------------------
    NHTSA will begin discussions very soon with the various stakeholder 
groups and organizations affiliated with portable and aftermarket 
devices. NHTSA values the input from the full range of stakeholders for 
portable devices, including device makers, operating system providers, 
cellular service providers, application developers, and industry 
organizations that represent these different groups. We are eager to 
listen to their input on how best to apply the visual-manual guidelines 
to this important device category.
    In-vehicle and portable devices that use auditory-vocal 
interactions are on the rise and therefore must also be studied. These 
involve the driver controlling the device functions through voice 
commands and receiving auditory feedback from the device. NHTSA is 
conducting work in this new and complicated area to determine if 
guidelines are warranted. Because a single device's driver interface 
could accommodate both visual-manual and auditory vocal interactions, 
NHTSA is evaluating appropriate auditory-vocal test procedures and 
acceptance thresholds that could be added to the visual-manual and 
portable distraction guidelines.
    Driver Vehicle Interfaces for Warning Systems and Automated 
Vehicles. Recognizing the risks of driver distraction, vehicle warning 
systems introduce a new set of challenges to the driver. Many current 
crash avoidance systems provide a warning to the driver, expecting the 
driver to take appropriate action (engage the brake or steer) to avoid 
a crash. In order to determine if regulations or standardization is 
needed, there are several issues we need to understand better, such as: 
will the driver understand the warning systems when they activate given 
the variety in the vehicle fleet, will the driver become startled if 
the vehicle intervenes to avoid a crash, or is there a better way to 
warn the driver?
    We are conducting extensive human factors research with the goal of 
developing requirements for the driver-vehicle interface for automated 
vehicles. The objective is to ensure that drivers can safely and 
seamlessly transition between automated and non-automated vehicle 
operation, and that any additional information relevant to safe 
operation is effectively communicated. The research will primarily 
focus on Level 2 and 3 systems. As new automated driving concepts 
emerge, we will evaluate the need for driver training in automated 
systems. Additionally, NHTSA will be developing test and evaluation 
tools (simulators, test vehicles, etc.) to evaluate driver and system 
performance for various automated vehicle concepts.
    As a first step toward completing research on these issues, the 
agency is evaluating emerging Level 2 and Level 3 system concepts to 
answer fundamental human factors questions. The evaluation will examine 
how drivers react and perform in these types of automated vehicles. In 
addition, we will consider driver vehicle interface concepts that may 
be needed to ensure that drivers safely transition between automated 
driving and manual operation of the vehicle. Ultimately, we want to 
improve motor vehicle safety by defining the requirements for 
automation in normal driving that are (1) operationally intuitive for 
drivers under diverse driving conditions; (2) compatible with driver 
abilities and expectations; (3) supportive of improving safety by 
reducing driver error; (4) operational only to the extent granted by 
the driver and always deferent to the driver; and (5) secure from 
malicious external control and tampering. Through this research, we 
hope to develop recommendations for specific requirements needed for 
the driver-vehicle interface to allow safe operation and transition 
between automated and non-automated vehicle operation.
    As you can see, the promise of advanced vehicles that can avoid 
crashes is extremely bright. While there are certainly risks with any 
emerging technology, I firmly believe that, when this risk is properly 
identified, understood, and mitigated, we can minimize it and fully 
reap the potential benefits. There are a lot of exciting innovations 
coming, and NHTSA is working hard, as it has done in the past and will 
continue to do in the future, to ensure that all vehicles on the 
Nation's roadways are safe and reliable. I thank you again for this 
opportunity to testify, and I am happy to take questions.

    The Chairman. Thank you, Administrator Strickland, very 
much.
    Three years ago, you and Secretary LaHood sat at this 
same--that same table for a hearing examining some unintended 
acceleration of Toyota vehicles and NHTSA's investigation into 
those incidents. At that time, I was concerned about NHTSA's 
capacity to investigate electronic issues.
    Two years later, the National Academies of Science released 
studies demonstrating nearly the same concerns. And today we 
are discussing the explosive growth of electronics in vehicle.
    So my first question to you would be how well are you 
prepared for this? I mean, your testimony was sort of general, 
umbrella-like, and did not dig deep, which is what questions 
are for. But I need to know how good--how you realistically 
assess yourself and your staff in terms of the numbers of 
people assigned, assuming that the cars are going to do this, 
keep on adding things to make it more attractive, so that 
safety will continue to be the main factor.
    Mr. Strickland. Mr. Chairman, the Secretary and I are very 
satisfied with the staff that we have on hand to deal with this 
issue. Our budget request has given us adequate resources, and 
we have the adequate talent on hand right now. As I mentioned 
in my testimony, we have a new electronics office within our 
Vehicle Safety Research team, which is specifically focused on 
dealing with all issues regarding electronics. We have about 12 
full-time employees with electrical engineering backgrounds and 
this type of software background to deal with these issues, and 
we are adding more every single day.
    So in terms of our game plan, I will definitely submit a 
more detailed answer for the record about the game plan for the 
Electronics Research Office, but we really do have a very solid 
plan on how we are going to be dealing with all of these 
issues, including a process standard for looking at electronics 
reliability, looking at vehicles fail--safe when the 
electronics do fail; and those particular countermeasures.
    In addition, as we did during the Toyota investigation, we 
will always leverage the expertise of our sister agencies 
across government, such as NASA or the Federal Aviation 
Administration, to assist us in this task.
    The Chairman. Well, I am well over my time, so I will yield 
to my superiors. But I am not satisfied with the answer.
    Senator Thune. Thank you, Mr. Chairman. I just want to 
follow up, if I might, and ask you, Mr. Strickland, with all 
these cutting-edge automotive technologies, I am curious to 
hear what changes, if any, you think may be necessary to the 
Federal motor vehicle safety standards to ensure that we bring 
these technologies to market safely.
    Mr. Strickland. Well, at this point, we are going to be 
doing a full policy analysis on looking at the current Federal 
motor vehicle safety standards. You know, there are some things 
clearly from a policy aspect that you have to consider, such as 
those standards that deal with the driving position which 
presumed that there is a driver that is constantly engaged in 
managing the vehicle. So those particular standards are going 
to have to be addressed, especially considering that you may 
have some driving scenarios with technology where the driver 
may be not necessarily fully within the loop for a period of 
time.
    In addition to that, Ranking Member, we are looking at 
preparing ourselves and working with the industry, looking at 
the research and development so that when we approach 
commercialization we will be ready, if needed, to have 
additional Federal motor vehicle safety standards on-board to 
make sure that we have the certainty that we are not 
introducing a technology that may pose an unreasonable risk to 
safety. But that is very preliminary. We are clearly in the 
research and policy phase at this point in making those 
evaluations.
    Senator Thune. And I think the vehicle safety standards 
also help shape the automotive design process and can create 
incentives and disincentives for firms to invest in new 
technologies. This is especially true for those technologies 
that have obvious safety benefits, but which may not conform to 
the existing standards.
    In your opinion, are the current standards flexible enough 
to foster new innovations, while at the same allowing NHTSA to 
meet its vehicle safety mandate?
    Mr. Strickland. At this point, we believe that we have the 
flexibility. But as I said, Ranking Member, we are looking at 
this with a very sharp pencil, if you will.
    The one thing that you have to think about is that some of 
the Federal motor vehicle safety standards were written over 30 
years ago. But we do believe that there is flexibility in terms 
of dealing with how the particular safety systems that those 
standards actually involve.
    And what you are thinking of more as an application of 
these particular technologies, brake application, and you are 
thinking about directional control, human machine interface. 
All of these things are already captured by the standards right 
now. And the thing we want to make sure that we do is that we 
have the correct pathway to encourage that innovation in a safe 
way. Whether you are thinking about the testing or thinking 
about the development, the last thing you want to do is to 
chill innovation, but you should not have to compromise for 
safety.
    Senator Thune. OK. Mr. Chairman, I will be happy to yield 
to some of our other colleagues and then come back for a 
question later.
    The Chairman. All right then. Senator Nelson?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman, and again, another 
alum of the Commerce Committee makes good.
    Mr. Strickland. Thank you, sir. Great seeing you again.
    Senator Nelson. So, welcome. The Chairman in his opening 
comments made reference to the kid in Indonesia suddenly 
interfering. Let us take that a step further: cybersecurity 
implications. Tell us about that.
    Mr. Strickland. Well, there are several. And the Chairman 
made a very excellent point in that looking at the advances in 
the connectivity of vehicles and the opportunity for mischief 
that can go well beyond pure mission. That can actually mean an 
impact on life, possibly, if something that severe happens.
    This is what we do know. At this point right now there has 
never been an unauthorized access of a vehicle that is 
currently on the road today. From our research at this point, a 
person would need physical access to a vehicle in order to get 
control of particular vehicle functions. However, recognizing 
the future, there are going to be opportunities where there 
will be chances for software linkages and Internet downloads in 
vehicles. And for that, we have a very rigorous program looking 
at the cybersecurity issues in terms of reliability, looking at 
the proper standards of encryption, and how we deal with 
certificate packages, and all of those other issues that we do 
not want to be behind on.
    We are relying upon, frankly, not only the work that we 
have been doing with the auto makers, but also, in other parts 
of the industry, FAA, et cetera, to be able to look through it 
to help us gain a pathway forward as we think about these 
cybersecurity issues.
    Senator Nelson. Does it involve an allocation of part of 
the spectrum that if you denied that spectrum, that you could 
help yourself from a cybersecurity attack?
    Mr. Strickland. Well, clearly one of the issues that are 
involved within the vehicle-to-vehicle program is the security 
protocol and that is clearly part of the spectrum. We are 
working very hard with the Manufacturers Consortium on these 
issues, and moving forward.
    The question in regard to how much spectrum will be needed 
to be able to help deal with the cybersecurity issues, I would 
have to get back to you in more detail on that. But it is 
clearly part of our analysis going toward the agency decision. 
In any case, with the individual manufacturers, their decisions 
on how to control vehicle mechanisms off board using software 
is clearly the responsibility of the manufacturers, and I am 
sure that Mr. Bainwol can address. But for us, we have to lay 
down a process to make sure that there is a proper encryption 
standard for every vehicle to be able to fight off such an 
attack.
    Senator Nelson. Have you ever requested assistance from 
NASA?
    Mr. Strickland. Absolutely, sir. Frankly, one of our best 
collaborative relationships, since I have been in office for 
sure, is how the NASA team helped us in the Toyota 
investigation. They have really----
    Senator Nelson. Tell us about it.
    Mr. Strickland. Well, certainly. Well, we recognized that 
we needed to have an outside verifier of the work that NHTSA 
had done preliminarily on unintended acceleration and 
electronics control. We felt that NASA having, you know, the 
ultimate expertise in dealing with software issues, spin 
testing and all of the other things that they do, and failure 
mode analysis, we brought them in.
    NASA worked shoulder to shoulder with the NHTSA engineers 
and with Toyota. The Toyota Camry they looked at, I believe, 
had over 300,000 lines of code, and their expertise verified 
what NHTSA had contended all along, that there were no issues 
regarding software electronics reliability in the unintended 
accelerations. It was down to the two pedal issues identified 
by NHTSA. But that work could not have been done without the 
assistance of NASA.
    Senator Nelson. Final question: are you working on a 
technology that will not allow someone to text while driving?
    Mr. Strickland. Sir, that is, frankly, one of my most 
focused areas of emphasis. And the one thing that we are 
interested in asking the Committee's support and help on is the 
opportunity to pull together stakeholders across the industries 
involved in this space, not only the automakers and us, but 
also the handset suppliers and the wireless communications 
companies. We believe that while we are very bullish on the 
program on distracted driving, we think that a technical 
solution that could identify the harm, that could differentiate 
a driver's phone from a passenger's phone, interlock the 
driver's phone (unless it is connected to the vehicle), is the 
long-range technology shot to make sure that we end distracted 
driving. And I am very focused on that.
    Our hope is that we can pull these stakeholders together in 
a public-private way for us to work on this technology in a 
voluntary and collaborative way, and I think it is doable. But 
we would love to have the support of this committee in putting 
that type of stakeholder group together to work on this.
    Senator Nelson. Thank you.
    The Chairman. Thank you, Senator Nelson.
    Senator Johnson?

                STATEMENT OF HON. RON JOHNSON, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. Thank you, Mr. Chairman. Mr. Strickland, I 
am new to the Committee, new to this issue, so I will be asking 
some pretty basic questions.
    You mentioned the Highway Safety Act, 1970, so it is 
actually 40 years old? I was not here then.
    Mr. Strickland. There is the original Act from 1966, and 
there is the update in 1970, which created NHTSA. We were 
changed from the National Transportation Safety Bureau in 1966 
to NHTSA in 1970. But, yes.
    Senator Johnson. OK. Can you tell me which of the safety 
improvements that we all enjoy today--air bags---- how many of 
those are market driven, voluntary, versus what are imposed by 
the Highway Safety Act?
    Mr. Strickland. Well, basically the Highway Safety Act 
created a base set of standards, and a number of those 
technologies and innovations began within the automotive fleet 
as innovations by the manufacturers. And as we learned over 
time following data and effectiveness, they eventually evolved 
into regulatory standards.
    In terms of the ones that were mentioned specifically by 
the Safety Act, there are actually initial frontal crash 
standards and those types of things which were initially laid 
out. We are talking about things such as air bags, and seat 
belts. Seat belts were part of the original Act, I believe, in 
1966, but clearly that has evolved over time. For example, we 
actually had a regulation on seatbelt interlocks, which was 
subsequently changed.
    The original Act built a foundation and a process for the 
agency to look at technologies which show promise in reducing 
traffic injuries and saving lives. That foundation allowed us 
to pull these additional innovations over the years into the 
regulatory regime of NHTSA.
    Senator Johnson. So what happens then? So it maybe is 
driven by the--the innovations are driven by the auto 
companies? You like what you see, and then over time that 
becomes a standard that is imposed? I mean----
    Mr. Strickland. Processwise, yes, sir. We really are a 
data-driven, science-based agency, and we set performance 
standards for vehicles. We do not ever pick design standards 
because you may stifle innovation, and you may foreclose an 
opportunity for safety in the future.
    A classic example I would probably say in terms of process 
is the mandate of the electronic stability control system, 
which was an innovation that was put into vehicles starting in 
1990. As we got more data over time on the effectiveness of 
these particular technologies, we were able to prove the cost 
and the benefits for us to move to a regulation, ultimately 
mandating them to be in every vehicle starting in 2012.
    That particular regulation has saved thousands of lives 
since it has come into effect. And it is a classic example of 
how you build your decisions upon data and science in order to 
make the ultimate regulatory decision that can show the cost 
and the benefits of the action.
    Senator Johnson. Have you ever just done a study in terms 
of what has been transformed over time from voluntary and 
mandatory and what the cost of those mandatory safety standards 
are per vehicle?
    Mr. Strickland. Oh, in terms of every rulemaking we have to 
do, we are obligated to show, the cost and the benefits. And we 
can definitely do a comparative analysis for you, sir, that 
tracks the movement of those technologies that were voluntarily 
included in vehicle packages that ultimately became 
regulations.
    But the flip side of making something a regulation and 
standardizing it across the fleet is that you actually get 
learning. You decrease costs. You get economies of scale, which 
actually makes those technologies much more affordable, and 
ultimately you are democratizing safety. And that is the 
benefit of being able to build rules on the basis of sound 
data, sound science, and effectiveness.
    Senator Johnson. So is your agency undertaking a study to 
say today or whenever you might have conducted the study, this 
is what the cost of the mandate and safety requirements are?
    Mr. Strickland. Well, what we do in our notice of proposed 
rulemaking is conduct an initial analysis of costs and 
benefits.
    Senator Johnson. That is a particular safety thing.
    Mr. Strickland. Right.
    Senator Johnson. And, again, I am just asking just in 
general, just, you know, for a standard consumer. Are we 
talking--has it added $5,000 to a standard car, all the 
mandated safety items?
    Mr. Strickland. Well, in terms of looking at the overall 
cost, I think every decision that we make may add a particular 
cost to the vehicle. But there are also ways to determine the 
tipping point of those particular benefits and whether or not 
you will be pricing out a particular segment of the buying 
public from individual mobility.
    We can definitely talk more in general about the history of 
our rules and how they have done this. But in the decisions 
made by the agency over the years, we have kept individual 
mobility affordable, while also raising the margin of safety to 
the point where we have actually decreased loss of life by 25 
percent over the past decade or so.
    Senator Johnson. An inquiring mind like mine would just 
kind of want to know what that total cost per vehicle would be. 
If you could--if you have something like that, I would be 
interested in hearing it.
    Mr. Strickland. We will definitely get back to you, sir.
    Senator Johnson. Yes. One obviously government-imposed 
standard is mileage standards, which at the same time then 
reduces vehicle weight. Can you speak a little bit in terms of 
the offset of that and really what, you know, what is the--what 
is the criteria in terms of weight? I mean, I have heard things 
like if in a crash, just a 10 percent reduction or differential 
in terms of vehicle weight increases the chance of fatality by 
10 times. I mean, is that the basic rule of thumb? Is that 
accurate?
    Mr. Strickland. Well, Senator Johnson, I have a group of 
engineers that are way smarter than I on the particular physics 
issues. Actually our new deputy administrator had that as one 
of his areas of expertise in his old job, so I will let those 
guys give you a more detailed answer off the record.
    I will say that in finalizing the rules for 2017 to 2025 in 
partnership with the EPA, we wanted to have the most aggressive 
standard possible while ensuring that the benefits outweighed 
the costs, and making sure that there was no impact on safety. 
The work that we did for that rule, and the proceeding rule 
(2012 to 2016) accomplished that.
    We would be more than happy to talk about the math, size 
and weight issues, and the impacts of light weighting. We 
actually had a symposium earlier this week for 2 days talking 
about mass and size issues as we go toward the mid-term review.
    But our first priority is safety, sir. We are not going to 
compromise safety. And we were very happy to have a safety-
neutral set of fuel economy standards. And I know the industry 
is also very focused on that as well. We will definitely get 
back to you in more detail off the record on those particular 
issues.
    Senator Johnson. OK, thank you.
    Mr. Strickland. Thank you, sir.
    Senator Johnson. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Senator Pryor?

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Thank you, Mr. Chairman, and Administrator 
Strickland, it is always good to be with you.
    Mr. Strickland. Great seeing you again, sir.
    Senator Pryor. How are you?
    Mr. Strickland. Fine. Sorry that you changed subcommittees 
on me, and now you are over in communications. You jumped to 
the other tribe.
    [Laughter.]
    Senator Pryor. That is true, I did. Let me follow up on one 
of Senator Johnson's questions there just in general. What we 
are talking about today is advanced technology in vehicles. Is 
that right now being driven by the industry, the auto industry, 
or is it being driven by your agency?
    Mr. Strickland. The industry innovates, and I have to say 
that while we are very proud of the work that we do at NHTSA, 
the hard work of the auto makers to improve vehicle safety has 
driven the universe forward in terms of what the expectation is 
of a vehicle.
    Clearly we set the floor in terms of the Federal motor 
vehicle safety standards, and manufacturers innovate and go 
well beyond that. We create another incentive using the new car 
assessment program, or NCAP, the five-star safety rating, which 
is a market incentive to go beyond the Federal motor vehicle 
safety standards.
    But it is the auto makers that innovate for things such as 
crash and braking systems, which we are continuing to study, 
and those systems are on cars right now--adaptive cruise 
control, lane departure warning. So it is that innovation that 
gives us the opportunity to look at effectiveness and hopefully 
find a path forward for those technologies that show promise 
that may be put throughout the entire fleet.
    Senator Pryor. Great. So let me follow up on that then. In 
your opening remarks, you mentioned that once fully 
implemented, vehicle-to-vehicle technology could potentially 
address about 80 percent of the crashes involving non-impaired 
drivers.
    So can you give us an estimate of the timeline on which you 
think this technology will be implemented on a mass scale, you 
know, not just with the very highest-end cars, you know, mass 
scale?
    Mr. Strickland. Sure. Well, Senator, the agency will be 
making a decision this year on how we are going to proceed on 
vehicle-to-vehicle technology based upon the data we receive 
from the safety pilot and other research that we are doing.
    If--and I truly underscore ``if''--the agency decides to go 
forward in a rulemaking posture to mandate V2V, it will take 
some time for the vehicle fleet to turn over and have that 
technology in every vehicle. The other part that we are looking 
at is the provision of aftermarket beacon so that people can 
actually, you know, put these beacons into their car and 
receive benefits immediately.
    But turning over the fleet takes decades. The average life 
of a car now is well over 12 to 15 years, so thinking about 
having the fleet turn over enough times to get that in every 
vehicle will take some time.
    Senator Pryor. Yes. OK. So let me ask another question a 
little more specifically about the five gigahertz band. The 
FCC, as you know, recently has talked about unlicensed use of 
five gigahertz band, et cetera. Can you tell us how you are 
working with the FCC to make sure everybody is on the same page 
here and understands what the future of five gigahertz may be?
    Mr. Strickland. Well, the Department provided comments to 
NTIA, I believe earlier this week, about the work forward in 
terms of their testing evaluation of compatibility of sharing 
the spectrum. I will say that the Deputy Secretary in a 
statement during a roundtable last week voiced, I guess, the 
questions that we have at the Department of Transportation 
about that the FCC sort of initiating its notice of proposed 
rulemaking before the NTIA has had an opportunity to do the 
technical work.
    We felt frankly, that the process--the NTIA process should 
have informed the FCC process before the FCC went forward. And 
we made note of that in our comment.
    Senator Pryor. So in other words, you, and I do not want to 
put words in your mouth, but you may be concerned that some of 
this new technology in vehicles may have interference issues 
with, like, Wi-Fi and other things.
    Mr. Strickland. The concern that we have is that as we are 
allocated the use of this particular spectrum, it is incumbent 
upon any other unlicensed user to not interfere with the 
Department of Transportation's 5.9 gigahertz. It is a safety 
function, and as a safety opportunity it could address up to 80 
percent of crashes of unimpaired drivers.
    The only thing that we are looking for is making sure that 
the process actually is followed in the correct manner, which 
is that we actually get the technical work done to determine 
whether or not there is an interference issue before we go 
forward to the next step for the FCC to issue a rule, which may 
possibly preclude the notion of the technology advice.
    Senator Pryor. And does NTIA do the work for you?
    Mr. Strickland. They are working on that. That is the 
process right now.
    Senator Pryor. And do you know how long it will take them 
to----
    Mr. Strickland. I have to get back to you on the record on 
that. I am not sure about the timeline for NTIA.
    Senator Pryor. Mr. Chairman, thank you. That is all I have.
    The Chairman. Thank you, Senator Pryor. Let us wheel around 
once again.
    Let me just put it bluntly. We are talking about sort of 
making cars into virtual offices because they are connected to 
everything, including through the Internet to the entire world. 
I want you to explain to me, and I do not want you to say I 
will send you an answer--a written answer on that.
    Mr. Strickland. Yes, sir.
    The Chairman. I want you to explain to me as best as you 
can what is the tipping point when distractions that may have 
to do with, you know, my music, or somebody's business, or 
Internet capacity, or all the--you know, being wired up, all 
the things that happen when you fulfill modern dreams of what a 
car should be. At a certain point, that begins to work 
absolutely at an uncertain--in certain terms, against the 
interest of safety. It is an inevitable fact.
    I would like you to give me a sense of where your sense of 
that tipping point could be, or if you accept the concept. Your 
job is safety. Your job is not trinkets.
    Mr. Strickland. Absolutely right. Sir, it is not a question 
of a tipping point to me. There is an absolute first value. The 
first thing that anybody should do behind the wheel of a car is 
drive. Everything else is ancillary, and not just ancillary, 
frankly, disposable.
    But through the work that we have done at NHTSA, in our 
human factors research and our other research that has given 
the zone of safety. What is an amount that could be handled 
behind the wheel? That informed our in-vehicle guidelines that 
were released a few weeks ago, which outline the zone of 
safety. Basically any task within the vehicle that can be 
completed within 2 seconds for an individual action or up to 12 
seconds for back and forth continual actions, is safe. It is 
the equivalent of tuning a radio in the vehicle, which we have 
seen over the decades is a safe operation of an additional task 
in the vehicle.
    Additionally, we have taken a very hard look at those 
additional things that we find could be dangerous, such as a 
GPS system that does not lock out when the vehicle is underway. 
You do not want people typing 2121 McGillicuddy Way doing 70 
miles an hour down the road. We have suggested that the system 
be locked out. We do not want social messaging to be happening 
while the vehicle is underway. That should be locked out. And 
frankly, it should be locked unless the vehicle is in park, not 
just when the vehicle is moving at five miles an hour, which 
the current voluntary standards allow for. We believe that we 
have found the correct zone of safety for the human machine 
interface and visual manual distraction, which we know are 
incredibly dangerous.
    So, sir, we are not playing the line. I think that we have 
drawn a really clear line in the sand about what we think the 
zones of safety are. And that is so that the automakers can 
then innovate around that zone of safety. If they can do 
particular tasks to provide information and services within 
that zone of safety, that is space for innovation. If they 
cannot, it should not be in the vehicle. And that is where the 
line is.
    The Chairman. Well, I am trying to parse your words to see 
what your answer told me. Do you think that it--first of all, I 
think it is a fact that increasingly younger people are not 
buying cars?
    Mr. Strickland. That is true.
    The Chairman. And they are using other modes of 
transportation. And that has some benefits to me in terms of 
safety for the future because they want to be wired up. They 
want to be, you know, a moving office, connected to everything.
    Explain to me why the concept of a wired up automobile 
which can do any kind of transaction, and you say it has to be 
done in 2 seconds. I would actually question that because I 
remember we were talking a few years ago, if you spend three or 
4 seconds and you are on an interstate or highway, you have 
gone the lengths of two or three football fields. And in West 
Virginia, if you do that, you have crashed seven times just 
because of the hilly territory.
    So why do you have an accepting attitude, if you do, that 
we are coming upon a time when cars will have the ability for 
people to sit in the cars and have it as an office space? It 
scares the heck out of me.
    Mr. Strickland. Well, sir, we are not accepting that a car 
is an office place while you are rolling. There are some things 
that are analogous to current tasks which are within the zone 
of safety, and we are happy to brief you in more detail about 
our research that shows that you can complete a task safely 
within 2 seconds. That is solid fact.
    We want to lock out anything that resembles a driver trying 
to input large amounts of text, or even small amounts of text. 
Anything that is akin to radio, such as audio being read back 
to you or the ability to be able to enter an address by voice 
is an opportunity. Those things we think have possibilities, 
and they are safe.
    But you are absolutely right, sir. You have people that are 
interested in surfing the Internet, typing large amounts of 
text, anything of that nature, and you are right, it should be 
out of the vehicle, and we encourage that auto makers interlock 
and prohibit those particular practices. But we also recognize 
that there is a large amount of information, and, frankly, 
driver support that is provided by these systems. And those are 
good things.
    GPS is such a system. That is a good thing when properly 
used. People being able to receive messages that their car can 
actually speak back to them is like a radio. That is 
potentially is a good consumer item that somebody could use 
within the zone of safety.
    But you are absolutely right: 95 percent of what you are 
seeing in terms of the true social application of people 
texting, and tweeting, and bouncing stuff back and forth, 
watching streaming video, and all of those things, is not 
appropriate for the vehicle, and we strongly would fight 
against permitting that. But you cannot simply say that an 
antiseptic environment in the vehicle is also a realistic one. 
I think if we recognize those things that can be done safely 
and are very strict about it, we encourage innovation; we 
encourage the opportunity for good information and service to 
be provided to the driver in support of the driving task; and 
we allow the opportunities for things that we do not anticipate 
to develop. And that is the balance that we are looking for, 
and we feel very strongly about that.
    The Chairman. OK. Senator Thune?
    Senator Thune. Chairman, I really do not have any more 
questions. I do want to say that if we did V2V connectivity 
that we could probably listen to--we could listen to Bach with 
you.
    [Laughter.]
    Senator Thune. I do want to thank you, Mr. Strickland, for 
something that you helped our office with, the B.A.T. Mobile--
--
    Mr. Strickland. Oh, right.
    Senator Thune. It is a new vehicle technology. It is a 
breath alcohol testing mobile, and in getting one into the 
Great Plains region, that will be very helpful in the mission 
that we have of improving public safety on our Indian 
reservations in our State. So, thank you for your help with 
that.
    Mr. Strickland. Well, thank you, Mr. Thune. There is an 
area that we were very focused on, improving vehicle safety in 
Native territories and reservations, because unfortunately 
Native Americans are overrepresented in a lot of very bad crash 
areas; lower seat belt use; higher drunk driving rates; higher 
crash rates; and the worst fatality numbers. Anything that we 
could do to help address those through countermeasures is 
something that we are very strongly supportive of. We were 
happy to help in getting you the B.A.T. Mobile.
    Senator Thune. Appreciate that.
    Mr. Strickland. Thank you.
    Senator Thune. Thank you. Thank you, Mr. Chairman. No other 
questions.
    The Chairman. Thank you, Senator. Are there--Senator 
Johnson? Senator Pryor?
    Administrator Strickland, thank you very much.
    Mr. Strickland. Thank you, Mr. Chairman, for the 
opportunity. I always appreciate it.
    The Chairman. Thank you.
    The Chairman. All right. Now our next panel.
    Mr. Mitch Bainwol, who is president and CEO of the Alliance 
of Automobile Manufacturers here in Washington; Mr. Jeffrey 
Owens, Executive Vice President and Chief Technology Officer, 
Delphi Automotive, Troy Michigan; Dr. Peter Sweatman, Director 
of University of Michigan Transportation Research Institute; 
and Dr. John Lee, Emerson Electric Quality and Productivity 
professor, University of Wisconsin at Madison, Wisconsin.
    Why do we not start with you, sir?

  STATEMENT OF MITCH BAINWOL, PRESIDENT AND CEO, ALLIANCE OF 
                    AUTOMOBILE MANUFACTURERS

    Mr. Bainwol. Mr. Chairman, thank you very much for the 
opportunity to be here today to testify at this extraordinary 
time for mobility. A decade ago, the CDC celebrated the 
reduction of traffic deaths as one of the 10 great public 
health achievements of the 20th century. Since then, deaths per 
mile traveled are down another 25 percent.
    These gains result from many factors, including an 
increased use of seat belts and decreased incidents of drunk 
driving, as well as crash worthiness technologies mitigating 
the impact of accidents. Going forward, progress will come from 
technologies that reduce driver error. Given that more than 90 
percent of crashes result from human mistakes, the combination 
of emerging driver assist features, connectivity, and 
ultimately autonomous vehicles offer the promise of safer 
mobility, as well as less congestion, less fuel consumption, 
lower emissions, lower insurance costs, and higher 
productivity.
    We see a robust debate in the press, mostly with engineers 
who agree with each other less often than lawyers, about when 
self-driving cars will become a reality. That is the wrong 
question. It makes safety about some magic moment in the future 
rather than recognizing that technologies in the marketplace 
today already are providing important benefits as they set the 
foundation for tomorrow.
    The premise of today's hearing is that technology will 
yield highly material safety benefits for American drivers. 
That invites two questions: one, what are the barriers 
inhibiting the rate of life-saving innovation, and what can you 
do to speed innovation in light of these barriers.
    Ironically, technology is not the biggest obstacle to 
deploying innovation. Rather, the bigger hurdles are, one, 
consumer acceptance, two, product liability, three, 
connectivity, and four, fleet mix concerns. Our polling shows 
that consumers strongly equate technology with safety, and that 
is very promising. But at least for now, these same consumers 
are dubious about self-driving vehicles, splitting four to 
three against the view that autonomous vehicles are a good 
idea. The driving experience is deeply ingrained. Non-
incremental change is scary.
    Liability is a huge problem, especially when aftermarket 
solutions become available. Who is responsible if something 
fails? What if a garage inventor produces a flawed at-base 
solution? If liability flows inappropriately to the OEM, we 
would see higher product costs, chilled innovation, and 
probable reduction to manufacturing employment.
    Connectivity is a critical component to safety progress, as 
we have discussed. For full V2V and V2I connectivity, spectrum 
integrity and investment in infrastructure are vital. Without 
it, long-term driver technologies cannot realize their 
potential.
    Finally, how would we handle fleet mix challenges? We often 
focus on the length of the industry's product cycle. The more 
salient factor is the consumer cycle. Eleven is the age of the 
average car on the road. We only turn over the fleet--half the 
fleet in roughly a decade. Thus, at any given point in time, we 
have a wide range of technologies on the road with different 
crash mitigation and different crash prevention profiles.
    So we have some recommendations. I would make these five. 
First protect the spectrum. The most time sensitive 
recommendation to a safety first future is ensuring that the 
5.9 gigahertz radio frequency, now dedicated to V2V and V2I, 
remains solely available for safety critical communications. 
When two tons of metal are moving 100 feet per second, 
communications must work instantly and accurately.
    The FCC is now considering opening up a portion of the 
spectrum, as we have discussed. The Agency should adopt a do no 
harm strategy until testing is complete, and we are concerned 
that the NTIA report is due after the FCC is likely to reach a 
judgment.
    Second, invest in infrastructure. Robust and life-saving 
connectivity requires infrastructure build out that is costly 
to communicate with vehicles. This will be a gradual process 
because of the cost. But we need the vision and the motivation 
to begin planning and implementing today.
    Third, address consumer acceptance. We have to get ahead of 
potential public concerns before we deploy. We will need to 
tackle a range of tricky questions that are critical outside 
and inside the car, including privacy, security, and comfort 
with new technologies. Building consumer trust is imperative.
    Fourth, maintain vehicle affordability. Public policy 
should keep vehicles as affordable as possible by leveraging 
market forces and letting data drive regulation. The best 
technology in the world does nothing if cars are stuck in a 
showroom because of mandate overload. Cars are lasting longer, 
and new cars cost more than $30,000 a unit. We only replace 
about 6 percent of the U.S. car park annually. Any policy that 
slows the replacement cycle may compromise the greater good.
    And finally, fifth, we need to preserve technology 
neutrality. We all recognize the challenge of distracted 
driving. You have talked about it with Mr. Strickland in 
detail. That challenge has grown as connectivity has found its 
way into cars.
    The NHTSA guidelines are illustrative. Here, government 
policy calls for restrictions of functionality of the built-in 
systems without corresponding limitations of the portable 
devices. The result: chilling innovation of the built-in system 
and incentivizing the hand-held use. So if a driver is looking 
for live nav guidance and they cannot plug it in their own 
system, what do they do? Oftentimes they pull out their iPhone 
or their Android, they look down below the dash, they plug in 
the address, they fiddle with the keys, and potentially suffer 
the consequences. We cannot wish the real world away. A policy 
that is not comprehensive across technologies and across 
devices produces unintended consequences.
    So to close, the promise of future mobility has never been 
brighter or safer. We stand ready to work with this committee 
to maximize innovation and to save lives, and we thank you for 
the opportunity to testify.
    [The prepared statement of Mr. Bainwol follows:]

        Prepared Statement of Mitch Bainwol, President and CEO, 
                  Alliance of Automobile Manufacturers
    On behalf of the twelve automakers who are members of the Alliance 
of Automobile Manufacturers (Alliance),\1\ thank you for this 
opportunity to testify today on our successes in enhancing vehicle 
safety and the promise of emerging technologies for the future of 
mobility.
---------------------------------------------------------------------------
    \1\ Alliance members include BMW Group, Chrysler Group LLC, Ford 
Motor Company, General Motors, Jaguar Land Rover, Mazda, Mercedes-Benz, 
Mitsubishi Motors, Porsche, Toyota, Volkswagen Group of America and 
Volvo. Alliance members account for roughly three quarters of all 
vehicles sold in the U.S. each year.
---------------------------------------------------------------------------
    For more than a century, innovation in automotive mobility has been 
our guidepost, producing technological advances leading to safer, 
cleaner, more energy-efficient cars and light trucks.
    Now, looking down the road, personal transportation is poised to 
undergo revolutionary change, as dramatic as the introduction of the 
first cars on our roads. Those first vehicles changed society by 
connecting people to markets, to health care, and to schools.
    Before us lies the potential to dramatically reshape the driving 
experience and redesign the whole concept of personal mobility through 
the combination of sensor-based safety systems, intelligent driving, 
driving assist systems and communications-based connected vehicle 
technologies.
    The vision for the future is nothing less than amazing. New 
technologies and systems will continue to provide enhanced safety 
benefits, reduce environmental impacts, reduce congestion and improve 
our quality of life in countless ways.
    A review of the road already traveled demonstrates how much road 
safety progress has already been achieved.
    Historically, automakers have focused on engineering vehicles to 
enhance occupant protection in the event of a crash. Today, automobiles 
have a range of airbags--front, rear, side and even curtains--as well 
as a long list of safety enhancements, from structural reinforcements 
to the passenger compartment to advanced safety belts. Many of these 
advances were designed and introduced by the auto industry voluntarily, 
without any government mandate.
    Our progress was recognized by the Centers for Disease Control and 
Prevention, where experts described the results of automotive safety 
advancements as one of the ten ``Great Public Health Achievements'' of 
the 20th century.
    And we are continuing to see progress in this century. In 2011, the 
number of traffic fatalities was over 25 percent lower than in 2005. 
Moreover, the fatality rate per 100 million vehicle miles traveled 
showed a similar decline since the beginning of the 21st century. 
However, a preliminary statistical projection by NHTSA estimates that 
over 34 thousand fatalities occurred in motor vehicle traffic crashes 
in 2012--an increase of 5 percent compared to 2011. So, there is more 
work to do.
What are some of the principle challenges to road safety today?
    During the period 1997 to 2011, motorcycle deaths have more than 
doubled, from about 2,000 to around 4,600, while overall traffic 
fatalities fell in the same period by 23 percent. It now appears 
motorcycle deaths may exceed 5,000 in 2012, accounting for over 14 
percent of all traffic fatalities. More must be done.
    Despite our many efforts, about 1 in 7 Americans still is not 
buckling up. In recent years, about half of the passenger vehicle 
occupant fatalities were unbelted. NHTSA estimates that safety belts 
saved nearly 12,000 lives in 2011. The agency further estimates that 
increasing safety belt usage to 100 percent would save more than 3,000 
lives each year. Many automakers are installing seat belt reminder 
systems to encourage drivers and passengers alike to buckle up.
    Driver error is an overarching challenge to making our roads safer. 
NHTSA estimates that driver error is involved in more than 90 percent 
of crashes.
    Impairment is a leading cause of driver error. Eliminating impaired 
driving would reduce by one-third the number of people who die on our 
roads each year. The Alliance supports requiring alcohol interlock 
devices for convicted drunk drivers. In addition, for the past five 
years, Alliance members have been working in partnership with NHTSA to 
research advanced in-vehicle technology called ``DADSS''--technology 
that holds promise to help eliminate drunk driving one day. The 
Alliance appreciates the leadership role taken by this Committee last 
year in continuing to fund this critical research during the 
reauthorization of surface transportation.
    Novice drivers are another source of driver error. Novice drivers 
generally tend to make more mistakes than experienced drivers. New 
driver education and training can help minimize the risk. We know motor 
vehicle crashes are the number one cause of death and injury among 
youth in this country, which is why the industry has invested in novice 
driving programs and technologies that help new drivers gain more 
experience and training behind the wheel.
    The future of vehicle safety has expanded into ``crash avoidance'' 
technologies that help prevent or mitigate crashes. Crash avoidance, or 
``driver assist,'' technologies employ sophisticated software to 
interpret data from sensors, cameras, or radar-based technologies that 
allow vehicles to sense the environment around them and assist drivers 
to become aware of impending dangers, or in some cases may take over 
for drivers to help prevent or mitigate accidents.
    There are about twenty different ``driver-assist technologies'' 
available already on today's vehicles, with more coming. You can see 
them in action on our YouTube channel at www.YouTube/DriverAssists.
What do we mean by driver-assist technologies?
    Intervention technologies include electronic stability control and 
anti-lock brakes that help keep the vehicle under control without 
engagement by the driver. These two technologies are present in 
virtually every new passenger car sold in America. In addition to these 
systems, new technologies are being introduced to assist drivers to 
avoid or mitigate crashes in emergency situations, such as crash 
imminent braking and dynamic brake support. According to recent data 
compiled by the Highway Loss Data Institute, vehicles that brake 
automatically may offer significant safety benefits. Their drivers file 
15 percent fewer property damage claims. They are 16 percent less 
likely to file claims for accidents involving property damage. And, 
their owners are 33 percent less likely to file claims for crash 
injuries than the average owners of similar vehicles.
    Warning technologies provide alerts to assist the driver, such as 
blind spot warnings, lane departure warnings, cross traffic alerts, and 
forward collision warnings. All of these systems provide drivers with 
additional information to help them take corrective action to avoid the 
risk of a crash. However, the driver has the means to operate the 
vehicle safely without these features.
    Driver Assistance technologies include lane keeping systems, 
adaptive cruise control, and automatic high beams. Drivers decide when 
to activate these systems, which then may assist the driver during 
routine driving tasks, provided road and environmental conditions 
permit.
    This year, consumers will be able to visit dealer showrooms to see 
``gee whiz'' technologies such as adaptive cruise control with 
automatic braking and lane centering. This illustrates a beginning 
stage in the development of future automated vehicles, which can 
actively control or position their distance from other surrounding 
vehicles.
    As we move into the future, developing infrastructure and vehicles 
that communicate with each other has the potential to be a game changer 
for road safety. According to NHTSA, connected vehicle technology could 
potentially benefit approximately 80 percent of crash scenarios 
involving non-impaired drivers. That is why both automakers and the 
government are investing hundreds of millions of dollars in research, 
development and testing of connected vehicle technology. Connected 
vehicles may help to enhance or enable a host of critical crash-
avoidance technologies.
    The phrase ``connected car'' has become a bit of a catchall and 
means different things to different people.
    For some, connectivity in the car is about eliminating the gap in 
access to people or information that occurs when commuting between 
point A and point B. In our digital world today, drivers and their 
passengers want to be seamlessly connected to the web and all its 
functionality, including social media, communications, music, 
navigation and a range of transportation-related content. They want to 
be as connected in the car as they are everywhere else.
    For others, connectivity in the car is about reducing the potential 
of crashes by getting information on real-time risk factors outside the 
vision of the driver--or the electronic eyes of the car. This 
connectivity refers to the exchange of information either among 
vehicles--called V to V--or information between vehicles and 
infrastructure--commonly referred to as V to I.
    Automakers view safety, mobility, environment, and road travel 
convenience applications and functions to be within the connected 
vehicle scope. Automakers consider other applications connecting people 
to people and people to businesses as telematics functions.
    Whether among cars or with infrastructure, the potential of 
connected vehicles is mind-boggling. Cars may have the potential to 
sense if black ice is on the road, if bridges are iced over, or if a 
crash has occurred on the road ahead--all before the driver can detect 
the impending challenge. With connectivity, the driver can be alerted 
to take precautionary measures--and the car itself may be able to use 
connected vehicle data, in combination with other vehicle sensor data, 
to perform a range of anticipatory countermeasures like precautionary 
braking or seat belt tensioning to address the looming risk. Or the car 
may be able to direct the driver to an alternate roadway to avoid the 
situation entirely.
    The future of driving safety is very bright, and with the right 
public policies put in place to support connectivity and the 
replacement cycle, working together industry and government can support 
the goal of increasingly safe mobility. Getting there will require many 
pieces of a large puzzle to fit together in addition to technological 
advancements: consumer acceptance, achieving critical mass to enable 
the ``network effect,'' and establishment of the necessary legal, 
regulatory framework and other policy issues. We can get there from 
here.
    Surveys of consumers' attitudes involving advanced technologies and 
automated vehicles conducted for the Alliance indicate that a majority 
(59 percent) believe that technological innovations such as driver 
assist technologies are making cars safer. However, consumers are 
currently dubious of ``self driving'' cars with only 33 percent 
indicating that such cars are a good idea, 42 percent responding they 
are a bad idea, and 24 percent unsure. Building consumer trust is 
critical. Drivers are unlikely to cede control of their cars unless 
they are convinced that automated technology is safe and reliable.
    To realize the benefits of connected vehicle technologies, a large 
network of vehicles equipped with these technologies, or at least 
capable of working within this network, is needed. An aftermarket 
system that consumers value, could help to speed establishment of a 
critical mass of connected vehicles. Establishment of corridors of 
connected operation may be another means for achieving critical mass 
where it is most needed, in densely populated urban areas. Finally, 
greater autonomy of operation dictates greater cooperation among 
vehicles.
    Consideration needs to be given to the needed legislative and 
regulatory framework needed to spur development and adoption of 
advanced technologies. A patchwork of state laws will negatively impact 
the speed and trajectory of the technologies adopted. Federal 
leadership is needed to establish a single, long-term national vision 
for personal transportation in the future. However, care must be 
exercised to ensure that development is facilitated--not frustrated--
while also ensuring that the appropriate performance criteria are 
established.
    Finally, perhaps the most challenging is the resolution of a litany 
of complex legal issues that are associated with cars and trucks 
capable of operating with increasing levels of automation. These 
include insurance underwriting and liability issues. A greater portion 
of liability may shift from individual vehicle operators and actors to 
manufacturers and infrastructure providers (federal and state). The 
question of who is responsible when, for what, will need to be 
addressed.
    We are pleased with the great vision of this Committee in focusing 
today on the future. Like you, we share the goal of ensuring the public 
policy pillars necessary to achieve the full safety value of 
connectivity and other technological advances be identified and 
protected.
    We believe five pillars of policy are central to maximizing safety 
through technology in the future are: (1) protect the spectrum; (2) 
invest in infrastructure; (3) ensure consumer acceptance; (4) maintain 
vehicle affordability; and (5) preserve technology neutrality.
    Protect the spectrum: The first pillar is ensuring that the radio 
frequency spectrum now dedicated to V-to-V and V-to-I--the 5.9 GHz 
band--remains solely dedicated to auto communications technologies. 
When vehicles are driving at highway speeds, communications must occur 
virtually instantaneously, without delay and without interference. The 
FCC is now considering whether to open this portion of the spectrum for 
use by unlicensed wireless devices. While we understand the potential 
benefits of expanding wireless access, regulators must be certain that 
unlicensed users would not compromise the integrity of this vital 
safety initiative. The FCC should maintain the spectrum for safety 
critical systems until thorough testing is completed and all parties 
are certain that the spectrum remains reliable and secure for its 
primary V-to-V and V-to-I purpose, and can be shared without 
interference.
    Invest in infrastructure: The second pillar is building out the 
infrastructure for the V-to-I component of connectivity. Surely this 
will be a gradual process, but we need the vision and motivation to 
begin planning today. As is the case with a range of technologies, such 
as alternative powertrains for environmental gains, infrastructure 
investment is essential to achieving the maximum safety benefit and 
inducing buyers to purchase the V-to-I communications functionality.
    Ensure consumer acceptance: The third pillar is proactively 
addressing consumer acceptance by addressing in advance of deployment 
potential public concerns. If the advent of connected vehicle 
technology exposes drivers and owners of equipped vehicles to loss of 
privacy, security breaches, and/or increased legal liability in the 
form of automated law enforcement, we will not realize the many 
benefits that might otherwise be gained by its widespread deployment. 
Similarly, connected and automated vehicle systems entail interactive 
technologies for which successful outcomes depend not only on drivers' 
correct response to alerts and information, but on multiple entities in 
both the public and private sectors correctly and consistently 
performing their respective portions of the connected enterprise. This 
creates new and unprecedented challenges that will need up-front policy 
consideration.
    Maintain vehicle affordability: The fourth pillar is keeping cars 
and light trucks as affordable as possible by leveraging market forces 
and utilizing a data-driven approach to regulation if and when needed. 
The best technology in the world can only help if families are able to 
replace their old cars with new vehicles. Today, the average age of a 
car is 11 years old, and we only replace about 6 percent of the U.S. 
car park every year. When the safety (and environmental) benefits of 
new cars relative to old cars are sizeable, the public policy 
imperative must be to avoid the temptation to mandate and instead 
facilitate choices by families in the marketplace. Policies that 
discourage the purchase of new technologies should be avoided--as a 
matter of public policy, we need to encourage the ``virtuous cycle of 
new car ownership.''
    Preserve technology neutrality: The fifth pillar is supporting a 
comprehensive approach to in-vehicle technologies. Decisions made today 
can produce dramatic repercussions tomorrow. We all recognize the 
challenge of distracted driving and how that challenge has grown as 
connectivity has found its way into cars, primarily through 
smartphones. The recently issued NHTSA guidelines on distraction are a 
case in point. In this instance, government policy calls for 
restrictions in functionality of in-vehicle systems without 
corresponding functionality limitations in portable devices. As a 
result, government policy will likely chill innovation and bias drivers 
toward the use of handheld devices, rather than integrating devices 
with in-vehicle systems. So, if a driver looking for live NAV guidance 
is blocked from doing so while his car is in motion, he may predictably 
pull out his smartphone, fiddle with the keys while looking down, and 
retrieve the desired mapping guidance. That's the real world and as 
much as we might want to wish that away, a policy that isn't 
comprehensive across technologies and devices and responsive to 
consumer needs is a policy that will produce unintended and undesirable 
consequences.
    Successful policy will recognize behavioral realities. We have 
studied smartphone utilization in cars and found younger drivers are 
especially resistant to abandoning connectivity while driving. Attempts 
to modify behavior are unlikely to succeed. Rather, NHTSA has it right 
when it says that the number one goal in distraction policy should be 
to encourage drivers to connect their phones to the built-in systems 
which can be controlled by voice and help drivers keep their eyes on 
the road and their hands on the wheel.
    The issues before us are complex. Even the Department of 
Transportation (DOT) is struggling with information in cars. Under the 
511 program funded by DOT and administered by the states, real-time 
traffic video and tweets are available to drivers to avoid road 
congestion. That's a good thing. But it also threatens to violate the 
new distraction guidelines by urging drivers to use smartphones on the 
road. So, the government is literally driving smartphone use in cars in 
one program, while castigating their use in another.
    The point is not to criticize government. The disconnect within the 
DOT reveals the complexity of the challenge of managing information in 
the driving context. As the connected car becomes a reality, we should 
view information not as a distraction but as a critical foundation to 
safety technology, especially as driver-assist technologies mature.
    NHTSA has regulatory authority over OEMs. The agency believes it 
has regulatory authority over personal electronic device (PED) 
manufacturers, software developers and carriers when their technologies 
are used in cars, although this authority has not been tested. 
Regardless of the scope of its regulatory authority, it makes sense for 
NHTSA to bring all the stakeholders together to forge a new set of 
voluntary guidelines that are neutral across technologies, provide 
consumers with the functionality they demand and move behavior away 
from PEDs and to in-vehicle systems that help keep the driver's eyes on 
the road and hands on the wheel.
    We are living in an extraordinary moment in the history of 
mobility. Over the next decade, automakers will put about a billion new 
cars on the roads around the world--about 150 million of them in the 
U.S. However, it is important to understand that, given the size of the 
in-use fleet and the longer life cycles of today's vehicles, roughly 
half of the cars that will be on the road in 2025 have already been 
sold and put into service. Thus, deployment throughout the fleet will 
be relatively gradual even though technology improvements may be rapid. 
And that suggests that the fleet mix of the in-use fleet will reflect a 
wide range of driver-assist technologies and connectivity for years to 
come.
    Now, just for a second, ponder the implications of cars that rarely 
crash. More lives will be saved. Congestion caused by crashes will 
become far less frequent. Fuel requirements will drop as traffic flows 
more quickly--and cars become lighter. Additionally, insurance rates 
will fall with the reduced incidence of fender benders and crashes. 
Working together, we can make this vision reality.
    Many thanks for this chance to share our perspective.

    The Chairman. Thank you, sir.
    And now, Mr. Jeffrey Owens.

        STATEMENT OF JEFFREY J. OWENS, CHIEF TECHNOLOGY

             OFFICER AND EXECUTIVE VICE PRESIDENT, 
                       DELPHI AUTOMOTIVE

    Mr. Owens. Thank you, Chairman Rockefeller, Ranking Member 
Thune, and members of the Senate Commerce Committee for the 
opportunity to testify before you today on behalf of Delphi 
Automotive.
    As Chief Technology Officer, I am responsible for Delphi's 
innovation strategies as well as research and development 
focused on safe, green, and connected societal megatrends. As a 
leading global supplier of electronics and technologies for 
automotive, commercial vehicle, and other market segments, 
Delphi invests $1.6 billion annually into global R&D 
initiatives, and employ about 5,000 people in the United 
States.
    If I could leave you with one message today, it would be 
this: 11,000 lives can be saved annually without a technology 
mandate, without a broad new program, and without regulatory 
requirements.
    Every 30 seconds, there is a vehicle-related death 
somewhere in the world, and that equates to about 1.2 million 
people who die each year. That is a tragedy, and it can be 
prevented. The World Health Organization projects traffic 
injuries to be the fifth leading cause of death by 2030, even 
more than AIDS or cancer. And while vehicle deaths in the 
United States have declined with widespread adoption of passive 
safety technologies, such as seatbelts and airbags, progress 
toward further death and injury reduction has stalled, 
resulting in more than--about 33,000 deaths annually in the 
United States, and 200,000 serious injuries each year on our 
roadways. Additionally, crashes continue to be the number one 
cause of death for people ages four to 34, and we know--we 
heard earlier over 90 percent of accidents are caused by driver 
error.
    Although passive safety technologies, like seat belts, have 
helped more people survive crashes, we think the next frontier 
of safety is to prevent the accidents before they occur. Active 
safety technologies are the key to reducing accidents, injuries 
and deaths. Government and industry groups have studied the 
benefit of these technologies for over a decade. A study by the 
Insurance Institute for Highway Safety states a 31 percent 
reduction in deaths is possible. And once again, that is more 
than 11,000 lives saved per year with full deployment of active 
safety systems across the vehicle fleet. I am talking about 
forward collision warning with collision imminent braking, lane 
departure warning, blind spot detection.
    The driving public wants vehicles with improved safety 
features. No doubt, safety sells, but technologies are 
currently available, and it is difficult for consumers to 
understand their value. A key consumer awareness tool is the 
New Car Assessment Program, or NCAP, which includes the star 
rating system on all new vehicle window stickers.
    Now today, NCAP is not structured to accommodate active 
safety vehicle options. Delphi is recommending to the Committee 
and to NHTSA that the U.S. amend the NCAP to require star 
ratings for active safety collision avoidance technology, and 
that it be incorporated into the window sticker on new cars in 
the future.
    Now we are talking about mature technologies that have been 
on the road since 1999. They are ready to deploy in high 
volume, and that will result in fewer accidents and deaths. 
Many of these technologies are commercially available, but 
relatively few vehicles are equipped with them. At the current 
rate of acceptance, active safety technologies will not 
significantly impact crash statistics for about 20 years. We 
suggest that NHTSA focus on proven technologies, such as 
collision imminent braking and lane departure warning for 
inclusion in the NCAP five-star certification.
    Now, there is no need to mandate measures or choose 
technology winners and losers here. The best path forward is to 
provide consumers with information in a form that they can use 
and to which the market will respond. The sooner we increase 
consumer awareness, the sooner we experience lower fatality 
rates. With opportunities for distraction increasing, the 
convergence of connectivity and active safety technology is 
critical to allow safe connectivity and still allow drivers to 
keep their eyes on the road, their hands on the wheel, and 
their mind on the mission, and that is the mission of driving 
safely.
    Technology like Delphi's industry-first, integrated radar 
and camera system combines radar sensing, vision sensing, and 
data fusion in a single module. Similarly, our rear and side 
detection system helps make drivers aware of approaching 
vehicles while changing lanes or making turns by providing an 
alert when a vehicle has entered a blind spot of the vehicle. 
Our active safety human machine interface helps keep drivers 
connected to the information they want while mitigating driver 
distraction. It helps ensure the vehicle is never distracted, 
even if the driver is.
    So in conclusion, we are at a critical point in the 
automotive industry. Consumers are demanding this 24/7 
connectivity, and this dynamic directly impacts safety on 
America's roads every day. At Delphi, we believe the foundation 
for safer driving is the robust deployment of active safety 
technologies.
    Thank you for the opportunity to address the Committee.
    [The prepared statement of Mr. Owens follows:]

 Prepared Statement of Jeffrey J. Owens, Chief Technology Officer and 
              Executive Vice President, Delphi Automotive

    Thank you Chairman Rockefeller, Ranking Member Thune and members of 
the Senate Commerce Committee for the opportunity to testify before you 
today on behalf of Delphi Automotive.
    My name is Jeff Owens, and I am Chief Technology Officer and 
Executive Vice President for Delphi Automotive. I am responsible for 
Delphi's innovation strategies as well as leading development of the 
company's advanced technologies focused on Safe, Green, and Connected 
societal megatrends.
    As a leading global supplier of electronics and technologies for 
automotive, commercial vehicle and other market segments, we invest 
approximately $1.6 billion annually into research and development 
initiatives. In the U.S., Delphi operates major manufacturing 
facilities, technical centers, and administrative facilities in 
Michigan, Mississippi, Indiana and New York that employ approximately 
5,000 people. Delphi's technology portfolio places us at the center of 
vehicle evolution and innovation, making products smarter and safer as 
well as more powerful and efficient.
    Given our proven expertise with market-leading original equipment 
manufacturers (OEMs) around the world and our broad automotive systems 
capabilities, we welcome the invitation to testify at this important 
hearing on Advanced Vehicle Technology and its Implications.
    This is an amazing time to be in the automotive space. As a Tier 1 
vehicle technology supplier, we work closely with our customers, 
automotive companies, to develop capabilities in vehicles demanded by 
consumers. This effort has linked Delphi with many mobile technology 
suppliers. In addition, Delphi works with thousands of suppliers, who 
provide raw materials and components for our increasingly complex and 
sophisticated components and systems. All of this is accomplished in a 
compressed time-frame from conception to market. Delphi and the 
automotive supply industry has adapted to this innovation challenge by 
focusing on our customers' needs by offering relevant solutions. It is 
becoming increasingly important, however, that consumers have ready 
access to the most current information on the attributes that make a 
vehicle safe.
    Delphi identified the megatrends of Safe, Green and Connected as 
the issues that would be most relevant to today's drivers and 
particularly our OEM customers. Today's focus is narrowed to two of 
those three measures, Safe and Connected. We would be happy to address 
global megatrends related to clean and efficient powertrain (Green) at 
a future time.
    Right now, we are witnessing a convergence of issues. Consumers are 
increasingly demanding to be connected in their vehicle, while 
regulators are demanding that they connect safely. I would like to take 
time this morning to briefly outline for you how Delphi is developing 
advanced technologies to address these megatrends and what it means for 
the future of our roadways. I think you will see there are technologies 
that will virtually change the automotive landscape.
    I'll begin with Safe.
    Every 30 seconds, there is a vehicular fatality somewhere in the 
world. That equates to 1.2 million people who die worldwide each year. 
It's a tragedy, and can be prevented. According to the World Health 
Organization, traffic injuries are projected to be the fifth leading 
cause of death worldwide by 2030--surpassing HIV/AIDS, cancer, violence 
and diabetes. The impact is not just on lives lost, but on our global 
economy. Here in the United States, vehicle fatalities have declined 
with the use and widespread adoption of passive safety technologies 
such as seatbelts and airbags. However, progress toward further 
fatality and injury reduction has stalled, allowing over 33,000 
fatalities annually in the US, and more than 200,000 serious injuries 
each year on our roadways. Additionally, vehicular crashes continue to 
be the number one cause of fatalities for people ages 4 to 34, with 
over 90 percent of accidents caused by driver error. The financial 
impact is also staggering, with one study estimating the total annual 
cost of road crashes in the United States alone to be over $231 
billion.
    Although passive safety technologies like seat belts have helped 
more people survive crashes, we firmly believe that the new frontier of 
safety is to prevent accidents before they happen with Active Safety 
technologies, and we have worked hard to lead the way in this area.
Passive and Active Safety
    Delphi is a leading global supplier of passive safety equipment as 
well as Active Safety technologies that can sense the environment 
outside the vehicle and inform the driver of imminent threats. Passive 
safety has resulted in significant reductions in injuries and death on 
U.S. roads. Delphi is proud to have been a pioneer in these products, 
including seat belts, airbags, energy absorbing bumpers, active 
suspension and occupant detection systems, to name a few.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The devices on today's vehicles, however, include radars, cameras, 
and other sensors that can provide a full 360 degrees of sensing 
coverage around the vehicle. In addition to warning the driver of 
potential accidents, Active Safety systems can also react when drivers 
cannot, applying vehicle braking or steering automatically to help 
avoid or reduce the severity of accidents.
    Active Safety technologies are the key to reducing accidents, 
injuries, and fatalities on our roadways. Government and industry 
groups have studied the benefit potential for these technologies for 
well over a decade. In particular, a recent study by the Insurance 
Institute for Highway Safety (IIHS) states a 31 percent reduction in 
fatalities is possible with full deployment of Active Safety systems 
across the vehicle fleet, namely, Forward Collision Warning with 
Collision Imminent Braking, Lane Departure Warning, and Blind Spot 
Detection. This reduction amounts to a potential savings of over 11,000 
U.S. lives per year.
    As we discussed, the driving public is very interested in buying 
cars with improved safety features. There are numerous technologies 
currently available, but it is relatively difficult for consumers to 
decipher the value of various safety technologies. One of the best 
consumer tools is the New Car Assessment Program, or NCAP--which 
includes the star rating system on all new vehicle window stickers.
    Unfortunately, NCAP is currently not structured to accommodate 
active safety vehicle options. That is why Delphi is recommending to 
the Committee and to NHTSA that the U.S. amend the NCAP to require star 
ratings for active safety collision avoidance technology to be 
incorporated into the window sticker in the future. These are mature 
technologies that have been on the road since 1999 and are ready to 
deploy in high volume, resulting in greater consumer awareness and 
choice, and a reduction in accidents and fatalities. Many of these 
technologies are commercially available, but relatively few vehicles 
are equipped with the technology. At the current rate of acceptance, it 
is estimated that active safety technologies will not significantly 
impact crash statistics for 20 years.
    Enacting an NCAP star rating for active safety by 2015 would help 
save lives on the Nation's roadways. Focusing on Collision Imminent 
Braking (CIB) and Lane Departure Warning (LDW), at least for initial 
ratings will help drive consumer awareness and choice as well as enable 
technology for future autonomous vehicles. Accelerating the development 
and deployment of these technologies is key to preventing accidents, 
reducing injuries, reducing health care costs, addressing driver 
distraction and ultimately saving lives. I don't envy the job that 
NHTSA has to keep pace with this dynamic marketplace. But it's critical 
that they focus on the active safety technologies that have the most 
potential to reduce fatalities on our Nation's roadways, including 
forward collision warning with collision imminent braking, lane 
departure warning, and blind spot detection.
    There is no need to mandate measures or choose technology winners 
and losers. The best path is to provide consumers with information in a 
form that they can use and to which the market will respond. And the 
sooner we provide these choices, the sooner we experience lower 
fatality rates on our Nation's roadways.

Connected
    Today, there are one billion smartphone users globally. That 
translates into more consumers demanding to stay connected, even in 
their vehicles. Not only are consumers buying more smartphones, they 
are also accessing more content--via Twitter, Facebook, Instagram. 
Consider this: Facebook hit 1 billion users last year--70 percent of 
whom access their account from a mobile device!
    Certainly there are situations where connectivity has been proven 
to save lives. Emergency alerts, automatic 911, even global positioning 
systems (or GPS) make driving and drivers safer. This trend will likely 
continue as technology becomes more mainstream, allowing motorists to 
communicate with roads to improve traffic flow and navigation.
    But with opportunities for distraction increasing, the convergence 
of connectivity and Active Safety technology is critical to allow safe 
connectivity, keeping drivers'

  <bullet> Eyes on the road

  <bullet> Hands on the wheel, and

  <bullet> Mind on the mission--the mission of driving safely

    Delphi's industry-first, integrated Radar and Camera System (or 
RACam) combines radar sensing, vision sensing and data fusion in a 
single sophisticated module. Similarly, Delphi's Rear and Side 
Detection System (RSDS) helps make drivers aware of approaching 
vehicles when changing lanes or making turns. By providing an alert 
when a vehicle has entered a blind spot to the rear or side of the 
vehicle, RSDS helps give drivers more time to react to obstacles that 
may be difficult to see in the side mirror. Our Active Safety human-
machine interface (HMI) helps keep drivers connected to the information 
they consider important while helping to mitigate driver distraction.
    In conclusion, we are at a critical point in the vehicle technology 
industry. 24/7 connectivity is prominent and happening all around us. 
Market studies indicate that consumers will pay for connectivity--and 
will pay to use it safely. These dynamics have significant potential to 
impact the way we move about on America's roads every day. At Delphi, 
we firmly believe that first step, the foundation for safe 
connectivity, is the robust deployment of active safety technologies.
    Delphi believes that Active Safety technologies hold great promise. 
And that's why we have invested heavily in engineering and technology 
research. We stand ready to assist this Committee as you forge the road 
ahead in advanced transportation technology, and I'll be happy to 
answer your questions.
    Again, thank you for the opportunity to address the Committee.

    The Chairman. Thank you, sir.
    And now, Mr. Peter Sweatman, Director, the University of 
Michigan Transportation Research Institute.

         STATEMENT OF DR. PETER F. SWEATMAN, DIRECTOR,

             UNIVERSITY OF MICHIGAN TRANSPORTATION

                       RESEARCH INSTITUTE

    Dr. Sweatman. Good afternoon, Mr. Chairman, Ranking Member, 
and members of the Committee. I am honored to speak with you 
about new technology in vehicles and about a truly safe and 
efficient roadway transportation system. This system is of 
transformational importance for the citizens and economy of the 
United States.
    The University of Michigan Transportation Research 
Institute, UMTRI, is currently overseeing a mobile deployment 
in Ann Arbor as we heard earlier. We are testing nearly 3,000 
cars, trucks, transit buses, and motorcycles. They are equipped 
for licensed wireless communication, enabling very promising 
crash avoidance systems. This work is sponsored by the U.S. 
Department of Transportation, and is carried out in partnership 
with the intelligent transportation industry, including 
automotive manufacturers.
    I know of no other technology that could have the same 
impact overall on safety. It has the potential to revolutionize 
our transportation system by drawing drivers' attention to 
risks more immediately and more reliably. Pervasively, this 
will help us all to avoid crashes and to utilize roadways and 
energy sources much more efficiently.
    As we move beyond the research phase, a national ITS 
strategy is needed to guide the deployment of the 5.9 GHz 
platform benefiting all road users. We need dedicated short-
range communication at 5.9 for all classes of vehicle and at 
key infrastructure locations. Despite the growing spectrum 
demand for unlicensed uses, sufficient bandwidth must be 
protected for exclusive use by vehicles and infrastructure. 
Reliable and secure communication is non-negotiable.
    Cybersecurity is one of the leading issues of our era. A 
comprehensive strategy involving industry and government must 
be established and carried out. Further field testing of a new 
generation security system is needed to ensure that the 
platform remains secure while maintaining the privacy of all 
users. Once these systems are developed, we need automotive 
consumers to embrace them, and we need attractive aftermarket 
devices widely deployed.
    But clearly, a further wave of technological development 
will occur in vehicle automation. Then the benefits will reach 
well beyond safety. The scale of the transformation is 
important. The United States has the opportunity to leap ahead 
in mobility technology supporting an improved way of life and 
new mobility industries. An industrial ecosystem with new jobs 
will be created by the automotive and information technology 
industries, and there will be many winners across different 
businesses and consumers.
    So how do we prepare for and sustain this transformation? A 
critical requirement is for all vehicles, manual or automated, 
to be connected during a multi-decade transition, and connected 
vehicles connect with drivers. The need for human machine 
interface technology to focus the driver's attention is 
crucial. As we move forward, vigilant technology will draw 
attention to risky driving scenarios. Even so, the driver will 
still need to take over in certain situations.
    Here are four additional things that must occur. To start, 
the United States must take the lead in standards development 
and decide where mandatory safety standards are needed, and 
where open standards are needed for the Nation's entrepreneurs. 
Second, voluntary performance standards need to be solidified 
for the connected vehicle platform, for vehicle sensors and 
controls.
    Third, we need to start now with connected infrastructure. 
The operation of the roadway infrastructure will change 
dramatically as more automated vehicles are deployed and co-
exist with conventional vehicles. Automated cars someday will 
be capable of operating in narrow lanes much closer together, 
and may park themselves without a driver. Finally, national 
policy positions are needed on data ownership, access, and 
privacy so that traffic system managers maximize the connected 
vehicle data.
    Obviously we will face new risks with large scale 
transformation of our ground transportation systems, but the 
rewards are huge, including an expanded 21st century mobility 
economy with minimal safety and public health impacts and 
sustainable energy use. Testing and certification need to be 
taken to the next level, and responsibility for safety needs to 
be redefined so that liability concerns do not stall 
deployment.
    In closing, the mobility technologies of the future will 
emerge through a process built around connected vehicles, 
automated vehicles, smart infrastructure, and improved driver 
interaction with the automobile.
    I do appreciate this opportunity very much and welcome your 
questions. Thank you for your attention.
    [The prepared statement of Dr. Sweatman follows:]

 Prepared Statement of Dr. Peter F. Sweatman, Director, University of 
               Michigan Transportation Research Institute

    Good afternoon, Mr. Chairman, Ranking Member, and members of the 
Committee. I am honored to speak with you about key steps for creating 
a much safer and more efficient roadway transportation system through 
new and emerging vehicle technologies. My perspective is research, 
development and deployment, and how to maximize the benefits of new 
technologies for the citizens and economy of the United States, with 
world-wide application.
    I shall talk about the most promising technological advances with 
the broadest scope for application, under the shortest time frames. My 
commentary will include current vehicle technologies and trends as well 
as the more transformational technologies on the horizon. I shall also 
talk about how we need to get the job done through coordinated 
technology development, purposeful deployment, and strong policy 
guidance. We have entered a transformational period, and need to plan 
for new technologies and their likely implications for public policy.
    Our journey with advanced vehicle technology began when attention 
moved from systems that protect people involved in crashes to systems 
that help prevent crashes in the first place.
    Such avoidance systems currently alert drivers and are beginning to 
assist drivers by indicating the appropriate avoidance action. But 
ultimately the driver is still totally responsible for taking action to 
avoid the crash. We need more incentives and standards for the 
performance of such systems, as well as independent data that 
quantifies the effectiveness of these ``safety content'' features 
already being used in the U.S. vehicle fleet.
    At the same time as these very positive advances in vehicle safety 
content are being realized, we are seeing an even stronger move to 
infotainment and telematics in vehicles, particularly the ability to 
connect and use personal devices in vehicles. For example, we are 
seeing a mature level of usage of navigation and traffic information 
systems, and such systems are migrating from those installed by 
original equipment manufacturers to those available in smartphones. 
Telematics services also include personal communication (often with 
voice command), emergency assistance, and even smart insurance and 
energy management. Such services connect the vehicle with the cloud, 
increasing the range and power of available information being channeled 
to the vehicle.
    We are seeing unprecedented attention to the human-machine 
interface in vehicles, in order to deal safely with the increased flow 
of information to the driver, and to minimize distraction. 
Increasingly, such interfaces may be customized by automakers, 
providing them with some control over the presentation of content 
entering the vehicle via personal devices, but not the content itself. 
Responsibility for the safety of these in-vehicle transactions with the 
driver is an interesting question. Because a range of manufacturers and 
service providers combine to produce telematics, a ``chain of 
responsibility'' approach is needed for safety.
    While good design of physical interfaces can minimize distraction, 
distraction is primarily a human issue that extends beyond vehicle 
technology. The ultimate solution to distraction is to completely 
replace human control with elements of automation, although this will 
not happen for many more years. In the meantime, responsible design is 
essential. Responsible design includes smart interfaces that can limit 
access and interfaces that maintain eyes on the road and hands on the 
wheel.
    As we move forward, the technology will increasingly draw attention 
to risky driving scenarios as they develop. This will apply whether we 
are talking about the manual driving of today or the automated driving 
of the future, where the driver will still need to take over in limited 
situations. There is no better technology for purposefully identifying 
risky driving scenarios than 5.9 GHz Dedicated Short Range 
Communication (DSRC) connected vehicles.
    The University of Michigan Transportation Research Institute 
(UMTRI) is currently overseeing a model deployment of nearly 3,000 
cars, trucks, transit buses, motorcycles and bicycles in Ann Arbor--
these vehicles are equipped for standardized and licensed 5.9 GHz 
wireless communication enabling very promising crash avoidance systems. 
This work is sponsored by the U.S. DOT and is carried out in 
partnership with the automotive and intelligent transportation systems 
(ITS) industries, and their technology suppliers.
    This connected vehicle technology has the potential to 
revolutionize our transportation system, by drawing drivers' attention 
to risks more immediately and reliably, providing protection in cases 
when driver attention is deficient, and giving drivers more time to 
react. Pervasively, this will help us all to avoid crashes and to 
utilize roadways and energy sources much more efficiently. I know of no 
other technology that could have the same impact on safety, and 
potentially in a reasonably short time frame.
    And this technology will undoubtedly have very positive impacts on 
mobility, energy use, and environmental aspects of our transportation 
system, all of which will provide significant economic benefit to the 
United States. Our transportation system will not remain 
internationally competitive without it.
    A golden era of automotive safety is within reach. The focus must 
be deploy the connected vehicle technology, while ensuring that it is 
reliable and secure, and bring about a rapid uptake by automotive 
consumers.
    We need to fully utilize and deploy Dedicated Short Range 
Communication (DSRC) at 5.9 GHz for all classes of vehicle and at key 
infrastructure locations (for example, intersections, interchanges and 
curves). DSRC is equally effective for--and must be applied to--all 
modes of roadway transportation, and in fact all road users. A national 
ITS strategy is needed to guide the application of the 5.9 GHz platform 
to all vehicle classes and recommended infrastructure locations, 
benefiting all road users. Testing also needs to be done to understand 
how this spectrum can serve to protect vulnerable road users, including 
pedestrians and bicyclists. Furthermore, this is a technological 
advancement that is being realized and explored by vehicle 
manufacturers and governments around the world because of its great 
promise.
    The current V2X platform, which has been developed mainly through 
vehicle-to-vehicle (V2V) R&D, needs to be deployed taking advantage of 
vehicle-to-infrastructure (V2I) connectivity. Infrastructure is a 
critical component of connected transportation. Consider the important 
category of roadway intersection safety. Intersection crash risks are 
more effectively recognized by combining the ``fixed'' viewpoint of the 
intersection with the ``dynamic'' viewpoint of the moving vehicle. We 
need a national strategy for vehicle-to-infrastructure communications.
    The effectiveness of V2X relies on the shared use of data between 
vehicles, infrastructure, and devices. But inherently there is risk for 
any one manufacturer when the safety of their product is partially 
dependent on another manufacturers product. There will be a wariness to 
introduce these technologies in the United States due to our litigious 
climate. Other countries may very well benefit first from the 
technologies developed here. Because of this, it will be necessary to 
consider shared-liability regimes, including limiting the liability of 
automakers and other device makers.
    The 5.9 GHz spectrum itself must be managed in such a way that V2V 
and V2I applications continue to function with full effectiveness, 
reliability and security, regardless of the burgeoning demand for 
spectrum for unlicensed uses. Safety trumps convenience. Sufficient 
bandwidth must be protected for exclusive use by vehicle and 
infrastructure, to ensure safe and secure communication. Any competing 
uses need to be sufficiently defined, and testing must be carried out 
to ensure that safety functionality is not diminished or impaired by 
any shared bands adjacent to the exclusive safety and security bands. 
Reliable and secure communication is non-negotiable.
    The overall reliability of the V2X platform will depend critically 
on these exclusive 5.9 GHz bands, as well as the ability of the V2X 
platform to scale up to large numbers of vehicles in the vicinity. 
Further testing needs to be carried out to allow for the high traffic 
volumes and densities of the future, as well as longer-range DSRC 
deployments.
    Nothing is more critical to the success of the V2X safety platform 
than cybersecurity. Further field testing of a new generation security 
system is needed to ensure that the platform remains secure, while 
maintaining the privacy of all users, under all conditions encountered 
in a full scale field test. And cybersecurity for vehicles in general 
is an area of growing awareness and concern, and a comprehensive 
strategy involving industry and government must be established and 
carried out.
    In order to accelerate the uptake of the platform by automotive 
consumers, it is essential to provide infrastructure-based 
functionality that offers useful applications to users from day one. 
This needs to be part of the national ITS strategy. Equally 
importantly, attractive aftermarket devices, developed with the active 
support of the automotive manufacturers, are needed to expand access to 
safety and mobility benefits and increase the density of deployment of 
the platform. These devices will need to have the active support of 
automakers. Further field testing of aftermarket devices will also be 
needed.
    Clearly, a further wave of technological development will occur in 
vehicle automation. Automated vehicles will develop partly from current 
experimental self-driving vehicles, and will also build upon a 
successfully-deployed connected vehicle and infrastructure platform. 
Automation will occur progressively and in stages of decoupling from 
the driver. Automation will also increasingly affect the layout and 
operation of the roadway infrastructure.
    Automated vehicles will result from a convergence of current driver 
assistance technology, the connected vehicle and infrastructure 
platform, and self-driving vehicle technology, including advanced 
vehicle-based sensors. But automation will also be part of a larger 
transformation to a new 21st Century Mobility System. Other elements of 
this transformation are likely to include a new transportation service 
economy, multi-modal trips, shared vehicle use, alternative energy 
sources including electrification, data-intensive system management and 
more tailored vehicles built with new materials and manufacturing 
techniques.
    The scale of the transformation is important. The United States has 
the opportunity to leap ahead in mobility technology supporting an 
improved way of life and new mobility industries. An industrial 
ecosystem will be created by the automotive and information technology 
industries and there will be many winners.
    Our new mobility system will need to operate on, and make highly 
efficient use of, our existing roadway network. Automated cars will be 
capable of operating in narrower lanes, with much reduced headways, 
creating much more efficient use of roadway space. And they may park 
themselves without a driver.
    As part of the need to reduce the cost of the infrastructure, the 
stresses placed on roadways and bridges by large freight trucks will 
need to be reduced substantially. A productive new system of less 
driver-intensive, modular, close-headway freight units will help lead 
the way in vehicle automation. Traffic system management will utilize 
extensive data generated through the connected vehicle and 
infrastructure platform.
    The operation of the roadway infrastructure will change 
progressively as more automated vehicles are deployed and co-exist with 
conventional vehicles. Eventually, the usage of our infrastructure will 
change dramatically as cars and trucks are provided with more effective 
traffic lane configurations and conventional vehicles become the 
minority.
How do we prepare for, and sustain, this transformation?
    The problems we have been working on are the right problems for the 
long haul. A critical requirement is for all vehicles, whether manual 
or automated, to be connected during a multi-decade transition. And 
connected vehicles provide the all-important connection with drivers. 
Connecting all elements of roadway transportation--vehicles, drivers 
and infrastructure--represents an historic step forward and a vital 
platform for innovation.
    The need for human-machine interface (HMI) technology to focus the 
driver's attention is a core competency today, tomorrow and the day 
after. As we move forward, vigilant technology will draw attention to 
risky driving scenarios. And the driver will still need to take over in 
certain situations.
    The United States must take the lead in standards development and 
decide where mandatory safety standards are needed and where open 
standards are needed for the Nation's entrepreneurs.
    Voluntary performance standards for vehicle safety systems are well 
advanced and need to be solidified for the connected vehicle platform, 
vehicle sensors and controls.
    We need to start now with connected infrastructure. Changes in the 
operation of the roadway infrastructure, as more automated vehicles are 
deployed, will eventually be profound. These changes will be driven by 
timely and reliable operational data, driven by connected vehicle data 
sources. National policy positions are needed on data ownership, 
access, and privacy. Traffic system managers need guidance in order to 
exploit the extensive data generated through the connected vehicle and 
infrastructure platform.

What new risks do we face with a large-scale transformation of our 
        ground transportation systems? The rewards are huge, but do 
        bring new 
        security risks.
    We are on the threshold of a very large-scale transformation of our 
ground transportation systems. We are now moving towards a system that 
will achieve much more for our consumers and industries, and create a 
new mobility economy, with minimal safety and public health impacts, 
and sustainable energy use.
    The huge rewards of the new mobility system will also entail new 
risks that must be dealt with. Automated, high-density movement at 
speed has the potential for large scale disruption and harm as a result 
of systems malfunction, cyberattack or human error. We will need to be 
willing to develop breakthrough capabilities in the testing and 
certification of automated systems, cybersecurity, and human machine 
interface design. Responsibility for safe operation will need to be 
shared by industrial partners in such a way that none bears an 
unreasonable level of liability.
    National strategies, performance standards and testing requirements 
for the connected vehicle and infrastructure platform, vehicle sensors, 
levels of automation, and HMI will be required.
    Attention in the form of policy or legislation will be needed to 
the assignment of responsibility for safe vehicle operation. This will 
transfer from the driver towards the vehicle manufacturer as levels of 
automation increase over time. The vehicle manufacturer will carry 
considerably more responsibility, under conditions of greater 
uncertainty, including shared data and decision making. It will be 
necessary to consider a ``chain of responsibility'' approach, to ensure 
that the risk is commensurate with the benefit for each party, and to 
limit the liability of several partners.
    Cybersecurity is a new and difficult problem. It will be necessary 
for the government to convene thought leadership in transportation 
cybersecurity, develop a defined action plan, and lay out protocols for 
cybersecurity that address the required level of security, testing 
standards, updates, and responsibilities of all relevant parties.
    In closing, I wish to emphasize that the mobility technologies of 
the future will emerge through a process built around connected 
vehicles and infrastructure. Successful new technologies, of national 
importance, must be accommodated by:

  <bullet> National testing, standards and certification for connected 
        and automated vehicles;

  <bullet> Progressive innovation within our infrastructure;

  <bullet> Scientific solutions for engaging driver and machine;

  <bullet> Limited transfer of responsibility for safety, from drivers 
        to private companies; and

  <bullet> A defined action plan and enduring set of protocols for 
        transportation cybersecurity.

    I appreciate this opportunity very much and welcome your questions. 
Thank you for your attention.

    The Chairman. Is that it, sir? Thank you very much.
    Dr. Sweatman. That is it. Thank you.
    The Chairman. And then Dr. John Lee, University of 
Wisconsin-Madison.

         STATEMENT OF DR. JOHN D. LEE, EMERSON ELECTRIC

              QUALITY AND PRODUCTIVITY PROFESSOR,

       DEPARTMENT OF INDUSTRIAL AND SYSTEMS ENGINEERING,

                UNIVERSITY OF WISCONSIN-MADISON

    Dr. Lee. Chairman Rockefeller, Ranking Member Thune, and 
the Committee, thank you for the opportunity to speak today. My 
comments address the human side of vehicle technology.
    To put vehicle technology in context, consider driving 
safety as an important health problem. Approximately 34,000 
Americans died in motor vehicle crashes last year. These 
crashes are the most likely cause of death for those between 
four and 34 years of age, and account for more than 30 percent 
of teen deaths. The coming years will bring increasingly 
complex distractions and increasingly complex vehicles to 
drivers who may be unprepared for either. This technology can 
dramatically improve or degrade driving safety.
    Vehicle technology affects driving safety because your car 
is essentially a computer. A typical luxury car requires over 
100 million lines of computer code. Software and electronics 
account for 40 percent of the car's cost and 50 percent of 
warranty claims. We think of cars as mechanical systems, but 
they are actually rolling computers.
    These computers are changing what it means to drive. They 
already enable cars to take over many important driving 
operations with features such as adaptive cruise control, 
automatic parking, and autonomous braking. Entertainment 
systems now enable drivers to connect social networks, hear 
text messages, and choose from thousands of songs. From these 
changes, a critical safety threat may emerge: the technology 
automating driving much of the time, drivers have the freedom 
to focus on entertainment systems, but the vehicle can then 
unexpectedly hand control back to the distracted driver. 
Drivers are particularly error prone in such situations. 
Changing vehicle technology may make such unexpected handoffs 
even more likely.
    Moore's law suggests the capacity of automation and 
entertainment systems will change rapidly, doubling every 18 
months. This exponential increase means that in 15 years we are 
likely to be discussing whether people should be allowed to 
drive because the autonomous vehicles may be so much less error 
prone than people.
    Until cars assume complete responsibility for driving, the 
critical challenge is to design vehicles so that drivers 
clearly understand what it can and cannot do. This is 
particularly challenging because even small design changes can 
violate drivers' expectations and confuse them. In this way, 
automated cars are like paper towel dispensers: using a manual 
paper towel dispenser is not confusing. You grab and pull. 
Automatic and semi-automatic paper towel dispensers can be 
confusing. Some use motion--are motion sensitive and 
automatically roll out a towel when you wave a hand in front. 
Others require that you press a button to trigger a motor. 
Fruitlessly waving at a dispenser before you realize that it 
requires a button press can be embarrassing. Such confusion in 
a car can be deadly.
    Like paper towel dispensers, push button ignition systems 
can be confusing. When the car is stopped, you only need to 
push the button to turn off the engine, but when in motion, you 
must press and hold the button. The need to press and hold can 
confuse drivers and could have tragic consequences when the 
driver tried to stop an unintentionally accelerating vehicle. 
Such mode confusion represents an important challenge for 
increasingly automated vehicles.
    One benefit is that technology may counterbalance the 
threat of distractions. Distraction represents a longstanding 
safety problem that the explosion of entertainment systems 
threaten to exacerbate. Fortunately, other emerging 
technologies can detect distraction and direct drivers' 
attention to hazards. Soon cars will be able to know when you 
look away from the road, when the car had brakes, and when to 
call your attention back to the road. Over time, the car can 
even help you appreciate and avoid risks on the road.
    The road ahead. As an engineer, I am very optimistic about 
the future of vehicle technology. As a researcher focused on 
the psychology of human technology interaction, I see 
substantial challenges. I hesitate to offer recommendations, 
and so I draw upon the wisdom of the Committee on Electric 
Vehicle Controls and Unintended Acceleration. I paraphrase 
several of their recommendations.
    First, assess whether electronic interfaces, such as push 
button ignition systems, delay responses in emergency 
situations. Second, promote government and industry 
collaboration to create designs that communicate vehicle 
capability and status to drivers. Third, identify when drivers' 
expectations of vehicle automation diverge from designers' 
intent. And finally, establish electronic data recorders and 
associated information infrastructure to catch design errors 
that will escape even the most thorough design process.
    Thank you.
    [The prepared statement of Dr. Lee follows:]

  Prepared Statement of Dr. John D. Lee, Emerson Electric Quality and 
     Productivity Professor, Department of Industrial and Systems 
              Engineering, University of Wisconsin-Madison

    1. Driving safety is an important health problem. Approximately 
34,000 Americans died in motor vehicle crashes last year. These crashes 
are the most likely cause of death for those between 4 and 34 years of 
age, and account for 30 percent of teen deaths. The coming years will 
bring increasingly complex distractions and increasingly complex 
vehicles to drivers who may be unprepared for either. This technology 
can dramatically improve or degrade driving safety.
    2. Your car is a computer. A typical luxury car requires over 100 
million lines of computer code. Software and electronics account for 40 
percent of the car's cost and 50 percent of warranty claims. We think 
of cars as mechanical systems, but they are actually rolling computers.
    These computers are changing what it means to drive. They already 
enable cars to take over many important driving operations, with 
features such as adaptive cruise control, automatic parking, and 
autonomous braking. Entertainment systems now enable drivers to connect 
to social networks, hear text messages, and choose from thousands of 
songs.
    From these changes a critical safety threat may emerge: with 
technology automating driving much of the time, drivers have the 
freedom to focus on the entertainment system, but the vehicle can then 
unexpectedly hand control back to the distracted driver. Drivers are 
particularly error prone in such situations. Changing vehicle 
technology may make such unexpected handoffs more likely.
    Moore's law suggests the capacity of automation and entertainment 
systems will change rapidly, doubling every 18 months. This exponential 
increase means that in fifteen years we are likely to be discussing 
whether people should be allowed to drive--because autonomous vehicles 
may be much less error prone than people. Until cars assume complete 
responsibility for driving, the critical challenge is to design 
vehicles so that drivers clearly understand how the car works and what 
it can and can't do. This is particularly challenging because even 
small design changes can violate drivers' expectations and confuse 
them.
    3. Automated cars are like paper towel dispensers. Using a manual 
paper towel dispenser isn't confusing: you grab and pull. Automatic and 
semi-automatic dispensers can be confusing. Some are motion sensitive 
and automatically roll out a towel when you wave a hand in front; 
others require that you press a button to trigger the motor. 
Fruitlessly waving at a dispenser before you realize you need to press 
the button can be embarrassing. Such confusion in a car can be deadly.
    Like paper towel dispensers, push button ignition systems can be 
confusing. When the car is stopped you only need to push the button to 
turn off the engine, but when in motion, you must press and hold the 
button. The need to press and hold can confuse drivers, which can have 
tragic consequences when a driver tries to stop an unintentionally 
accelerating vehicle. Such mode confusion represents an important 
challenge for increasingly automated vehicles.
    4. Technology may be particularly problematic for teen drivers. 
Vehicle technology may confront teen drivers with a ``perfect storm'' 
of challenges. New entertainment systems encourage multitasking. Teens 
are notorious multitaskers, which would seem to make them more able to 
handle distractions. But that's only what they think. The opposite is 
actually true: heavy multitaskers are more distractible. Teens are also 
less able to anticipate roadway hazards, and so are unlikely to 
anticipate limits of vehicle automation. The combination of 
increasingly distracted and distractible drivers managing imperfect 
vehicle automation may severely undermine driving safety.
    5. Technology may counterbalance the threat of distractions. 
Distraction represents a long-standing safety problem that the 
explosion of entertainment systems threatens to exacerbate. 
Fortunately, other emerging technologies can detect distraction and 
direct drivers' attention to hazards. Soon cars will know when you look 
away from the road, when the car ahead brakes, and when to call your 
attention back to the road.
    6. The road ahead. As an engineer, I am very optimistic about 
future vehicle technology. As a researcher focused on the psychology of 
human-technology interaction, I see substantial challenges.
    I hesitate to offer recommendations, and so I draw upon the wisdom 
of the Committee on Electronic Vehicle Controls and Unintended 
Acceleration. I paraphrase several of their recommendations:

  1.  Assess whether electronic interfaces, such as push-button 
        ignition systems, delay responses in emergency situations.

  2.  Promote government and industry collaboration to create designs 
        that communicate vehicle capability and status to drivers.

  3.  Identify when drivers' expectations of vehicle automation diverge 
        from designers' intents.

  4.  Establish electronic data recorders and associated information 
        infrastructure to catch design errors that will escape even the 
        most thorough design process.

    The Chairman. Thank you. Senator Johnson, you have been 
sitting there deep in thought and reading. And, therefore, I 
think it is important that you ask questions.
    Senator Johnson. I am up for it, thanks.
    Tell me how this technology is going to roll out. I mean, 
we obviously have got to do some infrastructure building. 
Everybody--this is not going to be one car, you know. I mean, 
the whole fleet. Can somebody just describe, A, the total cost 
just of infrastructure building?
    Mr. Bainwol. That is a profoundly tough question. Even 
defining what this is, I think, is tricky. I think maybe a 
simple way to break this down begins to introduce the 
complexity and the evolution that we are about to go through.
    So in today's world, if a driver needs to brake, he makes 
or she makes a choice to apply the brake. With assisted--with 
driver assists that are in the market right now, if the driver 
does not react in time, he may get a warning, and that is 
fairly prevalent.
    Senator Johnson. I have got that.
    Mr. Bainwol. So you have got that. And then the next way, 
which is also in the market, is that if you do not react in 
time, the car will actively engage for you. The next step 
really is when big data goes beyond what the car can see. So, 
so far we have been operating with what the driver can see and 
what the car can see with its suite of sensors.
    Connectivity really is about seeing what we cannot see and 
having every car within a mile radius or so benefiting from the 
probability of a challenge. They are all informed. Big data 
informs everybody, distills it in some fashion so that it is 
actionable. And I think as Administrator Strickland indicated, 
getting to a point where we have a connected fleet is a very 
long time away. The average age of the car is 11 years old. It 
is going to take forever to get to a point where this is--has 
permeated the mainstream.
    But the value of it is enormous, and unlike a situation 
like ESC, or automatic braking, or automatic high beams where 
car makers innovate and then government responds and decides at 
some point that perhaps it should permeate the fleet, the 
connected space is a joint initiative where it does not go 
anywhere unless government and the private sector come together 
to make it a reality.
    So the time and the money is a function of how much you are 
willing to spend and when you are willing to spend it.
    Senator Johnson. Let us back up. I have got a Ford Taurus. 
I have had it brake for me. What about lane departure warning? 
How does that one work? I mean, what is it keying on? What is 
the sensor doing?
    Mr. Owens. I hope you like your Ford Taurus because we have 
some product in there that is hopefully helping you.
    [Laughter.]
    Senator Johnson. I do like it. I have got two of them.
    Mr. Owens. Good. Lane departure warning is--the usual 
implementation of that is looking at the lane boundaries with a 
vision system and determining when you cross or you are about 
to cross the boundary. And then the OEM, the automobile 
manufacturer, will typically decide what to do with that 
information. It can give you an alert. It can send an audible. 
It can shake your seat.
    Senator Johnson. OK. So what it is looking at, paint? Is it 
looking at reflectors?
    Mr. Owens. All that. With today's digital signal processors 
being as fast and as affordable as they are, it will--even if 
you do not have painted boundaries, it will define a lane 
boundary for you and let you know when you are approaching that 
at a speed you should not be.
    Senator Johnson. Professor, I live in Wisconsin, and some 
of those sensors, they break down. I mean, we get snow and 
slush. So where does that system break down? What are the 
problems with that?
    Mr. Owens. Well, a vision system will have problems in a 
heavy snow or heavy wet rain environment. The radar sensors 
like you have on your Ford Taurus sees through that. That is 
almost weather independent. So there are a variety of 
vulnerabilities to the technology, but radar operates in 
virtually any environment. The vision systems you can operate 
in most environments. Even on a snow packed road you can define 
lane boundaries.
    Senator Johnson. So are you thinking it is going to be 
pretty minimal in terms of actual highway infrastructure 
spending on this? It is all going to be pretty much sensor with 
the vehicles?
    Mr. Owens. I mean, there are many paths to get there. An 
infrastructure-based system would be--is the compelling 
argument to get you all the information that you could possibly 
have to ensure a safe ride. You can do the individual car 
implementation as you have and get a lot of the way there 
without have any kind of infrastructure dependency.
    So you would have an individual machine that could operate 
with a higher degree of safety, less fatalities on the road 
today for sure.
    Senator Johnson. Dr. Sweatman, you raised your hand there.
    Dr. Sweatman. Yes, thank you, Senator. I think your 
question was getting at the infrastructure cost side of it as 
well. And so, we need to be very strategic about that. Clearly 
there could be a large cost if we deploy throughout the 
infrastructure. So we must target--think about intersections, 
which is our main safety problem. If we were able to come up 
with a system where traffic control cabinets, which have to be 
there, were actually fitted with this wireless communication, 
we start to see a much lower cost solution. So we need a very 
strategic approach with the infrastructure.
    On the vehicle side, the vehicle as we talked about can do 
a lot by itself. And also it was originally conceived as being 
a low-cost solution. So the wireless communication itself is 
affordable. It is really the infrastructure where the cost 
issue comes in. And we think we can be very strategic about how 
we roll it out.
    Senator Johnson. Dr. Lee, would you like to add something?
    Dr. Lee. Yes. I would like just to add a quick point, and 
that is the time constant and the development in these 
different industries. If you take the iPhone for instance, the 
original iPhone was just declared vintage. What is the age of a 
vintage car, maybe 60 years? So the difference between the 
fleet turnover in the automotive sector and the fleet turnover 
in the cell phone sector is dramatically different. And what I 
see because of that is the influx of distractions may be 
overwhelming the ability of the manufacturers to create 
vehicles that can counteract some of those effects and maintain 
safety.
    Senator Johnson. But just real quick, if I may, Mr. 
Chairman----
    The Chairman. Senator Johnson, you are on a roll, sir. You 
take all the time you want.
    [Laughter.]
    Senator Johnson. The strategic nature of the rollout I 
think is key to this because what you want to do is--again, if 
you have infrastructure in place, you can add the cost in a low 
cost fashion. Then you can start taking advantage of the 
opportunities and test it where you are not overloading the 
system. So is that pretty much how you see--rather than all of 
a sudden trying to put something down every strip of every 
highway, which would be incredibly expensive, as well as go 
obsolete potentially when new technologies come on board.
    Is that how people are thinking this thing through? And is 
government not going to interfere? That would be my biggest 
problem. And let me ask that question as long as the Senator is 
giving me leeway. What concerns you about government 
interference potentially in that strategic rollout?
    Dr. Sweatman. Well, I think the rollout of the 
infrastructure obviously has got to be local. We have to lay 
that out throughout the country. So we need the capability to 
incorporate it at the lowest cost possible with systems that 
are already being deployed.
    I think the industries that are producing the traffic 
control signals, the intelligent transportation industries, are 
very aware of this. And I think we will be very ingenious in 
the way we can incorporate it. You know, we can even tag black 
spots. We know where the crash black spots are in every state, 
in every city. So we can do some targeting.
    Senator Johnson. OK. Again, so what I am looking for is who 
is talking to who, who has to talk--you know, which entities 
have to talk to each other. And, again, what concerns you about 
government's involvement? I am always concerned about 
government involvement.
    Mr. Owens. Well, I would offer--certainly the subject of 
vehicle-to-vehicle is going to be infrastructure dependent, and 
as fast as we can cooperate on the standards and get that 
unified amongst the industry, I mean, that will be a pacing 
item for that.
    On the driver assistance systems, the product like you're 
experiencing there, the collision imminent braking, the lane 
departure warning, I think the key, as I mentioned, is to make 
that visible to the consumer, that it is available, that it is 
there. That worked extremely well for the airbag rollout. That 
worked extremely well for stability control.
    Where the consumer saw that, saw the value of safety and 
brought that into the market faster than regulation required 
it, I think we have the same opportunity here. Let the market 
work. Let the market create the higher launch. Make people 
aware as you are. I would hope with your experience, certainly 
mine, I will never have my wife or my kids in anything other 
than an active safety-equipped vehicle if I have a choice, but 
only if I know it is there on the vehicle, and I know what it 
does. You have to experience it to get the value of the 
technology.
    So I think we can let the market work, and I think the--I 
think NHTSA and the NCAP system is a key ingredient to doing 
that.
    Senator Johnson. We do need to be always be mindful of the 
cost. I mean, I can afford the upgrade. Not everybody can. And 
you have to be very careful in terms of cost-benefit 
calculation on that as well.
    Mr. Bainwol. But there two different activities here. One 
is the driver assist which will be market driven, and the costs 
will come down over time, and there the individual makes the 
choice. When you get to the connected car, it is a different 
animal. That is where government has to get involved, and there 
are two responsibilities. One is to make sure the spectrum 
works because you cannot have metal flying down the street at 
100 feet a second and have the communications go faulty. And 
the second part of that is infrastructure. And because it is 
government funded, the rollout will in large part be dictated 
by government.
    So, two different paths. They connect in terms of 
convergence.
    Senator Johnson. That one I am skeptical of.
    [Laughter.]
    Senator Johnson. Thank you, Mr. Chairman.
    The Chairman. I am very sad.
    Senator Johnson. I am kind of an old dog.
    The Chairman. No, I love it. I love it. Your questions were 
great.
    Let me just ask a couple. We had a whole series of hearings 
in the last several years having to do with television, and, 
you know, what I call the rapid descension of content. And so 
the question was, it was not just, you know, violence, but also 
unhealthy things that kids were seeing or watchers were seeing.
    But then we turned with great satisfaction to the ability 
of the parent to monitor what was going on and to be able to 
use the controls at that time available and now available to 
allow their children not to see what they should not see. Now, 
I think that is reasonable because just basic television today 
has--obviously the later in the night. But, I mean, there is 
some really bad stuff on it. And it has consequences.
    But that is not my point. My point is, I do not think we 
ever really got a sense of confidence that the average parent, 
whoever that would be, throughout the country knew how to work 
the--you know, the promoter, I mean, the little machine that 
would set parameters. And if you cannot have that, then 
everything else fails.
    Now, just moving to what we are talking about, I will make 
a terrible confession, and since my colleagues have basically 
disappeared, C-SPAN has not, so I am in some trouble but I've 
got a new, much gadgetized car because I am large, and the car 
is large, and it is a very happy coincidence. But we have just 
come out of winter, and I discovered that the air conditioning 
just did not seem to work. And I did what I remembered from 
previous iterations of automobiles, what would happen to make 
the air conditioning work.
    Well, I had befallen to--I think the classic American 
tradition of failing to read the manual. And I think Americans 
will go to almost any length to avoid manuals, including, you 
know, diet and all the rest of it. I mean, we are just 
wonderful at avoiding things that we ought to read. And then I 
discovered to my incredible embarrassment there was this little 
white button fairly low on the panel that was meant to look 
like a snowflake, I guess, therefore, implying cool. I had no--
that was not a judgment I made, but I was told to push it. I 
pushed it, and all of a sudden the air conditioning came on.
    Now, I think that is a very sad American story of which I 
am the villain. But I just raise the question of how 
sophisticated are people growing in technology in automobiles 
as they have to get it in and get to work or get to some--the 
dentist or whatever it is. And several people use the car, so 
who really reads the manual? Are manuals read? Are manuals 
read? I think there are substantial portions of that car that I 
still cannot work, but I do not need to. Well, now we are 
coming to a point where I may need to, you know, if over the 
next 10 years a variety of things, as you indicated, happen.
    So I want to put that question to you. How reliable do you 
think drivers are these days in understanding some of the new 
electronics? Whoever.
    Dr. Sweatman. Mr. Chairman, in Ann Arbor where we are 
testing 3,000 connected vehicles and the Secretary of 
Transportation said, you are testing these with ordinary 
Michiganders. And in many cases, they are parents in the public 
school system driving their kids to school and so on.
    And so we have been running this for more than six months 
now, and we have regular contact. And there are no buttons on 
the connected vehicle system. So they are only getting 
information, and, in some cases, warnings, when the need 
arises. We are finding that the reaction from our ordinary 
Michiganders is incredibly positive. They thank us for the 
systems that we have deployed. And we have not come across any 
of those kinds of issues to do with confusion about the 
technology.
    With connected vehicles, there is a lot going on in the 
background, but in the foreground, relatively little because 
these safety problems only occur infrequently.
    The Chairman. Well, that is an extraordinary statement, and 
I have to accept it listening to it from you. But any comments 
further?
    Mr. Bainwol. Mr. Chairman, I have a confession to make, 
too.
    [Laughter.]
    Mr. Bainwol. I cannot operate my TV very well, and my kids 
make fun of me. But when I get in the car, I found that the 
driver-assist technologies are really intuitive, and I think 
that is the trick.
    One of the reasons why Apple is so successful is that 
everything is very intuitive. And when you get in the car in 
today's world, even the guy who cannot operate the TV and 
program it to record a show later on can get in the car, drive 
it, and benefit from driver assist because it really is 
incredibly simple, and it basically does it for you. So if I am 
driving down the highway--and this happens every morning--if I 
put my blinker on to go to the left, my blind spot warning will 
notify me and just chimes. It is there for me, and it says 
there is something in the way, do not go. And I do not have to 
do anything. I just know it.
    If I am going too fast it will alert me that the distance 
between the car and my car--the car in front of me and my car 
is too close for the speed I am going, and it will chime, and 
it basically says wake up and be careful. If I set it on 
adaptive cruise control, it manages that distance precisely.
    So that is the trick. The engineering function and 
challenge is to make it intuitive. People ought to be 
responsible and read the manuals, but when they do not, the 
system should work. And, in fact, these technologies are doing 
that.
    The Chairman. You referred to the technology, which means 
the ability to drive the car if you slip over into another lane 
to be forewarned about that. And I look forward to that very, 
very much. What about that part which is entertainment?
    Mr. Bainwol. The information in the car has an upside and a 
downside. The upside ultimately plays out in the context of 
connectivity and big data warning the car and all the car's 
systems that there is a potential challenge. The challenge with 
information is managing it in the car. And the discussion I 
thought with Administrator Strickland was very instructive, but 
I think it missed a bit of the point, if I can take a minute 
here.
    There are 5.5 million crashes in this country pretty much 
every year. Seventeen percent of those are distraction related. 
That is about a million of those. Two percent of those happen 
as a consequence of using the internal built-in integrated 
system of the car. That is 2 percent of the five and a half 
million crashes. I am sorry, 2 percent of the million.
    Ninety-eight percent are a function of distraction from 
some other cause. The guidelines that NHTSA issued deal with 
the 2-percent, but do not touch the 98 percent. So I think what 
the administrator did today was really important in talking 
about the stakeholder briefing, the stakeholder's meeting, 
where he would bring together or propose bringing together 
manufacturers, software folks, OEMs, social media companies, to 
deal with the issue of how you manage information in the car, 
because the guidelines deal with two percent, not 98 percent. 
And if we are serious about dealing with distraction in this 
country, we have got to focus where the real battle lies.
    The Chairman. I totally agree. Dr. Lee?
    Dr. Lee. Yes. I would like to go back to your original 
question and take a bit of a different perspective than some of 
the optimistic panelists here.
    I think your experience is more common than not. I think 
there is great potential for confusion with these new systems. 
I saw an article just the other day discussing a new vehicle 
that came out and had a larger expanded glove box the author is 
arguing to accommodate the user's manual that was so large.
    These cars are incredibly complicated, and there is some 
good data that suggests that drivers do not always understand 
what these systems do--adaptive cruise control, for example. 
People think it has capabilities that it may not actually have.
    Another example, I think of that, goes back to my towel 
dispenser. Such a simple thing. You put a little computer 
behind it, and now it becomes mysterious. And we have got a car 
with 70 to 100 interconnected computers. That is incredibly 
complicated and, in some cases, quite mysterious. For my 
vehicle, for example, there are 165 different parameters that I 
can adjust, all keyed to my key fob, so I get into the car, and 
the car is a different care for me. My wife gets in, and 165 
parameters change, and it is a different car for her. What 
happens if I grab her key fob? Now, I am driving her car, which 
might be quite different than my car. Those sorts of 
confusions, I think, are new and did not exist before the car 
became a computer.
    One more example. Going back to the confusion with the on/
off switch. In the past, starting your car, stopping your car, 
you did it with a key. You turned the key off and pulled it 
out. You could not pull it out before the car was turned off. 
With these key fobs, you can take your key fob, get out of the 
car, close the door, walk away, and it is still running. And 
this has actually happened, and poisoned with carbon monoxide 
the occupants of the house after they left the car in the 
garage running.
    The Chairman. Interesting.
    Dr. Lee. So I think there is confusion. There is new 
potential for error. I do not want to be too negative because I 
think there is huge potential for enhanced safety, but there is 
a negative side, and we have to acknowledge that.
    The Chairman. I will take both of your answers, but first I 
want to ask another question. I am not sure to which extent--
well, my final question is going to be, what do you think the 
role of NHTSA ought to be. I want each of you to answer that.
    But I am not sure of the swiftness of the younger 
generation, whatever that means, declining to buy automobiles 
because of the cost, and the economy, and efficiencies. You 
know, driving in Washington almost any time of day makes you 
want to take Amtrak right down 16th Street----
    [Laughter.]
    The Chairman.--and just bowl over everything in sight. I 
mean, it is so frustrating. And now--and then that makes sense 
because then you have to get big buses because you can put a 
lot more people on big buses and, therefore, take a lot of cars 
off the road. But those buses cannot make turns without holding 
up traffic for 10 or 15 minutes as they try to wiggle a turn. 
In other words, it is all very, very complicated.
    America is in love with automobiles. That will never cease. 
I am in love with automobiles. That will never cease. However, 
I do not want to die. I am not technologically gifted, as the 
staff behind me can very well tell you. But I am very serious 
about my work, and that is why I come back to the mission of 
NHTSA, that this hearing is one about what the car of the 
future is going to be like. And actually I get the impression 
from several of you that the car that is coming about is not 
going to come about for another maybe five or 10 years, that we 
are not talking quite as quickly as we think we are, but I am 
not sure that is correct.
    So the role of plain safety of when you put your hands on a 
steering wheel and it reads your blood alcohol content, the 
saving of--I come from a coal state, but, you know, so what? I 
mean, I think that it is very important to really crack down on 
carbon monoxide, and I do not think this country will survive 
unless we find a way to take 90 percent of the carbon dioxide 
out of coal, which we have found, but declined to use or fund. 
So those are problems.
    So to me, basic safety is important. I love--one of the 
reasons I really like my new car--it is 3 years old--is because 
it is big, and it is really fun, OK? But when I get down to it, 
the--what I really want to do is just drive, and I want to 
listen to my music. I mean, one, it calms me down when I go to 
work, and it calms me down when I come back from work. And I 
like driving. I like driving a lot. So I am not really into the 
gadgets, but then again, I am of another generation.
    So let me just simply say, what do you think the role of 
NHTSA ought to be? Please.
    Mr. Owens. That is the $64,000 question, right? I mean, 
that is what we are talking about. So, you know, the industry--
the automobile manufacturers and suppliers, we are going to 
work very hard to take what is already the most complicated 
piece of electronics you own--your car--and work to make it 
simpler, work to make it more intuitive, work to make it more 
seamless.
    But just as you have your desires, the 25-year-olds and 
below have their desires, and they want to interface with that 
vehicle in an entirely different way. And yet the product has 
to service all of those demographics, and that really is our 
challenge--to provide the technology that is less distracting, 
that keeps the driver in the loop, and keeps the driver safer 
tomorrow than he or she is today.
    There is a lot of media coverage about autonomous vehicles 
today and driverless vehicles, and I think that may happen at 
some point in the far future. But for a lot less money and a 
lot quicker application--and I am not talking 10 years. Active 
safety technology can be applied today and have significant 
benefit to the statistics of both accidents and fatalities in 
the United States. The technology is mature.
    I think NHTSA would recognize it as mature enough to 
consider that, and I really do think letting the market work 
here, no mandate required, no regulation required, just let 
the--let it be visible to the consumers now, immediately, and 
you will see the market forces start to self-select because 
safety does sell.
    We have a lot of other things to work on. There is no doubt 
about it. And we are dedicated to solving those problems. But 
we can get a lot of the benefit of an autonomous vehicle today 
in a semi-autonomous mode in a couple of years if we have the 
fortitude to stay with it.
    The Chairman. Would you--if it were a financial body, would 
you have applied NHTSA to Wall Street in recent years?
    Mr. Owens. I am sorry. Could you repeat?
    The Chairman. Would you apply--if NHTSA were a financial 
body to Wall Street in recent years? In other words, the idea 
to let the market work, and, oh, yes, you are going to get all 
those hundreds of billions of dollars, and you can spend it on 
mortgages and low income housing or whatever, and none of it 
got--and not one dime got spent. I mean, people just line their 
pockets, and making no comparison between that and automobiles.
    But, you know, I just--I worry about that. I worry about 
safety. I do not want people to die. We have really twisted 
roads in West Virginia, and actually so do a lot of--most rural 
states. Interstates are more rare. So I am just trying to find 
something besides let the market work. When I hear ``let the 
market work,'' I start thinking about coal mines and, you know, 
all kinds of things, and I get very uncomfortable.
    Mr. Bainwol. Can I add to this? We are saying let the 
market work in one sense, but it is different than the Wall 
Street context.
    The Chairman. Good.
    Mr. Bainwol. What we are really saying here is the 
marketplace for all sorts of reasons, for reasons of commitment 
to safety, for reasons that safety sells, for reasons of 
liability, is producing today driver assist technologies that 
will deal with the accident rate in West Virginia. We are on 
the precipice of a golden age in safety. The news is good news. 
The longer term question is when we get to the connected car.
    Now, the role of NHTSA, the role of NHTSA is to do exactly 
what they do. It is a relatively small agency of really 
grounded, committed public servants who focus through data on 
safety issues. We work very closely with them and in an 
appropriate way. There is no hide the ball. We share 
technologies. We do many studies together.
    The exercise on the connected car is a joint effort of 
suppliers, OEMs, and NHTSA. That is a very proper role about 
defining a brighter future for safety. Same thing with that in 
terms of drunk driving.
    So NHTSA engages with the industry properly. We engage with 
NHTSA. But NHTSA also has regulatory authority and it has a 
hammer, which has been used. And at times that is appropriate. 
So we have the right relationship. It is, we hope, data driven. 
And I think we are on course to a great outcome. This is a good 
news hearing. The future promises really massive gains in 
safety if we make the right public policy choices, especially 
on the spectrum issue.
    The Chairman. Yes, which actually brings us--in other 
words, we have congressional oversight. I am also on the 
Intelligence Committee, and we are meant to have congressional 
oversight of intelligence. And let me tell you, that has been 
about the most impossible job because government does not want 
to turn anything over. They all want to protect themselves. And 
I do not think car companies are necessarily that way, and, in 
fact, when we had the so-called sudden unintended stop crisis, 
you remember, with Toyota and other companies, the work was 
quite good I thought. The result was good. People changed 
habits. The culture of safety of a different sort was 
developed. And, you know, I not unoptimistic about the 
automobile industry. I just want to be certain. And I have kept 
you all too long.
    Dr. Lee, you look like you need to say something.
    [Laughter.]
    Dr. Lee. I do not know whether I need to say it, but I 
will. I come from a different perspective, so weigh that 
accordingly. And you may want to discount it entirely.
    I think one of the things that we see in the automotive 
industry is a dramatic change, a really dramatic change. 
Because computers underlie things, change is occurring at an 
exponential rate. And we project--as people we project change 
linearly, so we are thinking in 10 years these smart cars will 
be 10 times better, maybe 15 years 10 times better. But, in 
fact, in 15 years, they will be 1,000 times better, dramatic, 
qualitatively different than we might expect.
    So I think change is happening extremely quickly, and this 
is a very different environment than NHTSA grew up in where 
cars turned over every 6 years. Now you are working a computer 
industry where models are turning over every six months, so 10 
times difference.
    I think the vehicle and the car and how people treat cars 
is also changing dramatically. I think the generation that grew 
up with Bruce Springsteen, and the romance of the road, and 
using the cars as a way to get away from the parents, that is 
changing. Kids get away from their parents with their phones, 
with texting. Cars are a distraction to them. And so I think 
they may be shifting their patterns in a way that is also 
surprising.
    So the role of NHTSA in this new environment--I think there 
is an important role, and I hesitate to offer any strong 
recommendation. But from the report regarding the Toyota 
unintended acceleration events that occurred years ago, from 
the National Academies, one of the things that came out of that 
I thought was really interesting, and that is that the vehicle 
environment is changing qualitatively, as I mentioned, and, 
therefore, the regulatory environment may need to change 
accordingly.
    And they suggested looking at other agencies, like the FAA, 
or the FDA, as models for how NHTSA may want to adapt to this 
new environment. So I think there may need to be a qualitative 
shift in the nature of what NHTSA does, its business.
    And I think one sort of concrete example that came out of 
that that I thought was very good, and that is in medical 
products. The FDA has a system that provides feedback when 
there is an unintended event, a misuse, or an inadvertent use, 
or a malfunction in a medical product gets fed back to the 
agency and then to the industry to enhance reliability. And I 
think that that sort of mechanism is necessary.
    So in the future, when cars become smarter, more capable, 
they will do things for the driver. They will surprise the 
driver. And increasingly, drivers will blame the car for doing 
something crazy. And that blame, as we saw with the Toyota 
events, is difficult for NHTSA and the industry to understand.
    There was a long period of failing to understand what was 
underlying those events. That is injurious to the government, 
it is injurious to the manufacturers, and it is worrying to the 
consumers. And so I think what we need is a better information 
infrastructure to help NHTSA identify and understand the 
inevitable failures that will come out of these computerized 
vehicles.
    The Chairman. All right. I want to end the hearing. If you 
have got something to say, it has got to be so incredibly good.
    [Laughter.]
    Dr. Sweatman. No problem.
    The Chairman. All right.
    [Laughter.]
    Dr. Sweatman. I think NHTSA has an incredibly important 
role because transportation has become a team sport. So there 
is a convening as well as a regulatory role. And one of the 
very important issues that is going to need convening is 
liability and responsibility for crashes because we are going 
to continue to have crashes for a very long time.
    Is that shifting in some way? We have always said that is 
the driver's responsibility. Is there some shift there? So I 
think that kind of question is something that NHTSA really 
needs to convene and make some policy guidance on as we move 
forward because that will become a very important issue.
    I hope I lived up to your expectation.
    [Laughter.]
    The Chairman. You did. You did, in fact. In fact, you all 
did. And I do not see a whole lot of people sitting at this 
dais, but that does not matter. It is a hearing. Everything is 
recorded and written down, and I think some very interesting 
and good ideas came out of all of this. And you were all very 
good witnesses.
    So, having said that, I do not like to bang a gavel. It 
looks superficial to me. So I will just declare the hearing 
adjourned. And thank you.
    Mr. Bainwol. Thank you.
    Dr. Lee. Thank you.
    [Whereupon, at 4:26 p.m., the hearing was adjourned.]
                            A P P E N D I X

            Prepared Statement of Hon. Frank R. Lautenberg, 
                      U.S. Senator from New Jersey
    Mr. Chairman,

    As a long-time leader in the fight to save lives on our nation's 
roads, I believe it is critical that we utilize technologies to make 
sure that Americans can safely get where they need to go. Road deaths 
were up more than five percent in 2012, and drunk driving in America 
takes a life every 53 minutes. We must use the technologies available 
now that we know save lives, such as ignition interlocks to prevent 
deaths from drunk driving. We shouldn't wait to deploy them. And, as we 
look to the future, there are a number of exciting, new technologies 
being developed that have the potential to transform the way we drive 
and make our roads much safer.
    Drunk driving continues to take thousands of American lives every 
year--9,878 in 2011 to be exact. Nearly a third of all vehicle deaths 
involve alcohol. And studies show that 50 to 75 percent of drunk 
drivers whose licenses are suspended continue to get behind the wheel. 
The bottom line is there is a clear need to do more to stop drunk 
driving, especially to keep repeat offenders off the road, and we have 
the technology available to do just that.
    Ignition interlock systems can prevent drunk driving and save 
lives, yet they are used sparingly. That's why I plan on re-introducing 
my common-sense bill to require convicted drunk drivers to install 
ignition interlocks in their cars. These devices do not let a vehicle 
start if the driver is drunk--and they are proven to work. In fact, a 
Centers for Disease Control and Prevention study found that re-arrests 
of convicted drunk drivers dropped 67 percent when ignition interlocks 
were installed in their cars. It's no wonder then that the National 
Transportation Safety Board has recommended just what my legislation 
proposes. We should move on my bill immediately so we can save the 
lives of more drivers, passengers, and pedestrians.
    There are other technological innovations and resources currently 
available that can increase safety on the roads. Speed limiters can 
make our highways safer by keeping trucks at safe speeds. As we know, 
driving slower can help motorists avoid collisions. And when paired 
with Electronic On-Board Recorders, which I mandated for all commercial 
truck drivers in the 2012 surface transportation law, we can ensure 
that truck drivers who are fresh and rested don't then drive at 
dangerously faster speeds to cover more miles within their time limit. 
And lastly, helmets--which are simple but important safety tools--can 
help halt skyrocketing motorcycle fatality rates. In 2012, motorcycle 
fatality rates increased by 14.7 percent--the largest increase ever. 
Head injury is the leading cause of death in motorcycle crashes--and 
helmets don't need to be a fancy, expensive new technology to be an 
effective safety tool. So we must move forward on motorcycle helmet 
requirements. It would be a simple, reasonable step that would slow the 
repeated and growing number of tragedies on our roadways.
    Technological achievements like ignition interlocks and speed 
limiters show us why it is critical for us to continue to look for new 
technologies that have the potential to further improve safety in the 
future. New driver assist systems are being developed, for example, 
that can automatically brake a car and control steering to avoid 
collisions--saving drivers from serious accidents and the more minor, 
but often expensive, fender bender. Driverless cars--which I had the 
opportunity to experience last year--could reduce human error by 
monitoring and automatically responding to roadway conditions, a change 
with the potential to save thousands of lives. And vehicle-to-vehicle 
communications are being tested that would allow cars to talk to each 
other and coordinate movements that could, if deployed system-wide, 
potentially reduce up to 80 percent of crashes involving non-impaired 
drivers.
    The technologies of tomorrow hold the potential of revolutionizing 
driving to make today's roadway catastrophes a thing of the past. And 
if we effectively deploy the tools we have now, we won't have to wait 
to realize safety gains.
    I thank the Chairman for calling this hearing to offer a glimpse of 
how technological innovations can create safer roadways in the future. 
And I thank our witnesses for offering their expertise on these 
incredible advances.
                                 ______
                                 
     Prepared Statement of Isaac Litman, CEO, Mobileye Aftermarket
    Chairman Rockefeller and Senator Thune, and all the members of this 
Committee, thank you for this opportunity.
    I don't have to tell about the 5 million yearly vehicle crashes in 
the U.S. with annual deaths of well over 30,000--34,000 in 2012--and 
with over 2 million injured persons a year. And that 20 percent of the 
traffic injuries involved reports of distracted driving.
    A growing concern is the rising numbers of pedestrians and bicycle 
riders killed or injured. Rear-end collisions account for just under 
half of all crashes and unintended lane departure is the major cause of 
fatal crashes. Among all fatal crashes in 2009, 16,265 were caused by 
lane departure. The National Highway Transportation Safety 
Administration notes that the Human Factor is the cause of over 90 
percent of crashes.
    The National Transportation Safety Board's ``Ten Most Wanted'' 
solutions for 2013 included collision avoidance technologies for lane 
departure and forward collisions, and addressing distracted driving 
issues. The Federal Motor Carrier Safety Administration has similar 
concerns--including bus accidents with pedestrians; a growing problem 
in urban areas. It noted in its recent report on ``Benefit-Cost 
Analysis of Onboard Safety Systems'' the benefits of collision 
avoidance technology on buses.
    A growing proportion of new cars have electronics and computer 
systems which may permit drivers with various options to avoid 
accidents.
    My company, Mobileye, with offices in New York, makes inexpensive, 
optical collision avoidance devices which have been adopted worldwide 
by vehicle manufacturers such as GM, Ford, Volvo, BMW, Honda, Hyundai, 
Nissan and many others. Other companies offer similar solutions based 
on various other technologies, so there are options for consumers and 
the Federal Government.
    However, most of these options are only for consumers who buy new 
vehicles. According to the IIHS, with the normal ``turn-over'' rate, it 
will take 30 years to have these technologies in widespread use in the 
U.S. Mobileye has developed additional, inexpensive solutions that can 
be retrofitted into existing vehicles. The Mobileye Aftermarket 
solution is the same as the solution used by the OEMs but with the 
ability to retrofit. Mobileye Aftermarket meets the standards and 
qualifications set by NHTSA for these technologies: NHTSA Lane 
Departure Warning standard and NHTSA Forward Collision Warning 
Standard. Unlike airbags or ESC this Collision Avoidance System can be 
retrofitted on any car, truck, or bus; meaning that implementation of 
these technologies in the U.S. can be much faster; as it prevents many 
injuries and avoidable deaths.
    The Mobileye vision-based collision avoidance system has multiple 
features: pedestrian collision warning, bicycles collision warning, 
unintended lane departure warning, vehicle collision warning, headway 
monitoring, following time violation, speed limit indication (the 
ability to read speed-limit signs and warn the driver of excessive 
speeding), and intelligent high-beam control. This single device is 
also very easy and quick to install in the aftermarket in cars, trucks, 
and buses.
    Our technology, and the technology of other companies, has been 
tested and proven effective. One Mobileye-equipped U.S. fleet opted to 
share their data and reported a nearly 40 percent reduction in their 
incurred-incident cost per mile and an impressive 25 percent reduction 
in accidents since adopting Mobileye solutions, with well over one 
billion miles driven with the systems to date.
    Imagine eliminating 25 to 40 percent of all vehicles accidents with 
inexpensive, aftermarket technology. It not only reduces deaths, 
injuries, and the use of judicial and police resources; it will 
eliminate thousands of ``routine'' crashes that create traffic jams.
    So for $900 or so, trucks, buses, and cars can be equipped with 
devices that prevent accidents with pedestrians, bike riders, and other 
vehicles, and stationary objects. Affordability and ease of 
installation in the aftermarket are both very important since many 
collision avoidance systems can cost over $10,000 and Americans only 
replace about 6 percent of our cars each year (the average car is over 
10 years old). Thus, affordability and ease of installation is very 
important to the typical American family. One study estimates that the 
total annual cost of road crashes in the U.S. is over $200 billion.
    Why is this technology important to the Federal Government and the 
Congress? Think of the massive savings to federal fleets of vehicles 
because, unlike American businesses and families, the Federal 
Government is not allowed to insure their vehicles. Depending on 
liability, taxpayers pay a lot of the costs of those medical injuries, 
deaths, and lost wages, and the damage to, or destruction of, federal 
vehicles.
    Fortunately, the Comptroller General of the United States has been 
asked in a bipartisan request by Members of Congress to determine the 
savings to the Federal Government by installing these types of devices 
on federal vehicles. I assure you, those savings will be enormous. The 
Federal Government could save billions of dollars by simply having 
inexpensive, aftermarket collision avoidance devices installed on 10 to 
20 percent of the federal vehicles, a year.
    This is about more than saving billions of dollars for the Federal 
Government; collision avoidance systems save lives, prevent 
debilitating injuries, save families, and can reduce the number of 
incidents police and other emergency response teams have to address.
    Mr. Chairman, thank you for this opportunity to testify.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                      to Hon. David L. Strickland
    Question 1. As the vehicle becomes more reliant on electronics and 
electronic safety systems, NHTSA must be able to address the changing 
safety landscape. Moving Ahead for Progress in the 21st Century (MAP-
21), which was enacted into law last year, directed NHTSA to establish 
a Council on Vehicle Electronics and Emerging Technologies and to 
conduct research into electronic safety systems. In response to my 
questions on this topic at the hearing, you stated that NHTSA has a 
solid game plan for a newly established Electronics Research Office, 
and you offered to provide additional detail for the record.
    Question 1a. Please detail how NHTSA will fulfill the requirements 
of MAP-21 in this area, and how it is addressing the new safety 
challenges that will arise from the growth of vehicle electronics.
    Answer. Increased use of electronic controls and connectivity is 
enhancing transportation safety and efficiency. However, these new 
technologies may result in new failure mechanisms and cyber 
vulnerabilities. NHTSA recognizes these new challenges and is 
addressing them through research, rulemaking, enforcement and data 
collection and analysis.
    In the area of research, NHTSA created the Electronic Systems 
Safety Research Division in 2011 to address potential safety risks. We 
believe electronic control systems in vehicles raise concerns for 
driver safety in the areas of system reliability and cybersecurity and 
is conducting new research in these areas. The programs are closely 
related and intertwined. The agency believes that a motor vehicle 
cannot be safe if it is not secure. The overarching goal of both 
programs is to inform potential regulatory options.
    The goal of the electronics reliability research is to enhance the 
functional safety of emerging safety-critical electronic control 
systems. In the near term, the reliability research program will seek 
to:

  (1)  Define and prioritize automotive electronic control system 
        safety issues;

  (2)  Assess functional safety requirements;

  (3)  Evaluate the use of prognostics and diagnostics; and

  (4)  Identify fail-safe/fail operational mechanisms.

    The goal of the cybersecurity research is to harden motor vehicles 
against potential cyber threats and vulnerabilities. The cybersecurity 
program seeks to:

  (1)  Identify the potential cyber threats and vulnerabilities;

  (2)  Conduct a security assessment;

  (3)  Develop a threat model and matrix; and

  (4)  Identify and evaluate potential solutions and countermeasures.

    To coordinate and manage agency activities in the area of vehicle 
electronics, the agency has established, as required by MAP-21, a 
Council on Vehicle Electronics, Vehicle Software and Emerging 
Technologies. The Council meets on a bi-monthly basis to discuss and 
share information. The mission of the group is to broaden, leverage and 
expand the agency's expertise in motor vehicle electronics and to 
continue ensuring that these technologies enhance vehicle safety. 
Currently the Council is assessing the need for safety standards for 
vehicle electronics by overseeing a data analysis of the types and 
frequency of electronic control system failures. The results will be a 
key input to the report to Congress on the need for safety standards in 
the electronics area. We expect to deliver this report in 2014.
    The Council has representatives from all of our vehicle safety 
offices including research, rulemaking, enforcement and data collection 
and analysis. Our Office of Enforcement continues to provide their 
technical expertise in the areas of electronics based upon their 
experience with compliance testing and defects analysis. Our Office of 
Rulemaking is evaluating existing safety standards and is ready to act 
when regulatory action is needed. The National Center for Statistics 
and Analysis is considering how to meet new data needs related to crash 
avoidance technologies and electronic control systems through its data 
modernization project. At the same time, all our vehicle safety offices 
are working towards strengthening their expertise in this important 
area.

    Question 2. Since the enactment of the Highway Safety Act, the 
vehicle has become demonstrably safer, with both the number of deaths 
per year decreasing as well as the rate of deaths per hundred million 
vehicle miles traveled. Please provide some context to the role that 
NHTSA and its predecessor, the Transportation Safety Bureau, played in 
decreasing highway deaths.
    Question 2a. Please describe the downward trend in highway deaths, 
the role of key safety mandates in accelerating this trend, and an 
approximation of the number of lives saved by each of these key 
mandates.
    Answer. In 1966, 39,131 occupants of passenger vehicles (cars, 
pickup trucks, SUVs, and vans) died in crashes. That number increased 
to an all-time high of 42,117 in 1969. The number of passenger vehicle 
occupant fatalities dropped to 32,843 in 2002; and that number dropped 
to 21,253 in 2011.
    In 1966, passenger vehicles were driven 856 billion miles; that 
number increased to 2,625 billion miles in 2002 and 2,646 billion miles 
in 2011.
    The occupant fatality rate per 100 million vehicle miles of travel 
was 4.57 in 1966, 1.25 in 2002, and 0.80 in 2011. The fatality rate had 
dropped by 73 percent from 1966 to 2002 and by 82 percent from 1966 to 
2011.
    The Federal Motor Vehicle Safety Standards (FMVSS), mandated by the 
National Traffic and Motor Vehicle Safety Act of 1966, accounted for a 
large portion of the fatality reduction. A NHTSA evaluation published 
in 2004 estimated that the FMVSS saved 22,999 lives in 2002; an 
additional 1,562 were saved by voluntary safety improvements to the 
vehicles (not required by a FMVSS or implemented before the effective 
date of a FMVSS) This total of 24,561 lives saved corresponds to a 42 
percent reduction in occupant fatality risk per mile of travel from 
1966 to 2002 (a large portion of the overall 73 percent reduction). 
NHTSA is currently updating the evaluation through model year 2011.
    The effectiveness of certain motor vehicle safety equipment 
addressed by FMVSS, such as seat belts, child restraint systems and 
motorcycle helmets, is dependent on their use by motorists. The 
following table illustrates the effectiveness of these devices at use 
rates achieved in recent years alongside estimates of lives saved by 
other safety advances.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    NHTSA's behavioral grant programs have also been a major 
contributor to improved national highway safety performance. A review 
of NHTSA grant programs conducted in 1998 found that ``the Federal 
grant program has achieved the intent of Congress when it passed the 
Highway Safety Act of 1966. Federal grants which represent less than 
two percent of the funds expended on highway safety programs have led 
the states in addressing the most important safety issues and leveraged 
funds to provide many services to a wide public.'' ``Highway Safety 
Assessment: A summary of Findings in Ten States'' (DOT HS 808 796).

    Question 3. Administrator Strickland, as you know, I am terribly 
concerned about the risks of distracted driving. I am becoming 
increasingly worried about these systems built right into the car. The 
touchscreens offer to keep drivers ``connected'' but are distracting to 
drivers who should be focused on the task at hand. At the hearing, we 
discussed NHTSA's new guidelines to limit driver distraction from these 
systems.

    Question 3a. Auto companies tell us that if the built-in systems 
are too restricted, drivers will just bypass those systems and pick up 
their phones. Do you agree?
    Answer. The NHTSA Phase 1 Distraction Guidelines, published in 
April 2013, apply to original in-vehicle electronic device interfaces. 
The Guidelines recommend that visual-manual activities (i.e., those 
activities involving looking at a device interface and manipulating it 
with one's hand) that are not suitable for performance while driving 
should be locked out.
    We are aware that some have expressed the opinion that by having 
our Phase 1 Guidelines only cover built-in devices, consumers would 
shift to the less-restricted (and possibly less safe) hand-held 
devices. We believe this opinion is based on the assumption that safer 
in-vehicle systems will not be sufficiently functional to attract 
drivers away from use of hand-held devices. On the contrary, vehicle 
manufacturers are rapidly expanding the voice-command and hands-free, 
eyes-free capabilities of their in-vehicle systems. These systems are 
engineered to encourage hand-held users to pair those devices with the 
vehicles' displays and controls. NHTSA sees no evidence that drivers 
would un-pair the devices from the vehicle system simply to obtain 
marginally increased functionality in very limited situations. As a 
result, the agency believes that there would be little incentive for a 
driver to revert to the hand-held device simply to perform a locked-out 
function such as texting. Therefore, should manufacturers choose to 
conform to the NHTSA Phase 1 Guidelines, the agency believes the more 
likely outcome is that drivers will pair their hand-held devices to the 
vehicle systems during all driving situations with a net benefit for 
safety.
    We are currently developing our Phase 2 Distraction Guidelines, 
which will address visual-manual distractions for hand-held portable 
and aftermarket devices, and will soon begin discussions with the 
various portable and aftermarket device stakeholder groups and 
organizations. We are eager for their input as we develop guidelines 
for hand-held devices.

    Question 3b. How can NHTSA best address distracted driving, and do 
you have all of the authority you need to do this vital work?
    Answer. In April 2010, NHTSA published a ``Driver Distraction 
Program Plan'' that serves as the Department of Transportation's 
guiding framework in its efforts to eliminate crashes related to driver 
distraction. The plan lays out strategies for better understanding the 
distracted driving problem, minimizing the distraction potential from 
in-vehicle and portable devices, avoiding crashes that might be caused 
by distraction and improving driver behavior. Building upon this plan, 
in June 2012, NHTSA released a ``Blueprint for Ending Distracted 
Driving'' that describes the steps that NHTSA and the rest of the 
Department have taken to address distracted driving and the future 
steps we intend to take to eliminate crashes attributable to driver 
distraction.
    NHTSA's efforts include raising public awareness, developing public 
policies on distraction, and conducting research and development. 
Regarding NHTSA's public policy work, the agency has engaged in efforts 
to minimize the potential for distraction from devices through Driver 
Distraction Guidelines. The Phase 1 Guidelines, published in April 
2013, apply to original in-vehicle device interfaces and recommend that 
visual-manual activities not suitable for performance while driving 
should be locked out. In the area of research and development, NHTSA 
has conducted research analyzing driver distraction and its effect on 
driving performance. For example, the agency recently published a 
report analyzing data from a naturalistic driving study and examining 
the differences between hand-held, hands-free and integrated hands-free 
cell phone use.
    NHTSA is currently developing its Phase 2 Guidelines, which will 
address visual-manual interfaces for hand-held portable devices and 
aftermarket devices not originally installed in vehicles, including 
aftermarket GPS navigation systems, smart phones, electronic tablets 
and pads, and other mobile communications devices. NHTSA also continues 
to conduct research related to driver distraction, including the effect 
of distraction on driving performance and whether advanced crash 
warning and driver monitoring technologies could help address crashes 
related to distraction.
    In addition, the agency supports the enactment and enforcement of 
distracted driving laws. In the area of State enforcement, NHTSA is 
currently developing high-visibility enforcement programs for 
distracted driving laws. In 2011, the agency initiated pilot programs 
in Hartford, Connecticut, and Syracuse, New York, that promoted the 
message, ``Phone in One Hand, Ticket in the Other.'' These programs 
showed that increased law enforcement efforts combined with targeted 
media can lead to decreases in texting and hand-held cell phone use 
while driving. In 2012, the agency expanded the pilot program to 
Delaware and the Sacramento Valley of California. Also in 2012, NHTSA 
announced a new grant program authorized by MAP-21 to provide grants to 
states with conforming laws banning distracted driving.
    Under NHTSA's existing authorities, the agency will address 
distracted driving by continuing to raise public awareness, including 
better educating young drivers, develop public policies on distraction, 
conduct research and development, and support State efforts to enact 
and enforce distracted driving laws.

    Question 4. The vision of cars that drive themselves--safely 
maneuvering down the road while occupants busy themselves with other 
tasks--has certainly captured the imagination of many people in this 
country. If this vision comes to pass, it certainly will be a long ways 
off. Administrator Strickland, I want to give you the opportunity to 
think creatively about a future in which the driver is no longer 
essential for a vehicle to function.

    Question 4a. How will truly autonomous cars change the American 
relationship to the car? How would auto companies and the government 
need to adjust?
    Answer. Fully automated or self-driving vehicles could drastically 
change how Americans relate to their vehicles. A vehicle with full 
self-driving automation would need to be designed to perform all 
safety-critical driving functions and monitor roadway conditions for an 
entire trip. Such a design anticipates that the driver will provide 
destination or navigation input but is not expected to be available for 
control at any time during the trip. This concept could include both 
occupied and unoccupied vehicles. By design, safe operation rests 
solely on the automated vehicle system.
    Motor vehicle automation can potentially improve highway safety by 
providing early detection of unsafe conditions, initiating precise 
vehicle control during normal driving and maintaining appropriate 
driver attention to traffic and roadway conditions. It is likely that 
in the near-term, automation in motor vehicles will involve a driving 
experience that transitions between automatic and manual control of the 
vehicle in complex and rapidly changing traffic conditions.
    At the same time, vehicle manufacturers have begun or have 
announced plans to offer certain types of automated crash avoidance 
safety systems as features on new vehicles. NHTSA has been actively 
involved in researching these advanced technologies, which rely on in-
vehicle sensors and cameras to obtain safety-critical data. For 
example, NHTSA is engaged in research to evaluate the effectiveness of 
currently available automated braking systems in avoiding or mitigating 
crashes. Also, NHTSA and other Department of Transportation agencies, 
in conjunction with the auto industry, have been conducting in-depth 
research and demonstration of vehicle-to-vehicle (V2V) communications 
technology, which offers substantial crash avoidance possibilities, 
particularly when linked to active in-vehicle crash avoidance systems. 
As part of this research, the agency is developing test procedures to 
evaluate these technologies and methods to assess their safety 
benefits. The results of this research may suggest novel techniques 
that differ from our traditional procedures and methodologies.
    NHTSA believes that automation runs along a continuum, from 
vehicles with no active control systems to fully automated self-driving 
vehicles. While NHTSA is conducting research along the entire 
continuum, our initial emphasis is on determining whether crash 
avoidance and mitigation technologies that are currently or imminently 
available could provide safety benefits. For example, we expect to make 
agency decisions on automatic braking systems and V2V technology later 
this year. Because these same technologies may be the building blocks 
for what may one day lead to a self-driving vehicle, we have also begun 
research focused on safety principles that may apply to higher levels 
of automation. NHTSA's research approach will define the requirements 
for automation as a vehicle safety subsystem, which promotes safety by 
continuously optimizing vehicle and driver responses.

    Question 4b. Are there changes that we need to start making in the 
near term to allow for progress in this area?
    Answer. NHTSA recently issued a Preliminary Statement of Policy 
Concerning Automated Vehicles. We issued this statement to clarify 
relevant concepts, outline NHTSA's planned research on vehicle 
automation and help states implement this technology safely so that its 
full benefits can be realized. Articulating our views on these safety 
issues now is a very important element of charting that course, as 
confusion or disarray on the safety issues would be a significant 
impediment to the development of these technologies. Moreover, as 
several states step forward to become test beds for some of the most 
innovative automotive technologies, they, as well as companies seeking 
to develop the technologies, have asked NHTSA to provide 
recommendations on how to safely conduct such testing on public 
highways. Accordingly, while the larger dialogue with the many 
stakeholders progresses and takes further shape, the statement 
presented our views on the major safety issues related to the 
development of vehicle automation.
    While NHTSA does not see any regulatory impediments to the 
introduction of automated vehicles at this time, we have initiated 
automated vehicle research to ensure that as automation is introduced 
into the marketplace, American drivers, passengers, and all those who 
share the roadways with them will remain safe. In the near term, our 
research program will focus on the following activities:

  (1)  Investigating human factor principles that are supportive of the 
        driver and would help ensure a safe transition between an 
        automated driving mode and manual driving;

  (2)  Identifying key use cases that automated vehicles will need to 
        address and developing performance requirements and test 
        procedures; and

  (3)  Performing research on the underlying electronic control systems 
        to develop functional safety requirements and potential 
        reliability requirements in the areas of diagnostics, 
        prognostics, and failure response (fail safe) mechanisms and to 
        support requirements in the area of vehicle cybersecurity.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                        Hon. David L. Strickland
    Question 1. In 2011, 9,878 people were killed in alcohol-impaired 
driving crashes, accounting for nearly one-third of all traffic-related 
deaths in the U.S. The Centers for Disease Control and Prevention found 
that re-arrest rates for drunk driving decreased by 67 percent for 
convicted drivers with ignition interlocks as compared to those who 
just had their license suspended. The National Transportation Safety 
Board released a recommendation on May 14 that ignition interlocks be 
required for all first time offenders, and I plan to reintroduce 
legislation that would do just that.

    Question 1a. What would the safety benefits be of requiring 
ignition interlocks for all first time drunk drivers?
    Answer. Ignition interlocks have been shown to be highly effective 
in preventing repeat drunk driving offenses when installed on vehicles 
driven by drunk driving offenders. This preventative effect has been 
demonstrated for both those who have been convicted for their first 
drunk driving offense and those who have had one or more previous 
offenses. While it is clear that the safety benefit of ignition 
interlocks increases as more offender vehicles are equipped, estimates 
of potential lives saved are dependent on several other factors, such 
as the length of time during which they are installed.

    Question 1b. Should ignition interlocks be mandatory for all 
convicted drunk driving offenders?
    Answer. States can extend the benefits of ignition interlocks by 
requiring their use by first-time offenders as well as repeat 
offenders. MAP-21 includes an incentive grant for states that enforce a 
mandatory alcohol-ignition interlock law for all individuals convicted 
of driving under the influence of alcohol or of driving while 
intoxicated.

    Question 1c. Some opponents of my legislation claim that this would 
place an undue financial burden on states to meet the requirement. What 
are the costs to states for highway crashes related to drunk driving?
    Answer. Preliminary research indicates that crashes involving an 
impaired driver (.08+ BAC) may cost states and localities over $2 
billion annually in medical payouts, insurance administration, 
adjudication, lost revenues, incident management, police, fire 
department, and other crash related costs.

    Question 2. For the first time since 2005, more people died on U.S. 
roads last year than the year before. Total fatalities increased by 
more than five percent in 2012, and motorcycle deaths have increased by 
almost three times that--14.7 percent.

    Question 2a. What is the biggest contributing factor for these 
motorcycle fatalities?
    Answer. A number of factors contribute to changes in the number of 
motorcycle fatalities including the number of vehicle miles travelled 
and the use of helmets that comply with Federal Motor Vehicle Safety 
Standards. Motorcycles continue to increase in popularity. While 
registration information is not yet available for 2012, states report 
that registrations increased more than 5 percent between 2010 and 2011. 
Registrations increased by more than 70 percent between 2001 and 2011.

    Question 2b. What would the safety benefits be of requiring helmets 
for all motorcycle riders?
    Answer. NHTSA estimates that in 2011, 703 additional motorcyclist 
lives could have been saved if all riders had been wearing helmets 
meeting Federal Motor Vehicle Safety Standards.

    Question 2c. Would you support a requirement that all motorcyclists 
wear helmets?
    Answer. NHTSA supports the use of motorcycle helmets by all riders. 
Motorcycle helmet laws covering all riders, often referred to as 
universal helmet laws, are the most effective method of increasing and 
maintaining helmet use and avoiding fatalities and disability due to 
head injuries. Over the past 30 years, research has consistently shown 
the negative effects of weakening or repealing motorcycle helmet use 
laws. The weight of the evidence is that repeal of helmet use laws 
decreases helmet use, and that states that repeal universal helmet use 
laws experience increased fatalities and injuries. Conversely, states 
that have adopted or reenacted universal laws have experienced 
significant increases in helmet use and declines in motorcyclist 
fatalities and injuries.

    Question 2d. In addition to a mandatory helmet law, what other 
steps would help reduce motorcycle fatalities?
    Answer. Increasing helmet use and decreasing impaired riding could 
have substantial effect on reducing motorcycle fatalities. In 2011, 30 
percent of fatally injured motorcycle riders (1,298 riders) had a blood 
alcohol concentration of .08 or greater. This rate is higher than for 
drivers of any other type of vehicle. States can address impaired 
riding with education and law enforcement programs. Other measures that 
can affect motorcycle safety include rider training and ensuring that 
riders have proper license endorsements. Finally, NHTSA is pursuing 
rulemaking to establish an enforcement policy regarding ``novelty'' 
motorcycle helmets, which are noncompliant helmets that provide 
inadequate protection. The rulemaking would also add an appendix to 
FMVSS No. 218 to serve as a guide for motorcyclists and local law 
enforcement personnel in identifying compliant motorcycle helmets.

    Question 3. Speed limiters can make our highways safer by keeping 
trucks at safe speeds; heavy commercial trucks have been equipped with 
speed limiting capabilities since 1992. The Federal Motor Carrier 
Safety [Administration] published a study last year that found a heavy 
truck without an engaged speed limiter is twice as likely to be in a 
highway crash as one that has a speed limiter. NHTSA has been 
considering a rulemaking to require the installation of speed limiting 
devices on heavy trucks since 2011.

    Question 3a. When can we expect to see a final rulemaking?
    Answer. DOT expects to issue a notice of proposed rulemaking by the 
end of this year and will consider public comments as we work towards a 
final rule.

    Question 3b. Will you commit to working with me to ensure that this 
rulemaking is completed in a timely manner?
    Answer. I commit to working toward the completion of this 
rulemaking as expeditiously as possible.

    Question 3c. How do speed limiters and electronic logging devices 
work together to prevent crashes?
    Answer. The two devices work together to improve safety in the 
following way:

  (1)  Speed limiters will slow heavy trucks currently driving at 
        higher speeds; and

  (2)  Electronic logging devices will deter truck drivers from making 
        up the difference in miles traveled at slower speeds by driving 
        extended hours.

    Requiring both devices will increase public safety by limiting the 
speeds of heavy trucks and the likelihood of fatigued drivers operating 
these vehicles on roadways.

    Question 4. Many companies are already investing in advanced 
technologies, such as automatic braking systems.

    Question 4a. Does the agency have adequate staffing and funding to 
ensure these rapidly changing technologies are safe and appropriate?
    Answer. Safe vehicles are a vital component of preventing roadway 
fatalities, and NHTSA has a long history of ensuring that the vehicles 
on our nation's roadways are the safest they can be. NHTSA already has 
substantial and growing expertise in technologies related to advanced 
vehicle automation. However, with new sophisticated electronic control 
systems and alternative fuel systems of varying types emerging in the 
market, we need to expand our ability and capacity to test, monitor and 
trouble-shoot new technologies as expeditiously and efficiently as 
possible. With many new crash avoidance technologies under development, 
expanding our capability to test human interactions with these systems 
is also imperative. We will further explore ways for NHTSA to address 
these new challenges across the spectrum of our vehicle safety program 
responsibilities. The President's FY 2014 budget proposed to undertake 
activities to provide the capability of advanced testing of emergent 
technologies at our Vehicle Research and Test Center and to hire 
additional electronics and electrical engineers.

    Question 5. Approximately every 50 minutes, one life is lost to 
drunk driving. Beginning in 2008, the auto industry entered a five-
year, cooperative program with the National Highway Safety 
Administration (NHTSA) to invest in emerging technologies that would 
stop drivers from operating a vehicle if drunk, such as Driver Alcohol 
Detection System for Safety (DADSS) technology. The 2012 transportation 
reauthorization law, MAP-21, provided funds to NHTSA to continue this 
research.

    Question 5a. What funding levels are needed to adequately support 
this research?
    Answer. The program is currently in the Phase 2 development phase, 
which will result in research prototypes in 2014. While impressive 
progress has been to date, significant additional development is needed 
before the technology is ready for mass-production. Additional research 
is needed to continue the technology development, perform sub-system 
development and validation, address circumvention concerns, increase 
the amount of usability testing, improve standard calibration devices 
and perform reliability, repeatability and durability testing on actual 
vehicles. This effort is currently estimated to be ready for auto 
industry handoff and integration in 2018. At least $5 million per year 
for each of the upcoming five years is needed to perform the required 
research.

    Question 5b. The designated five-year cooperative program between 
the auto industry and NHTSA runs through 2013. What will the auto 
industry's commitment to this technology be beyond 2013?
    Answer. NHTSA is currently in discussions about a new research and 
development agreement with auto industry partners, and new cooperative 
agreement is expected to be finalized. The new agreement will represent 
a significant increase in the Department's investment in technologies 
that could prevent drunk drivers from operating vehicles. We are now 
working with our partners to determine the level and type of support 
they will provide as part of the new cooperative agreement.

    Question 6. According to testimony, vehicle-to-vehicle technology 
has the potential to prevent 80 percent of crashes, when fully 
deployed. However, it will be more than 10 years before this technology 
is deployed.

    Question 6a. What are the safety benefits of this technology during 
the scale-up of deployment?
    Answer. Vehicle-to-vehicle or V2V technology has the potential to 
address 80 percent of crashes of unimpaired drivers. This statement 
indicates that the technology can be applied to 80 percent of the 
crashes, but it does not suggest that every crash will be avoided. The 
current research is collecting data and conducting analysis and 
evaluation to estimate the effectiveness of the technology and the 
benefits that would result with consideration given to various 
percentages of fleet penetration. However, even as deployment of V2V is 
scaling up, safety benefits would be substantial for vehicles equipped 
with the technology, particularly where vehicle to infrastructure 
applications also are deployed.

    Question 6b. What can be done to take advantage of incremental 
safety benefits?
    Answer. Given that a message from one vehicle needs to be received 
by another, the benefits will depend on the level of technology 
deployed. DOT is analyzing various deployment scenarios to estimate 
incremental benefits over the scale-up period. The primary benefits are 
from warning a driver and avoiding a crash. However, in the scale-up 
period some vehicles may only transmit a message through the 
installation of aftermarket devices. Vehicles with these devices would 
provide the benefit of being able to be ``seen'' by vehicles with 
devices that both receive messages and provide warnings. The mixture of 
original equipment and after-market devices is likely to produce 
significant safety benefits even early in the scale-up period.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                        Hon. David L. Strickland
    Question 1. Administrator Strickland, following incidents in 2009 
and 2010 of Sudden Unintended Acceleration in Toyota vehicles, this 
Committee found that NHTSA lacked the authority, expertise, and 
resources to fully investigate possible electronics-based defects. A 
NASA/NHTSA report in 2011 noted ``. . . features such as vehicle-to-
vehicle (V2V) and vehicle-to-infrastructure (V2I) communications will 
likely require further increases in software complexity.'' MAP-21 took 
steps to address this lack of electronic expertise and capacity at 
NHTSA by establishing a Council for Vehicle Electronics, Vehicle 
Software, and Emergency Technology to improve the agency's expertise in 
passenger motor vehicle electronics and will focus on reliability, 
cybersecurity, and emergency technologies.

    Question 1a. I understand NHTSA recently convened the Council, so 
what can you tell me about the group's work and what it will mean for 
NHTSA's ability to properly detect defects in these complex systems, 
assess their potential causes and propose solutions?
    Answer. According to National Academy of Science's (NAS) report The 
Safety Promise and Challenge of Automotive Electronics, NHTSA's 
decision to close its investigation of Toyota's electronic throttle 
control as a possible cause of unattended acceleration was justified. 
Furthermore, the National Aeronautics and Space Administration's (NASA) 
report on unintended acceleration did not find any evidence 
contradicting NHTSA's conclusions in its investigation. The agency has 
issued standards for some electronic safety systems, such as electronic 
stability control or ESC, and has successfully conducted many 
investigations involving defective or noncompliant electronics. At the 
same time, NHTSA continues to take steps to further increase our 
expertise in this important field.
    To coordinate and manage agency activities in the area of vehicle 
electronics, the agency established the Council on Vehicle Electronics, 
Vehicle Software and Emerging Technologies, as required by MAP-21. The 
Council meets on a bi-monthly basis to discuss and share information. 
The mission of the group is to broaden, leverage and expand the 
agency's expertise in motor vehicle electronics and to continue 
ensuring that these technologies enhance vehicle safety. Currently the 
Council is assessing the need for safety standards for vehicle 
electronics by overseeing a data analysis of the types and frequency of 
electronic control system failures. The results will be a key input to 
the report to Congress on the need for safety standards in the 
electronics area. We expect to deliver this report in 2014.
    In addition to the Council, NHTSA has expertise it can access both 
within the agency and outside specialists in the area of vehicle 
electronics. As supported by the findings of the NAS and NASA reports, 
the agency believes it has the needed expertise to address defects 
issues that may arise in the near term. However, in the long term, we 
will need to expand our ability and capacity to test, monitor and 
trouble-shoot new technologies as expeditiously and efficiently as 
possible. We will further explore ways for NHTSA to address these new 
challenges across the spectrum of our vehicle safety program 
responsibilities. The President's FY 2014 budget proposed to undertake 
activities to provide the capability of advanced testing of emergent 
technologies at our Vehicle Research and Test Center and to hire 
additional electronics and electrical engineers.

    Question 2. Administrator Strickland, NHTSA oversees the NCAP 
program which is a rating system for vehicle safety uses by consumers 
in the market for new cars. The current system rates vehicles on 
frontal- and side-crash resistance, electronic stability control, lane 
departure warning, as well as other safety systems. I know NHTSA is 
considering an update to the NCAP program and recently released a 
request for comment seeking input on which advanced safety systems 
should be included in the new NCAP rating system.

    Question 2a. Can you tell me what the agency looks at when it 
considers adding new safety systems to the NCAP program?
    Answer. When considering a new advanced safety system for possible 
inclusion into NCAP, NHTSA analyzes the following:

  <bullet> Is there a safety benefit that could be obtained and that 
        can be demonstrated in the form of projected lives saved, 
        injuries prevented and crashes reduced?

  <bullet> Are there objective test procedures or industry standards 
        that would measure performance differences?

  <bullet> Is the technology mature enough for mass production?

  <bullet> Would the technology create the market forces necessary to 
        encourage the adoption into NCAP?

    Question 2b. Do you find the NCAP system to be a useful way to 
create incentives for auto manufacturers?
    Answer. Yes, NCAP is useful and successful in creating safety 
incentives for auto manufacturers. When the agency began rating 
vehicles for frontal impact safety, fewer than 30 percent of vehicles 
tested received the 4 or 5 star frontal crash safety rating for the 
driver seating position. By 2006, this increased to 98 percent. 
Implementation of side crash and rollover resistance NCAP ratings 
programs achieved safety improvements even more quickly.
    Therefore, in 2010, we raised the safety bar by incorporating more 
stringent crash tests, making it harder for vehicles to achieve 4 or 5 
stars. Since then, vehicle manufacturers have responded positively with 
additional safety improvements. NCAP's advanced technology 
recommendations have also increased the installation rates of advanced 
crash avoidance features. For example in 2010, 10 percent of the new 
vehicle models sold in the U.S. had lane departure warning or forward 
collision warning systems as optional safety features. By 2012, this 
increased to 25 percent.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Dan Coats to 
                        Hon. David L. Strickland
    Question 1. In each year from 1992 to 2007, 40,000 lives were lost 
and nearly 3 million people were seriously injured in vehicular 
crashes. The rate of fatalities per crash per miles driven has remained 
nearly constant for 15 years (approximately 11 fatalities per billion 
miles driven per year) at an estimated economic cost of nearly $231 
billion annually. There is evidence that increased utilization of 
active safety technologies, including collision imminent braking, 
radar, driver monitoring and workload management, could significantly 
improve safety on our roads. The Insurance Institute for Highway Safety 
(IIHS) estimates the measurable benefits of crash avoidance features on 
passenger vehicles as a 32 percent reduction in crashes, a 21 percent 
reduction in injuries and a 31 percent reduction in fatalities. That is 
well over 10,000 lives saved per year. Many of these technologies are 
in use, but they are in relatively few vehicles. At the current rate of 
acceptance, it is estimated that active safety technologies will not 
significantly impact crash statistics for 20 years.

  <bullet> What steps are being taken by NHTSA to examine active safety 
        technologies through the NCAP program?

  <bullet> What is NHTSA doing to improve consumer understanding of the 
        benefits of active safety technologies?

    Answer. NHTSA has undertaken several steps to examine active safety 
technologies through the New Car Assessment Program (NCAP). These steps 
include the following:

  <bullet> We published a ``Request for Comments'' notice on April 5, 
        2013 (78 FR 20597), requesting public input to help identify 
        the potential areas for improvement to NCAP that have the 
        greatest potential for producing safety benefits, including 
        crash avoidance technologies. We will review the comments and 
        use this input to guide further decisions on providing crash 
        avoidance technology information through NCAP, including 
        developing a draft 5-year research plan as well as longer term 
        upgrades that the agency intends to pursue making to NCAP.

  <bullet> Concurrently, NHTSA is conducting research and working 
        towards agency decisions on the next actions for certain 
        advanced technology systems such as crash imminent braking and 
        dynamic brake support. If research involving a particular 
        safety technology indicates that it is sufficiently developed, 
        the agency may decide to pursue a requirement through a new 
        safety standard instead of or in addition to recommending the 
        technology through NCAP.

    NHTSA has also undertaken several steps to improve consumer 
understanding of the benefits of active safety technologies. These 
steps include the following:

  <bullet> Beginning with model year 2011, the agency added to NCAP 
        information about the presence of advanced crash avoidance 
        technologies in vehicles. Technologies shown to have a safety 
        benefit and that meet NHTSA's performance criteria are 
        recommended to consumers on www.safercar.gov, where all NCAP 
        ratings are posted.

  <bullet> Recently launching a ``SaferCar'' mobile application. This 
        application includes information about the availability of 
        recommended advanced technologies.

  <bullet> Developed videos, vehicle illustrations and fact sheets to 
        educate the public and promote advanced crash avoidance 
        technologies.

  <bullet> Working with our partners, such as independent automotive 
        websites, to increase awareness and promote certain advanced 
        crash avoidance technologies.

  <bullet> Conducting comprehensive consumer research on advanced crash 
        avoidance technologies to gauge understanding of these 
        technologies and develop effective approaches for communicating 
        these technologies to consumers.

  <bullet> Publishing the agency's Automated Vehicles Policy Statement 
        concerning vehicle automation, including plans for research on 
        related safety issues and recommendations for states related to 
        the testing, licensing, and regulation of ``autonomous'' or 
        ``self-driving'' vehicles.

    Question 2. Congress expanded the New Car Assessment Program (NCAP) 
with the creation of the Passenger Motor Vehicle Program in 2012 
(Section 31305 of MAP-21, P.L. 112-141). Specifically, The Passenger 
Motor Vehicle Program directs the Secretary of Transportation to 
maintain a program that develops information on passenger motor 
vehicles, including crash avoidance and other areas that will improve 
the safety of passenger motor vehicles. The Secretary is directed to 
provide this information to consumers, and the Secretary also may 
require auto dealers to distribute this information to consumers. What 
are your plans for implementation of the Passenger Motor Vehicle 
Information Program's requirements on crash avoidance?
    Answer. Currently, three advanced crash avoidance technologies 
(Lane Departure Warning, Forward Collision Warning, and Electronic 
Stability Control) being recommended as part of NCAP. The agency added 
to NCAP information about the presence of advanced crash avoidance 
technologies in vehicles. Technologies shown to have a safety benefit 
and that meet NHTSA's performance criteria are recommended to consumers 
on www.safercar.gov. We also distribute comprehensive vehicle safety 
information at various auto shows across the country, including 
factsheets, media templates, decals, banners and logos for dealers and 
manufacturers to use in educating consumers. NHTSA is developing an 
infographic (animated schematic) to describe the advanced technologies 
and educate the general public, and we plan to conduct a comprehensive 
consumer research program to understand how best to convey to consumers 
the importance of advanced crash avoidance technologies. As noted 
above, we also published a ``Request for Comments'' notice on April 5, 
2013 (78 FR 20597) requesting public input to help identify the 
potential areas for improvement to NCAP that have the greatest 
potential for producing safety benefits, including crash avoidance 
technologies.

    Question 3. In its FY13 budget request, NHTSA states: ``NCAP is 
also considering adding additional crash avoidance advanced technology 
to the current list of crash avoidance technologies. NCAP recommends 
Lane Departure Warning, Forward Collision Warning, and Electronic 
Stability Control to consumers, when a manufacturer demonstrates the 
technology on its vehicle passes the NCAP performance specification. We 
plan to make a decision on the next advanced technology in FY 2012.''

  <bullet> What progress has been made in this effort?

  <bullet> How is this information communicated to consumers?

  <bullet> Will NHTSA include the results of these tests on the 
        Mulroney sticker to ensure that consumers are fully informed 
        about the advantages of crash avoidance technologies? If so, 
        when? If not, why not?

  <bullet> Based on the test criteria for these features already 
        developed in Europe for pending EuroNCAP updates for active 
        safety, and additionally for pending IIHS ratings, are there 
        plans at NHTSA to work with these organizations to harmonize 
        test criteria?

    Answer. The agency has been evaluating several advanced 
technologies that may potentially be added to NCAP. Specifically, NHTSA 
has established a multi-disciplinary project team to evaluate crash 
imminent braking and dynamic brake support. We also published a 
``Request for Comments'' notice on April 5, 2013 (78 FR 20597) 
requesting public input to help identify the potential areas for 
improvement to NCAP that have the greatest potential for producing 
safety benefits, including crash avoidance technologies.
    As described above, information regarding the three recommended 
crash technologies (Lane Departure Warning, Forward Collision Warning, 
and Electronic Stability Control) is communicated to consumers via the 
agency's website (www.safercar.gov), the agency's ``SaferCar'' mobile 
application, and various independent websites.
    With respect to the Monroney label, we published a final rule on 
July 29, 2011 (76 FR 45453) revising the safety rating information 
section of the label. At that time, we stated that, due to a lack of 
space, we did not include advanced technologies on the Monroney label. 
In addition, we indicated that we would conduct a comprehensive 
consumer research program to determine whether consumers would like to 
have this information at the point of sale. As consumers become more 
aware and interested in the advanced technologies, we may consider 
including these technologies on the Monroney label. In the meantime, we 
have launched a ``SaferCar'' mobile application to allow consumers to 
access advanced crash avoidance technology information from mobile 
devices.
    NHTSA is the first entity in the world to have performance test 
procedures for the three advanced technologies that are recommended in 
NCAP. We published performance-based test procedures for these 
technologies in 2008. As we are currently developing test procedures 
for forward collision avoidance and mitigation, we have discussed and 
shared our test procedures with other entities that have relevant test 
procedures. For example, our test procedure for forward collision 
avoidance and mitigation was presented to the World Forum for 
Harmonization of Vehicle Regulations (WP.29). Overall, we seek to 
harmonize with other rating programs similar to NCAP where possible, as 
long as the harmonization does not detract from the safety benefits 
that would result from vehicle designs passing the NHTSA performance 
test procedures.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                             Mitch Bainwol
    Question 1. Approximately every 50 minutes, one life is lost to 
drunk driving. Beginning in 2008, the auto industry entered a five-
year, cooperative program with the National Highway Safety 
Administration (NHTSA) to invest in emerging technologies that would 
stop drivers from operating a vehicle if drunk, such as Driver Alcohol 
Detection System for Safety (DADSS) technology. The 2012 transportation 
reauthorization law, MAP-21, provided funds to NHTSA to continue this 
research. What funding levels are needed to adequately support this 
research?
    Answer. The current five-year cooperative program will culminate 
late this year with each of the competing DADSS technologies (one 
breath-based and one touch-based) being incorporated into a single 
research vehicle for further evaluation. At this juncture, the DADSS 
technologies have not fully achieved the key performance specifications 
established that will be necessary to help garner consumer acceptance 
of the technologies, i.e., speed, accuracy, and precision of 
measurement. The gaps in performance are being quantified, and more 
importantly, the research remaining to close these gaps will be 
identified. At present, it is anticipated that an additional 5 years of 
research and testing (including on-road, real-world testing and human 
subject testing) is needed to be able to determine whether one or more 
DADSS technologies can be commercialized. Until side by side testing 
and validation of the two competing technologies in the research 
vehicles are completed and the gaps in performance are quantified, 
consistent funding of these research activities will be required. An 
informed assumption is that at least $5 million a year through Fiscal 
Year 2018 is needed.

    Question 2. The designated five-year cooperative program between 
the auto industry and NHTSA runs through 2013. What will the auto 
industry's commitment to this technology be beyond 2013?
    Answer. The automakers involved in the current cooperative effort 
represent roughly 99 percent of new light vehicle sales in the U.S. 
Their commitment to the current effort has been to provide intellectual 
support (e.g., development of the DADSS performance specifications and 
the current effort's 5-year research plan) in addition to funding 
support. These automakers are encouraged that the current effort has 
transformed a highly speculative idea into a robust technology concept 
with potential for commercialization. The technical and public 
acceptance challenges in commercializing the DADSS technology are 
considerable, but the potential safety benefits are promising. An 
analysis by the Insurance Institute for Highway Safety estimates that 
if driver blood alcohol concentrations were no greater than 0.08 
percent--the legal limit in all 50 states--7,082 of the 10,228 alcohol-
impaired road user fatalities occurring in 2010 may have been 
prevented. Given this, automakers remain committed to completing the 
research needed to be able to determine whether one or more DADSS 
technologies can be commercialized and accepted by the driving public.

    Question 3. According to testimony, vehicle-to-vehicle technology 
has the potential to prevent 80 percent of crashes, when fully 
deployed. However, it will be more than 10 years before this technology 
is deployed. What are the safety benefits of this technology during the 
scale-up of deployment?
    Answer. According to a NHTSA report, connected vehicles may have 
the potential to address 80 percent of non-impaired crashes in the 
light-vehicle fleet once sufficient market penetration has been 
achieved (another 10+ years). In addition, we can anticipate 
environmental benefits from the congestion mitigation opportunities and 
potential fuel savings associated with the technology. Deployment on a 
wide array of light duty and medium/heavy duty vehicles is possible. In 
the interim, as the technology is implemented on a more piece-meal 
basis, we will see benefits associated with greater warnings for 
drivers of potential crash situations and which technologies which may 
assist with avoiding an accident (such as application of brakes and 
adjustable cruise controls).

    Question 4. What can be done to take advantage of incremental 
safety benefits?
    Answer. One of the most important things that can be done to take 
advantage of the incremental benefits associated with this technology 
is to ensure that the spectrum band associated with this technology, 
Dedicated Short Range Communications (DSRC), be highly secure and 
protected from any potential harmful interference. Given the potential 
life-saving applications of DSRC and inherent chaotic nature of roadway 
travel it is imperative that the signals and warnings that DSRC systems 
provide be free from harmful interference.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                            Jeffrey J. Owens
    Question 1. According to testimony, vehicle-to-vehicle technology 
has the potential to prevent 80 percent of crashes, when fully 
deployed. However, it will be more than 10 years before this technology 
is deployed. What are the safety benefits of this technology during the 
scale-up of deployment?
    Answer. Delphi believes the most effective active safety 
technologies to prevent crashes are sensing devices such as radar and 
cameras that can provide full 360 degree sensing coverage around the 
vehicle with a high degree of accuracy. These sensors can warn drivers 
of potential accidents and can allow vehicles to react when drivers do 
not, regardless of whether the threat is another vehicle, pedestrian, 
or other object.
    The addition of vehicle to vehicle (V2V) technology is an 
enhancement to these sensors that enables vehicles to share information 
dynamically about their position, direction, and mass--not just to each 
other but also to the surrounding traffic network. Use of V2V 
technology independently (without vehicle sensors) would require that 
all vehicles have the technology to be effective and to ``see'' each 
other. V2V alone would not protect drivers from other vehicles without 
V2V technology, nor would the systems work with pedestrians or other 
moving objects.
    The benefits that could be achieved with the implementation of 
sensors such as radar and cameras would be to enable drivers to be 
informed of potential collisions with any object or lane departure 
event, and for the vehicle to react when the driver cannot. These 
technologies, on the road today, can lead to measurable reductions in 
collisions and related injuries and fatalities.

    Question 2. What can be done to take advantage of incremental 
safety benefits?
    Answer. A roadblock to the widespread usage of advanced active 
safety technology is consumer awareness. Although these technologies 
have been on the road since 1999, relatively few vehicles are equipped 
today with these features, despite their availability on multiple 
vehicles and lower costs. The enhancement of today's NHTSA New Car 
Assessment Program (NCAP) to include ratings for these crash avoidance 
technologies would help to drive consumer awareness, giving drivers an 
informed choice for their vehicle purchase. These ratings should be 
clearly included on the vehicle Monroney label, along with consumer 
information campaigns to inform the public of the benefits of these 
life-saving technologies.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                         Dr. Peter F. Sweatman
    Question 1. Despite many improvements in road safety in the U.S., 
the current safety level is far below the level of the best-performing 
countries. For example, speed limiters are compulsory for heavy trucks 
in Sweden, the Netherlands, and the United Kingdom, but there is 
currently no such requirement in the U.S. In addition, while ignition 
interlock technology is currently utilized in the U.S., ignition 
interlocks are not required for all first-time drunk driving offenders 
despite the fact the NTSB has recommended such a requirement.

    Question 1a. Would a speed limiter ``top-speed'' requirement on 
heavy trucks improve safety on our Nation's roads?

    Question 1b. Would expanded use of ignition interlocks improve 
safety on U.S. roads?
    Answer. While it is true that the overall U.S. fatality rate (both 
by population and by distance traveled) is higher than the best-
performing countries, we find some interesting variations when we 
consider fatality rates for specific categories of vehicles such as 
cars and heavy trucks. In terms of international comparisons, the U.S. 
heavy truck fatality rate fares considerably better than the rate for 
cars. This is partly because a relatively high proportion of U.S. heavy 
truck travel occurs on high-standard divided roadways. Such roadways 
have lower heavy truck crash rates than two-way undivided roads. So the 
U.S.'s performance in heavy truck fatality rates is better than its 
performance in passenger car crash rates, which represent the bulk of 
the Nation's highway safety performance.
    Having said that, technological means of controlling truck speed 
would reduce heavy truck crash risks. Experience in other countries has 
shown that the severity of heavy trucks crashes can be reduced when 
speed limiters are compulsorily fitted. Such improvements will occur on 
higher-speed roadways such as interstates. I would note that the 
positive impact of a requirement to fit speed limiters would be reduced 
somewhat by the fact that a significant number of the larger fleets 
already voluntarily fit speed limiters, and overseas experience shows 
some propensity to tamper with speed limiter settings. A speed limiter 
requirement is therefore desirable, but would not have as high priority 
as requirements for other safety technology, such as electronic 
stability control, forward collision warning or collision mitigation 
braking.
    Alcohol impairment has a very significant impact on the U.S. 
highway fatality rate. Not enough is being done to reduce the very 
serious societal consequences of drink-driving. Experience in other 
countries has shown that deaths and injuries caused by drink-driving 
can be reduced through behavioral interventions, including media 
campaigns and stringent, purposeful enforcement with very serious 
consequences, even for first-time offenders. Technological 
interventions, such as interlocks, have not yet been fully perfected in 
the sense that the reliability may not be commensurate with the gravity 
of the intervention for fleet-wide installation. If current-technology 
interlocks were fitted to the majority of the U.S. car fleet, normal 
automotive levels of reliability could result in many legitimate trips 
being prevented, and hence significant consumer/public dissatisfaction. 
However, it makes sense for drink-driving offenders to be required to 
fit current-technology interlocks, regardless of the reliability issue. 
Such a requirement would likely improve safety on U.S. roads.
    Additionally, NHTSA and a group of automakers are currently 
researching the potential for a much higher-performing interlock, which 
could result in vastly improved capability and reliability, and could 
therefore reduce or eliminate the chance for ``false-positives''. This 
research should be continued, as it could have very significant benefit 
for vehicle safety.

    Question 2. According to testimony, vehicle-to-vehicle technology 
has the potential to prevent 80 percent of crashes, when fully 
deployed. However, it will be more than 10 years before this technology 
is deployed.

    Question 2a. What are the safety benefits of this technology during 
the scale-up of deployment?

    Question 2b. What can be done to take advantage of incremental 
safety benefits?
    Answer. The potential safety benefit for V2V is significant. As 
such we should proceed swiftly and diligently with finalizing the 
research and moving into a regulatory and deployment stage for V2V.
    The effectiveness of nearly every safety technology is dependent on 
its introduction curve and the sale of equipped new vehicles, and in 
many regards V2V is no different. Of course, since it is a cooperative 
technology, V2V effectiveness will follow a ``delayed'' curve. But this 
delay will be largely overshadowed by the overall effectiveness of the 
technology, and should not be a reason to stall or disrupt deployment.
    The safety benefits of the technology at relatively low densities 
of V2V-equipped vehicles are being probed in the Ann Arbor Safety Pilot 
Model Deployment, where many thousands of useful interactions have been 
generated with less than 3,000 equipped vehicles.
    While the density of V2V-equipped vehicles in the traffic stream is 
clearly a governing factor in the magnitude of the safety benefit, 
other factors affect the rate of beneficial safety messages. In 
situations where traffic streams interact, the rate of safety messages 
increases exponentially with the density of equipped vehicles.
    Having said that, we should not rely solely on the new-vehicle 
fitment of V2V technology to provide the large safety benefits offered 
by connected vehicle technology. We should be accelerating research 
into deployment of Dedicated Short Range Communication (DSRC) safety 
through Vehicle Awareness Devices (VSDs), which act as a beacon for 
other equipped vehicles to ``see'', and Aftermarket Safety Devices 
(ASDs), which can provide warnings and information to the driver as 
long as they are designed and installed properly. These devices can be 
incorporated into many existing products, such as retrofitted 
communications and navigation systems, and potentially even cell 
phones. These devices, if proven to be effective for safety, could 
provide a very short path to safety effectiveness. Additionally, these 
devices can potentially provide safety applications and benefits for 
vulnerable road users, such as pedestrians and bicyclists.
    The deployment of retrofit and aftermarket devices in existing 
vehicles is therefore a critical tool in accelerating the safety 
benefits.
    Importantly, there will be a need for government-supported efforts 
to continually maximize and accelerate the benefits for the owners of 
both equipped and retrofitted vehicles. These efforts need to include 
vehicle-to-infrastructure (V2I), through large regional deployments, 
and address the incidence and usefulness of information broadcast to 
the vehicle. The fitment of equipment in the infrastructure is a 
critical factor in accelerating safety benefits. And there is 
exponential benefit to be found in selectively fitting equipment at 
infrastructure ``black-spots'' such as high-accident-rate 
intersections. The U.S. Government must accelerate the pace of V2I 
research and take the lead to ensure the earliest deployment of 
connected infrastructure.
    As the rate of beneficial safety messages increases rapidly in 
large regional deployments, we will be in a stronger position to design 
more powerful V2V safety applications, and to more fully appreciate 
their benefits. We will also begin to see whether community-based 
influences could come into play. For example, we have found that 
members of the Ann Arbor community see common cause in having their 
vehicles fitted. Unlike all previous safety systems, V2V not only has 
potential benefit for those who travel in your vehicle, but also for 
every other vehicle you encounter in your community and out on the 
highway.
    Larger-scale regional deployments of V2V and V2I are needed to 
bridge between model deployments, such as in Ann Arbor, and a national 
deployment. Such regional deployments would benefit from utilizing 
large company and government vehicle fleets, and should be enhanced 
with roadside equipment in the infrastructure. Federal funding will be 
needed to support the design and execution of such deployments, 
including interoperability of equipment, promoting the uptake of 
aftermarket devices, data collection and analysis, community outreach, 
and the preparation of any additional standards, protocols and 
incentives required to accelerate mainstream deployment.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                            Dr. John D. Lee
    Question 1. According to testimony, vehicle-to-vehicle technology 
has the potential to prevent 80 percent of crashes, when fully 
deployed. However, it will be more than 10 years before this technology 
is deployed. What are the safety benefits of this technology during the 
scale-up of deployment?
    Answer. Although the turnover of the U.S. automotive fleet delays 
the full deployment of vehicle-to-vehicle and vehicle-to-infrastructure 
technology for many years, substantial safety benefits might be seen 
much earlier. Two factors might accelerate the safety benefits before 
full-scale deployment:

  (1)  Aftermarket devices could make it feasible to equip existing 
        vehicles with some elements of vehicle-to-vehicle technology. 
        Just as aftermarket navigation and entertainment systems enable 
        drivers to upgrade their existing vehicles, aftermarket 
        vehicle-to-vehicle systems could provide drivers with advanced 
        technology before they purchase a new car. Even advances in 
        cellphone technology might serve to provide some features 
        associated with full deployment of vehicle-to-vehicle 
        technology, as seen in the Waze app, and in a recent 
        demonstration of how vehicle-to-bicycle alerts can be provided 
        through cellphones (Dozza, M., & Gustafsson, P. (2013). 
        BikeCOM--A cooperative safety application supporting cyclists 
        and drivers at intersections. Proceedings of the 3rd Conference 
        of Driver Distraction and Inattention, Gothenbrug, 4-6 
        September, 2013.).

  (2)  Substantial benefits of vehicle-to-vehicle technology accrue to 
        the traffic stream rather than the individual driver. The most 
        obvious beneficiary of vehicle-to-vehicle technology is the 
        driver who receives its warnings; however, the surrounding 
        drivers can benefit as well. A driver who brakes in response to 
        a vehicle-to-vehicle warning of a crash on the road ahead will 
        lead surrounding drivers to slow even through they might not 
        receive the warning. Likewise, a simulation of traffic showed 
        that when 20 percent of vehicles engaged adaptive cruise 
        control traffic jams were avoided. Not all cars need to have 
        the same technology for everyone to benefit. Davis, L. C. 
        (2004). Effect of adaptive cruise control systems on traffic 
        flow. Physical Review E, 69(6), 066110. doi:10.1103/
        PhysRevE.69.066110.

    Question 2. What can be done to take advantage of incremental 
safety benefits?
    Answer. (1) Evaluate and promote technology that complements the 
traditional automotive model--technology incorporated by the automotive 
manufactures--such as aftermarket technology and technology that can be 
carried in on smart phones and similar devices.
    (2) Evaluate and promote technology based on its benefit to both 
the driver whose car is equipped and on the benefit to the surrounding 
vehicles that are not equipped.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                             Mitch Bainwol
    Question 1. In your testimony you state that connected vehicle 
spectrum in the 5.9 gigahertz band must remain ``solely dedicated to 
auto communications technologies.'' This does not leave open the 
possibility that connected vehicles could share the spectrum with 
unlicensed Wi-Fi, even if Wi-Fi devices are found not to cause 
interference with connected vehicles. I believe, however, that the best 
possible public policy outcome is if the engineers can find a way for 
both technologies to co-exist in the 5.9 gigahertz band. If it turns 
out that Wi-Fi will not interfere with connected vehicles, do you still 
believe that Wi-Fi should not be allowed to operate in the 5.9 band?
    Answer. Thank you for the opportunity to clarify.
    The Federal Communications Commission (FCC) proposes to make 
available an additional 195 MHz of spectrum for use by unlicensed 
wireless devices. This would equate to a 35 percent increase in the 
amount of spectrum currently allocated for such use. Approximately two-
thirds of this proposed increase would be achieved by opening the 5.4 
GHz frequency band (5.35-5.47 GHz). The balance of this increase would 
come from the 5.9 GHz band (5.85-5.925 GHz).
    The 5.9 GHz band is allocated on a primary basis to Department of 
Defense (DOD) radar systems for military surveillance and test range 
instrumentation systems, fixed satellite (earth to space) uses by the 
National Aeronautics and Space Administration (NASA), the National 
Oceanic and Atmospheric Administration (NOAA) and the Department of 
Energy (DOE), and non-federal operations limited to Dedicated Short 
Range Communication Service (DSRC) systems.
    Given these critical safety and security uses, the Alliance 
believes that the FCC should adopt a ``do no-harm'' strategy until 
testing is complete. Auto manufacturers, suppliers and the Department 
of Transportation (DOT) have spent hundreds of millions of dollars on 
research and development using DSRC systems to make connected vehicles 
a reality and achieve the potential safety, mobility and environmental 
benefits for the American transportation system, as discussed at the 
hearing. At the same time, we recognize the potential economic benefits 
from expanding wireless access; therefore, we are not opposed to 
sharing the 5.9 GHz spectrum provided that can be accomplished without 
harmful interference or channel congestion for safety-critical systems.
    The Alliance's fundamental concern is that the timelines announced 
by the National Telecommunications and Information Administration 
(NTIA) for testing for potential interference with these systems (mid-
2014) and the FCC for completing the 5.9 GHz rulemaking (end of 2013) 
are out of sync. We agree with you that potential exists to achieve a 
good public policy outcome both for vehicle safety and for expanded 
wireless access, but the requisite testing must be completed, and any 
outstanding issues must be resolved before a final rule is issued.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
